<html>
<title> - THE FUTURE OF AERONAUTICS AT NASA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                             THE FUTURE OF
                          AERONAUTICS AT NASA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2005

                               __________

                            Serial No. 109-8

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
20-007                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                   KEN CALVERT, California, Chairman
RALPH M. HALL, Texas                 MARK UDALL, Colorado
LAMAR S. SMITH, Texas                DAVID WU, Oregon
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   JIM COSTA, California
TOM FEENEY, Florida                  AL GREEN, Texas
MICHAEL T. MCCAUL, Texas             CHARLIE MELANCON, Louisiana
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
                  KEN MONROE Professional Staff Member
                 CHRIS SHANK Professional Staff Member
               ROSELEE ROBERTS Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             March 16, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    14
    Prepared Statement by Gregory J. Juneman, President, 
      International Federation of Professional & Technical 
      Engineers, AFL-CIO & CLC...................................    16

Prepared Statement by Representative J. Randy Forbes, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    22

Prepared Statement by Representative Michael M. Honda, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    22

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    23

                                Panel I:

The Hon. Jo Ann Davis, a Representative in Congress from the 
  State of Virginia
    Oral Statement...............................................    25
    Written Statement............................................    26

The Hon. Dennis J. Kucinich, a Representative in Congress from 
  the State of Ohio
    Oral Statement...............................................    28
    Written Statement............................................    29

Discussion.......................................................    57

                               Panel II:

Dr. J. Victor Lebacqz, Associate Administrator, Aeronautics 
  Research Mission Directorate, NASA
    Oral Statement...............................................    61
    Written Statement............................................    63
    Biography....................................................    69

Dr. John M. Klineberg, Committee Chairman, National Research 
  Council Panel
    Oral Statement...............................................    70
    Written Statement............................................    73
    Biography....................................................    85

Dr. Philip S. Anton, Director, Center for Acquisition and 
  Technology Policy, RAND
    Oral Statement...............................................    86
    Written Statement............................................    87
    Biography....................................................    96

Dr. Mike J. Benzakein, Chairman, Department of Aerospace 
  Engineering, Ohio State University
    Oral Statement...............................................    97
    Written Statement............................................    99

Dr. R. John Hansman, Jr., Director, International Center for Air 
  Transportation, MIT
    Oral Statement...............................................   102
    Written Statement............................................   104
    Biography....................................................   110

Discussion
  Aeronautics Planning: Budget vs. Priorities....................   110
  Zero Base Review...............................................   111
  Number of Wind Tunnels Needed..................................   112
  Credibility of NASA's Aeronautics Plan.........................   113
  U.S. Competitiveness and the Aeronautic Budget.................   115
  Workforce at Langley Research Center...........................   115
  Plans for Wind Tunnel Closures.................................   116
  U.S. Competition...............................................   117
  Workforce Retention............................................   119
  Effects of the Budget Proposal.................................   122
  Aeronautics Funding Cuts.......................................   123
  Hypersonics....................................................   124

             Appendix 1: Answers to Post-Hearing Questions

Dr. J. Victor Lebacqz, Associate Administrator, Aeronautics 
  Research Mission Directorate, NASA.............................   128

Dr. John M. Klineberg, Committee Chairman, National Research 
  Council Panel..................................................   142

Dr. Philip S. Anton, Director, Center for Acquisition and 
  Technology Policy, RAND........................................   146

Dr. Mike J. Benzakein, Chairman, Department of Aerospace 
  Engineering, Ohio State University.............................   149

Dr. R. John Hansman, Jr., Director, International Center for Air 
  Transportation, MIT............................................   151

             Appendix 2: Additional Material for the Record

Statement of Mr. John W. Douglass, President and Chief Executive 
  Officer, Aerospace Industries Association of America...........   154

Aeronautics Test Program (ATP) White Paper.......................   160

 
                   THE FUTURE OF AERONAUTICS AT NASA

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Ken 
Calvert [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                             The Future of

                          Aeronautics at NASA

                       wednesday, march 16, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 16, at 10:00 a.m., the Subcommittee on Space 
and Aeronautics will hold a hearing on the proposed Fiscal Year (FY) 
2006 budget for aeronautics at the National Aeronautics and Space 
Administration's (NASA).
    The budget proposes significant changes in NASA's aeronautic 
programs, including, over the next five years, dramatic cuts in funding 
and staffing, closure of facilities, and redirection of research 
priorities. NASA argues that these proposed changes would enable NASA 
to focus on the highest priority areas in aeronautics while freeing up 
Agency funds for space exploration programs, the Agency's highest 
priority.
    NASA has played a role in advancing aeronautics since its 
inception. Indeed, NASA was created by expanding the National Advisory 
Committee on Aeronautics (NACA), a federal agency created in 1917 to 
promote aeronautics. NASA's Langley Research Center in Virginia, one of 
its aeronautics centers, dates back to 1917.
    Today, aeronautics programs are run by NASA's Aeronautics Research 
Mission Directorate (ARMD). No other federal agency supports research 
on civilian aircraft. NASA's aeronautics program also conducts most of 
the research on air traffic control systems, a responsibility it shares 
with the Federal Aviation Administration (FAA). The Aeronautics 
Directorate includes three NASA Centers: Glenn Research Center, Ohio; 
Dryden Research Center, California; and Langley Research Center, 
Virginia.

Overarching Questions

    The Committee plans to explore the following overarching questions 
at the hearing:

        1.  What are the trends in civil aeronautics and what should 
        the U.S. national strategy be for civil aeronautics research 
        and development?

        2.  What is NASA's aeronautics research strategy and how well 
        does it align with the Nation's strategic needs for civil 
        aeronautics research?

        3.  Should NASA preserve its inventory of wind tunnels and 
        propulsion test facilities until a new national strategy can be 
        developed and funded?

        4.  How does NASA intend to achieve the workforce reductions it 
        has proposed without losing essential skills and capabilities?

Witnesses

Dr. Vic Lebacqz is Associate Administrator of the Aeronautics Research 
Mission Directorate, National Aeronautics and Space Administration. He 
was named to his current position since January 2004, after serving 
about six months in an acting capacity.

Dr. John Klineberg led a 2004 National Academy of Sciences study 
entitled ``Review of NASA's Aerospace Technology Enterprise: An 
Assessment of NASA's Aeronautics Technology Program.'' He is retired as 
President of Space Systems/Loral, and for 25 years worked at NASA, 
including as Director of the Goddard Space Flight Research Center and 
the Ames Research Center.

Dr. Philip Anton was the principal investigator of a 2004 report 
produced by the RAND Corporation entitled ``Wind Tunnels and Propulsion 
Test Facilities: An Assessment of NASA's Capabilities to Serve National 
Needs.'' The report was jointly sponsored by NASA and the Department of 
Defense. He is a senior scientist at RAND, which is a federally funded 
research and development center sponsored by the Department of Defense.

Dr. Mike Benzakein was named Chairman of the Department of Aerospace 
Engineering at the Ohio State University in October 2004. From 1967 
through 2004 he worked for GE Aircraft Engines and retired as General 
Manager of Advanced Technology and Military Engineering.

Dr. John Hansman is a Professor of Aeronautics and Astronautics at the 
Massachusetts Institute of Technology, and Director of the 
International Center for Air Transportation.

FY06 Aeronautics Budget Highlights

    Over the last decade, funding for NASA's aeronautics research has 
declined by more than half, to about $900 million. For FY06, NASA 
proposes a relatively small decrease ($54 million, or about six 
percent) in aeronautics research and development compared to its FY05 
Operating Plan. But the Agency's proposed five-year runout for 
aeronautics contemplates substantial funding reductions (20 percent) 
for aeronautics research, together with significant cutbacks in its 
civil service and contractor workforces.
    Civil service personnel and infrastructure costs account for much 
of the Aeronautics Directorate's budget, largely because of the 
expenses involved in the operation and maintenance of NASA's 31 wind 
tunnels.
    This is not the case for other portions of NASA, for which grants 
and contracts account for much of the cost. As a result, while the 
Aeronautics Directorate receives only six percent of NASA's total 
budget, it employs 23 percent of the entire NASA workforce and is 
responsible for 40 percent of all of NASA's infrastructure costs.
    The Aeronautics Directorate comprises three programs--the Vehicle 
Systems Program, the Aviation Safety and Security Program, and the 
Airspace Systems Program. The Administration's proposed budget for the 
next five years for these three programmatic areas is shown below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Vehicle Systems
    Vehicle Systems emphasizes research in traditional air vehicle 
design concepts (examples being wing designs and high-speed aircraft), 
and for FY06, takes the biggest cut among the three programs (down $109 
million compared to FY05, a 19 percent reduction). The proposed budget 
would make further reductions in the program in FY07, resulting in a 
cut of 33 percent (compared to FY05).
    The cuts would be made by narrowing the program's focus beginning 
in FY06. The program would concentrate on projects designed to make 
significant leaps forward on technology and less on incremental 
changes. Specifically, the program would focus on four areas: (1) zero 
emissions aircraft--to demonstrate an aircraft powered by fuel cells; 
(2) subsonic noise reduction--to demonstrate a 50 percent reduction in 
noise compared to 1997 state-of-the-art; (3) high altitude long 
endurance (HALE)--to demonstrate a 14-day duration high altitude, 
remotely operated aircraft; and (4) sonic boom reduction--to 
demonstrate technology that could enable acceptable sonic boom levels.
    Research activities proposed for termination in the FY06 Vehicle 
Systems program include hypersonics (higher-speed aircraft), rotorcraft 
(helicopters), and improvements in engine efficiency.
    To conduct its research, Vehicle Systems relies heavily on wind 
tunnels and propulsion test facilities. The proposed budget appears to 
assume the closure of one or more of these facilities with associated 
cutbacks in staff (see below). However, NASA has not released any 
information on which facilities it would close or when, or the criteria 
on which closure decisions would be based.
    In arguing for the proposed changes in the Vehicle Systems Program, 
NASA has cited a 2004 National Academy of Sciences report, ``Review of 
NASA's Aerospace Technology Enterprise: An Assessment of NASA's 
Aeronautics Technology Program,'' led by Dr. John Klineberg. The report 
did recommend that NASA reduce the number of research projects it 
conducted, stating, ``NASA is trying to do too much within the 
available budget and resists eliminating programs in the face of budget 
reductions.'' It also concluded that NASA's ``aeronautics technology 
infrastructure exceeds its current needs, and the Agency should 
continue to dispose of underutilized assets and facilities.'' But while 
the Academy report listed individual projects it thought were a low 
priority, it did not recommend the elimination of whole categories of 
research as NASA has proposed. The report also did not elaborate on its 
recommendation concerning underutilized facilities. (A summary of the 
report is attached.)

Airspace Systems
    Airspace Systems supports research to improve air traffic 
management. In conjunction with FAA, NASA is supporting the Joint 
Planning and Development Office, which is overseeing the effort to 
develop a next-generation air traffic management system. The Airspace 
Systems program would receive the largest increase of the programs 
within NASA's aeronautics portfolio in the FY06 budget, increasing by 
$48 million or about 32 percent. However, the program would still 
receive less than it did in FY04, and it would receive less in 
subsequent years. The increase in FY06 would be used to provide more 
funds for a number of software development projects, whose budgets 
would remain flat after that. A number of current projects would be 
completed during the out-years, resulting in the drop in overall 
funding for the program.

Aviation Safety and Security
    The Aviation Safety and Security program conducts research to 
prevent the most common types of fatal accidents in aviation, such as 
planes colliding with mountainous terrain or other obstacles on the 
ground, and eliminating intrusions by other aircraft onto active 
runways. It also seeks to develop concepts and technologies to reduce 
the vulnerability of aircraft and the National Airspace System to 
criminal and terrorist attacks while improving the efficiency of 
security. For FY06, NASA proposes to increase funding for this program 
by $7.5 million, or about four percent. The program would receive less 
funding in the out years.

Personnel
    The proposed cuts in the aeronautics budget would be achieved, in 
part, by reducing the workforce. NASA has not specified what skills 
would no longer be needed because of programmatic changes or how the 
personnel cuts might be linked to facilities cuts. It is unclear 
whether NASA decided how many employees would be cut based on budget 
targets, or whether the Agency decided how many employees would no 
longer be needed for programmatic reasons and then calculated how much 
money would be saved as a result, or some combination.
    Acting Administrator Fred Gregory testified on February 17 that no 
one at NASA would be laid off involuntarily before FY07, raising the 
question of what NASA would do if buyout offers did not result in the 
expected reductions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Issues

    The Committee plans to explore the following issues at the hearing:

<bullet>  What would the impact of the proposed cuts be on American 
civil aviation?

    This critical question is difficult to answer at this point because 
NASA has not made clear exactly what would be cut, particularly in 
terms of facilities and job categories.
    What is clear is that the cuts would come at a critical time for 
the U.S. aviation industry. The sole surviving American manufacturer of 
large civil aircraft, Boeing, is facing ever stiffer competition from 
its European competitor, Airbus. The two U.S. turbine engine 
manufacturers, General Electric and Pratt and Whitney, also face tough 
competition. It is not clear what kind of research would be most 
helpful to U.S. industry and to U.S. aviation generally. Clearly, the 
air traffic control and environmental issues on which NASA intends to 
focus would be at the top of any research priority list.
    In terms of vehicle systems research, NASA is looking at 
eliminating incremental research, but this is the research that 
companies are likely to be most interested in as they can quickly adopt 
its results. But some experts argue that industry should pay for 
shorter-term research on its own.
    One example of shorter-term research that NASA is backing out of is 
rotorcraft research. This concerns helicopter manufacturers who argue 
that helicopters are still an ``immature technology'' for which many 
improvements are possible and that foreign competition is increasing.
    But NASA has had a mixed record with the kind of far-ranging 
research it proposes to focus on. In the past, it has discontinued many 
revolutionary technology programs before they were completed. For 
example, in the FY06 budget, NASA proposes to end work on hypersonics 
(which included a high-profile test late last year of the X-43A 
scramjet, which set a new record for speed).
    One reason for the uncertainty about what approach NASA should take 
is that NASA has no overarching plan for aeronautics, in contrast to 
the way the President's Exploration Vision is setting the agenda for 
the exploration programs and the way that National Academy of Sciences 
priority-setting exercises guide NASA's science programs. NASA is in 
the process of funding several efforts to develop an aeronautics 
agenda. This month, a study funded by the National Institute of 
Aeronautics, a university consortium, is due to make recommendations. 
This summer, an internal NASA ``roadmapping'' exercise (which includes 
outside advisory committees) is scheduled to lay out a plan for 
aeronautics. And in late 2006, the National Academy of Sciences is 
expected to complete a ``decadal survey'' for aeronautics (based on 
similar surveys done in space science) that would lay out a consensus 
on priorities in aeronautics over the next ten years.

<bullet>  What would be the impact of NASA closing wind tunnels?

    NASA currently operates 31 wind tunnels, with widely varying 
utilization rates. Wind tunnels are very expensive to build and 
operate, and their designs are carefully tailored to achieve precise 
flow conditions within a narrow range of speed and altitude. No single 
wind tunnel is suitable for replicating all flight conditions (e.g., 
high and fast as well as low and slow). Throughout the world, most wind 
tunnels are supported by governments. Over the past two decades NASA 
has reduced its number of wind tunnels and propulsion test facilities 
by one-third.
    NASA commissioned a study last year from RAND, which concluded that 
NASA should continue to operate 29 of its 31 wind tunnels. RAND 
estimated the annual operating cost of all 31 tunnels to be $125-$130 
million. RAND argued that while some of the tunnels were not well used 
now, they offered capabilities that could be needed in the future and 
that would be hard to replicate if the tunnels were shut down. RAND 
also argued that while some questions that once needed to be solved 
with wind tunnels could now be answered through computer simulation, 
many critical questions still required wind tunnels. It also said that 
wind tunnel data were sometimes needed to develop computer simulation 
software.
    In addition to NASA itself, industry and the Department of Defense 
use NASA wind tunnels. NASA has increased the fees it charges industry 
to use its wind tunnels, now basing charges on the full cost of 
maintaining a wind tunnel rather than on the incremental cost of the 
specific work being done. Because of increased fees and because of the 
age and limitations of some of NASA's facilities, U.S. companies are 
more frequently using foreign wind tunnels. This has raised issues 
about whether the U.S. should be wary of becoming dependent on foreign 
facilities as well as concerns about whether trade secrets may be lost 
in using foreign tunnels.

Background

NASA's Aeronautics Research
    Virtually every airplane flying today employs technological 
innovations developed by NASA. Examples include the high-bypass turbine 
engine that provides much greater fuel efficiency and lower noise 
emissions than original 1960's-era jet engines; ``fly-by-wire'' control 
systems that use computers and wires instead of heavy, maintenance-
intensive hydraulics systems to control an airplane's rudder and wing 
flaps; flight management systems such as the ``black boxes'' that 
continuously monitor an aircraft's engines, speed, location, and other 
critical parameters; and advanced composites made out of materials such 
as graphite and epoxy that can be used to replace heavier and more 
maintenance-intensive aluminum alloy structures. The Boeing 787, now 
under development, will be the first large civil aircraft to use 
composite materials in its fuselage.

The U.S. Aircraft Industry
    The domestic aeronautics industry has changed substantially over 
the last ten to fifteen years through consolidations. Today there is 
only one manufacturer of large civil aircraft, Boeing, and just two 
turbine engine manufacturers for large civil aircraft, General Electric 
and Pratt & Whitney. The U.S. has no domestic regional jet 
manufacturers, the fastest growing segment in civil aviation; most are 
made in Canada and Brazil. The business jet and general aviation 
aircraft industry has a much larger number of producers.
    Boeing is this country's largest exporter of manufactured products 
(based on dollar value), and there are thousands of suppliers whose 
products are found in each jet. Airbus,\1\ a European company and 
Boeing's only rival, has overtaken Boeing in terms of winning new 
aircraft orders. Parenthetically, earlier this year Airbus unveiled its 
new A380 aircraft, a ``super jumbo'' that will be the world's largest 
passenger-carrying aircraft (it can seat over 800 in a single-class 
layout). The A380's first flight is scheduled for later this spring.
---------------------------------------------------------------------------
    \1\ Airbus began over 30 years ago as a government-created and 
owned entity with direct investment by the British, French, Spanish, 
and German governments. It has since been spun off as a private company 
owned by EADS and BAE systems, both European based conglomerates.
---------------------------------------------------------------------------
    Earlier this decade, the European Union (EU) identified aeronautics 
as part of a continent-wide industrial strategy. The EU produced a 
research program document, ``Aeronautics 2020,'' that explicitly states 
its objective of becoming the world's leading supplier of aeronautics 
goods and services and achieving parity with Boeing. Arguably, it has 
met its goal. The EU also has set a goal of taking a leadership role in 
developing the design and production of next generation air traffic 
management services.

Witness Questions

    In their letters of invitation, the witnesses were asked to address 
the following questions:
Dr. Vic Lebacqz, NASA--
    Please briefly describe NASA's long-term national aeronautics 
strategy and goals of the Aeronautics Research Mission Directorate with 
particular emphasis on the following questions:

        <bullet>  How do the funding and programmatic changes in NASA's 
        FY 2006 budget proposal affect the Aeronautics Mission 
        Directorate's ability to achieve its goals?

        <bullet>  Which wind tunnels is NASA planning to close and when 
        is it planning to close them? What criteria were used to select 
        those tunnels? What effect will the Agency's decision to close 
        wind tunnels and propulsion test facilities have on the ability 
        of the Mission Directorate to meet its goals? How will NASA 
        ensure that its workforce retains the skills that are critical 
        to the Agency achieving its long-term goals?

Dr. John Klineberg, National Academy of Sciences--
    Please briefly describe the findings and recommendations of the 
National Research Council's review of NASA's aeronautics technology 
programs with particular emphasis on the following questions:

        <bullet>  Over the next two decades, what are the main 
        challenges facing the aeronautics industry and our aviation 
        infrastructure? What are the Nation's most pressing strategic 
        needs in civil aeronautics?

        <bullet>  What role do NASA's aeronautics programs and 
        strategic plans have in fulfilling the Nation's strategic needs 
        in civil aeronautics? How effective are NASA's programs in 
        helping to ensure U.S. industrial competitiveness in civil 
        aeronautics markets worldwide?

        <bullet>  What effect do you believe NASA's proposed budget 
        (including proposed changes in funding, workforce, and 
        operation of wind tunnels) will have on its ability to meet the 
        Nation's strategic needs in civil aeronautics?

        <bullet>  What steps, if any, do you recommend NASA take to 
        better meet the Nation's needs?

Dr. Philip Anton, RAND--
    Briefly describe the findings and recommendations contained in your 
study and analysis of NASA's inventory of wind tunnels and propulsion 
facilities with particular emphasis on the following questions:

        <bullet>  What would be the consequence to American aviation of 
        NASA closing one or more wind tunnels? Are there particular 
        wind tunnels that it would be especially detrimental to close?

        <bullet>  Are there ways NASA could seek outside funding for 
        its wind tunnels? Are there ways NASA could change its 
        accounting practices regarding its wind tunnels?

        <bullet>  What are the disadvantages of relying on foreign wind 
        tunnels and how serious are they?

Dr. John Hansman, MIT, and Dr. Mike Benzakein, Ohio State--

        <bullet>  Over the next two decades, what are the main 
        challenges facing the aeronautics industry and our aviation 
        infrastructure? What are the Nation's most pressing strategic 
        needs in civil aeronautics?

        <bullet>  What role do NASA's aeronautics programs and 
        strategic plans have in fulfilling the Nation's strategic needs 
        in civil aeronautics? How effective are NASA's programs in 
        helping to ensure U.S. industrial competitiveness in civil 
        aeronautics markets worldwide?

        <bullet>  What effect do you believe NASA's proposed budget 
        (including proposed changes in funding, workforce, and 
        operation of wind tunnels) will have on its ability to meet the 
        Nation's strategic needs in civil aeronautics?

        <bullet>  What steps should the government take to better 
        address the Nation's strategic civil aeronautics needs? If 
        continued research has an important role to play, what should 
        be its priorities? How do you recommend NASA balance investment 
        in evolutionary research against revolutionary, high-risk, 
        high-payoff research?

Attachment

        An Assessment of NASA's Aeronautics Technology Programs

                    National Research Council (2004)

Excerpts from the Executive Summary
    The National Research Council Committee and its three subordinate 
panels conducted an independent peer assessment of the Vehicle Systems 
Program (VSP), the Airspace Systems Program (ASP), and the Aviation 
safety Program (AvSP), the three elements of NASA's Aeronautics 
Technology Programs. NASA specifically asked the Committee and panels 
to address four questions:

        1.  Is the array of activities about right?

        2.  Is there a good plan to carry out the program?

        3.  Is the program doing what it set out to do?

        4.  Is the entire effort connected to the users?

    The Committee's simple answer to the four questions posed by NASA 
is that, in general, the Aeronautics Technology Programs are very good 
but could be greatly improved by following the Committee's 12 top-level 
recommendations.

Top-Level Recommendations:

         1.  The government should continue to support air 
        transportation, which is vital to the U.S. economy and the 
        well-being of its citizens.

         2.  NASA should provide world leadership in aeronautics 
        research and development.

         3.  NASA has many excellent technical personnel and facilities 
        to achieve its aeronautics technology objectives but should 
        improve its processes for program management.

         4.  NASA should eliminate arbitrary time constraints on 
        program completion and schedule key milestones based on task 
        complexity and technology maturity.

         5.  NASA should reduce the number of tasks in its aeronautics 
        technology portfolio.

         6.  NASA should pursue more high-risk, high-payoff 
        technologies.

         7.  NASA should reconstitute a long-term base research 
        program, separate from the other aeronautics technology 
        programs and projects.

         8.  NASA's aeronautics technology infrastructure exceeds its 
        current needs, and the Agency should continue to dispose of 
        under-utilized assets and facilities.

         9.  NASA should implement full-cost accounting in a way that 
        avoids unintended consequences harmful to the long-term health 
        of the aeronautics program.

        10.  NASA should develop a common understanding with the 
        Federal Aviation Administration (FAA) of their respective roles 
        and relationship.

        11.  NASA should seek better feedback from senior management in 
        industry and other government organizations.

        12.  NASA should conduct research in selective areas relevant 
        to rotorcraft.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Calvert. Good morning. I am here to call this 
meeting of the Space and Aeronautics Subcommittee to order. 
Without objection, the Chair will be granted the authority to 
recess the Committee at any time. Hearing no objection, so 
ordered.
    Today, we are kicking off my first hearing as Chairman of 
the Space and Aeronautics Subcommittee. We are beginning our 
oversight of the fiscal year 2006 NASA budget, and we will 
focus today on the aeronautics research and development 
program.
    There are a number of areas that I would like for us to 
examine through the hearing this year, including the Shuttle's 
return-to-flight, issues with the NASA workforce and 
infrastructure, NASA's financial management system, and issues 
concerning our commercial space industry. Just as important, I 
want to ensure that we get back to work on the authorization 
bill for NASA.
    This is a critical time for the Agency, with a whole host 
of issues on its plate. It is important that the Congress offer 
guidance for the big decision facing NASA in the near future. I 
want to commend the President and his superb choice of Mike 
Griffin as the next NASA Administrator. I look forward to 
working with him, once he is confirmed, to begin addressing 
these issues.
    Today, we will begin our oversight of the fiscal year 2006 
budget proposed for NASA's aeronautics research and development 
program. The Europeans have thrown down the gauntlet, and said 
they will dominate aerospace in the world by 2020. The U.S. 
aerospace industry has expressed alarm at the reductions of 
NASA's aeronautics investment, pointing out that aerospace 
products are a huge source of export sales, and a major 
contributor to the United States international balance of 
trade.
    Our nation's preeminence in commercial aircraft is being 
seriously challenged by Airbus, and many believe that reduced 
aeronautics R&D funding has directly played a role in the cause 
of the weakened position and the weakened aerospace industry. 
There is a lot of concern that the investment in aeronautics 
research and development by this nation has been limping along 
for several years, and there is a lack of a national strategy. 
Over the next five years, NASA is proposing to reduce its 
aeronautics workforce by approximately 2,000 people, and to 
shut down a number of its wind tunnels.
    The questions that I have are, are these wise decisions for 
the Nation? Should NASA develop a national strategy for 
aeronautics before these valuable assets and skills are lost? 
Does NASA have a human capital strategy, or are these personnel 
cuts solely for budget purposes? Do we have a national strategy 
for civil aeronautics R&D, and if so, is NASA aligned to 
support a national strategy?
    The current requested funding levels for the aeronautics 
program amount to a little over five percent of NASA's overall 
budget. The funding trend is declining at a rather precarious 
rate over the next several years. I am hoping that today's 
witnesses are able to guide the Subcommittee in addressing what 
this nation's aeronautics priorities should be, and how NASA 
should address these priorities.
    In fiscal year 2006 budget request, NASA offers three 
programs in aeronautics R&D area. Of the three, Airspace 
Systems and Aviation and Security are funded at a flat level, 
and Vehicle Systems received a 20 percent cut, approximately 
$100 million. This does not appear to bode well for the Nation 
investment in the future of the aerospace industry and our 
nation's competitiveness.
    I look forward from hearing from our witnesses today on 
this important topic. I also want to welcome Mr. Udall in his 
new capacity as the Ranking Member on this subcommittee. I look 
forward to working with you and this Congress. We have worked 
together on other committees, and I look forward to working 
with you on this committee. In fact, I think we are on all the 
same committees, come to think of it. Yeah.
    So, at this point, I would like to recognize Mr. Udall for 
his opening statement.
    [The prepared statement of Mr. Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    Today, we are kicking off my first hearing as Chairman for the 
Space and Aeronautics Subcommittee. We are beginning our oversight of 
the FY 2006 NASA budget and will focus today on the Aeronautics 
research and development program. There are a number of areas that I 
would like for us to examine through hearings this year, including: the 
Shuttle's Return-to-Flight; issues with the NASA workforce and 
infrastructure; NASA's financial management system; and issues 
concerning our nascent commercial space industry.
    Just as important, I want to ensure that we get to work on the 
authorization bill for NASA. This is a critical time for the Agency 
with a whole host of issues on its plate. It is important that the 
Congress offer guidance for the big decisions facing NASA in the near 
future.
    I want to commend the President in his superb choice of Mike 
Griffin as the next NASA Administrator and I look forward to working 
with him once he is confirmed, to begin addressing these issues.
    Today, we will begin our oversight of the FY 2006 budget proposed 
for NASA's Aeronautics research and development program. The Europeans 
have thrown down the gauntlet and said that they will dominate 
aerospace in the world by the year 2020. The U.S. aerospace industry 
has expressed alarm at the reductions in NASA's aeronautics investment, 
pointing out that aerospace products are a huge source of export sales 
and a major contributor to the United States' international balance of 
trade. Our nation's preeminence in commercial aircraft is being 
seriously challenged by Airbus and many believe that reduced 
aeronautics R&D funding has directly played a role in the cause of this 
weakened position of the American aerospace industry.
    There is a lot of concern that the investment in aeronautics 
research and development by this nation has been limping along for 
several years, and that there is a lack of a national strategy. Over 
the next five years, NASA is proposing to reduce its aeronautics 
workforce by approximately 2,000 people and to shut down a number of 
its wind tunnels. The questions that I have are: Are these wise 
decisions for our nation? Should NASA develop a national strategy for 
aeronautics before these valuable assets and skills are lost? Does NASA 
have a Human Capital Strategy or are these personnel cuts solely for 
budget purposes? Should we have a national strategy for civil 
aeronautics R&D? If so, is NASA aligned to support a national strategy?
    The current requested funding levels for the Aeronautics programs 
amount to a little over five percent of NASA's overall budget. The 
funding trend is declining at a rather precarious rate over the next 
several years. I am hoping that today's witnesses are able to offer 
guidance to this subcommittee in addressing what this nation's 
aeronautics priorities should be and how NASA should address these 
priorities. In the FY 2006 budget request, NASA offers three programs 
in the Aeronautics R&D area. Of the three, Airspace Systems and 
Aviation Safety & Security are funded at a flat level and Vehicle 
Systems received a 20 percent cut (-$100M). This does not appear to 
bode well for our nation's investment in the future of the aerospace 
industry and our nation's competitiveness.
    I look forward to hearing from our witnesses today on this very 
important topic.

    Mr. Udall. I thank the Chairman. Good morning to everybody 
here.
    I would like to join the Chairman in welcoming our 
witnesses, the first panel in particular, Representative Jo Ann 
Davis and Representative Dennis Kucinich, who I am sure will 
join us.
    I would also like to take the opportunity to say how much I 
am looking forward to working with Chairman Calvert and the 
other Members of this subcommittee. We have a lot of important 
issues to deal with over the next two years, and I am confident 
that we will be able to work effectively across party lines to 
do the Nation's business.
    One of the important issues that we need to address is 
topic of this morning's hearing, namely, the future of NASA's 
aeronautics program. This year marks the 90th anniversary of 
the establishment of the National Advisory Committee for 
Aeronautics, NACA, as it was known, the organization 
predecessor of NASA. During its existence, NACA undertook much 
of the R&D that made modern commercial and military aviation 
possible.
    Congress recognized the value of federally sponsored R&D in 
aeronautics, and made it one of NASA's core missions when it 
established the Agency in 1958. It made good sense then, and it 
makes good sense now to have NASA involved in aeronautical R&D. 
NASA's R&D in aeronautics and aviation benefits not only--helps 
our international competitiveness, but also the quality of life 
of our citizens. Research on ways to drastically reduce 
aircraft noise and emissions, research into safer and more 
secure aircraft, research into new vehicle concepts that could 
revolutionize future air travel, and research into ways to 
modernize the Nation's air traffic management system, so that 
we don't face gridlock in the skies at some point in the coming 
decades. All of these are areas of research NASA has been 
pursuing.
    Yet despite the clear value of such research, NASA 
aeronautics program has now reached a crisis point. Coming in 
the wake of years of declining budgets, the fiscal year 2006 
request, if approved, would further erode the aeronautics 
program's capabilities over the next five years. In addition to 
the low priority being given to aeronautics in the budget, 
NASA's experiment with full cost recovery, an approach that DOD 
has tried and abandoned, has jeopardized the continued 
viability of an important segment of the Nation's aeronautical 
test facilities.
    Moreover, while it has been difficult to get definitive 
answers concerning NASA's intentions for the workforce at the 
Aeronautics Research Centers, it is clear that NASA management 
envisions significant numbers of current employees leaving the 
program. As one of our witnesses, Dr. Hansman, observes in his 
testimony, the workforce actions appear to be motivated by 
budget pressures rather than strategic efforts at intellectual 
renewal. This, coupled with a perception of declining NASA 
priority in aeronautics, could create an atmosphere where it is 
difficult to retain and attract the best and the brightest.
    All of this troubles me. We seem to be headed down a path 
that could result in the loss of a vital national capability if 
we aren't careful. The NASA witness at today's hearing will 
have the somewhat thankless task of trying to convince us that 
things aren't so bad, even though his programs are being cut 
year after year. In that regard, I bring an open mind to the 
hearing, and I am willing to be convinced that the '06 budget 
request for aeronautics is healthy.
    But in order to be convinced, I am first going to need to 
have a number of concerns addressed. For example, NASA's '06 
budget request focuses the Vehicle Systems funding on research 
into breakthrough technologies, with the intent of achieving 
near-term flight demonstrations of revolutionary and barrier-
breaking technology. That sounds good. However, flight 
demonstrations tend to be the most expensive part of the 
aeronautical R&D process. Yet, NASA's budget plan indicates 
that the Vehicle Systems budget will decline by 43 percent over 
the next five years. That doesn't strike me as a credible 
approach.
    I could cite other examples, but I want to bring my remarks 
to a close, so we can hear from our witnesses. I would simply 
conclude by saying that I think we really have a 
straightforward question of priorities before us. The bleak 
outlook for aeronautics at NASA is not an inevitability. It is 
a result of policy decisions and prioritizations that Congress 
may or may not choose to endorse.
    Mr. Chairman, as I close, I would like to ask unanimous 
consent that the written testimony submitted by Mr. Gregory 
Junemann, of the International Federation of Professional and 
Technical Engineers, be entered into the record.
    Chairman Calvert. Without objection, so ordered.
    [The prepared statement of Mr. Junemann follows:]

               Prepared Statement of Gregory J. Junemann
    President, International Federation of Professional & Technical 
                        Engineers, AFL-CIO & CLC

Summary:

    The International Federation of Professional and Technical 
Engineers, which represents more than 8,000 employees at five NASA 
Centers, is concerned that the dramatic cuts in NASA's aeronautical R&D 
proposed in the FY06 budget, together with the associated ill-conceived 
draconian workforce downsizing, will harm NASA's ability to live up to 
its responsibility to bolster U.S. global leadership in aeronautics, to 
its duty to maintain the safety and security of the air-traveling 
public, and to its obligation to help fuel U.S. economic growth and 
prosperity. We propose a few specific legislative solutions, 
appropriate for the FY06 Authorization bill, as well as an alternate 
revenue-neutral funding path better suited for delivering the 
President's Exploration Vision while maintaining NASA's intellectual 
assets and facilities necessary to meet America's critical future needs 
in aeronautics.

Statement:

    The International Federation of Professional and Technical 
Engineers would like to thank Chairmen Boehlert and Calvert as well as 
Ranking Members Gordon and Udall for according us the privilege of 
submitting this testimony for the record. The Nation is looking to the 
House Science Committee and its Subcommittee on Space and Aeronautics 
to scrutinize carefully NASA's proposed FY06 budget and associated 
activities. In particular, in the context of today's hearing on the 
future of NASA's aeronautics programs, we ask that the Committee compel 
NASA to explain exactly how it expects to meet its responsibility to 
foster progress in aviation for the American people while imposing a 
nearly one-third cut in funding to the Aeronautics Research Mission 
Directorate. What increased risks are the American people being asked 
to accept? What constraints on economic growth? What loss in world 
leadership and national prestige?
    NASA aeronautical R&D has an unquestioned track record of return on 
investment and, at less than $1billion dollars annually, is an amazing 
bargain; it continues to play a crucial role in the near flawless 
safety record in U.S. commercial aviation and in technology innovation 
for both civilian and military aeronautics. Unfortunately however, NASA 
aeronautics funds are being improperly pilfered to support a chaotic 
and hastily planned increase in the Exploration budget. The President's 
Vision for Space Exploration contains a budget chart (p. 19) showing a 
small short-term decrease in aeronautical R&D of a magnitude far less 
than the one currently proposed, and the long-term costs of Exploration 
covered by the phase-out of funding to the Shuttle and ISS programs. 
NASA must explain to Congress and to the American people such a 
divergence from the President's initial plan, and why Aeronautics is 
being sacrificed for Exploration when the Vision clearly intended to 
use ISS and Shuttle funds for that purpose.
    Much of the science and many of the currently implemented 
technologies and facilities funded by the Aeronautics budget have 
significant impacts on past space missions, and leveraging these 
existing assets and expertise will prove invaluable in any cost-
effective yet accelerated Exploration plan. The proposed cutbacks 
jeopardize facilities, scientists, engineers, and technicians that 
should be available, for example, to test vehicle design and human-
system integration for a Mars mission Entry, Descent and Landing, and 
to design airborne ``flyers'' for Mars surveying, to name just two. The 
proposed cuts in aeronautical R&D will have unintended consequences for 
Exploration in the out-years; such impacts must be evaluated and 
prevented before the damage is done.
    Additionally, in NASA's Aeronautics blueprint (February, 2002), the 
Agency outlines a clear plan for NASA's aeronautical R&D as critical 
component of a bold vision of the future of America's civil and 
military aviation. This document states some simple facts:

        1.  Aviation is crucial to U.S. economic health, national 
        security, and overall quality of life.

        2.  The Nation is facing continuing serious challenges in 
        aviation.

        3.  New technologies are needed to create a new level of 
        performance and capability.

    These facts remain as true today as they were when Administrator 
O'Keefe signed off on the blueprint three years ago. Indeed, this view 
has been reasserted and extended by the Joint Planning and Development 
Office (JPDO)--an interagency task force created in 2003 under the 
Century of Aviation Reauthorization Act and charged with coordinating 
aeronautics efforts across NASA, FAA, DOD, Commerce, Transportation, 
and Homeland Security to ``ensure that the Next Generation Air 
Transportation System meets air transportation safety, security, 
mobility, efficiency, and capacity needs.'' In their Integrated 
National Plan for the Next Generation Air Transportation System 
(December 2004), the JPDO lays out an urgent agenda to:

        1.  Retain U.S. Leadership in Global Aviation

        2.  Expand Capacity

        3.  Ensure Safety

        4.  Protect the Environment

        5.  Ensure Our National Defense

        6.  Secure the Nation

    Clearly, NASA must play a prominent role in all six of these 
efforts (as it is the only Agency with the appropriate broad-based 
aeronautical R&D expertise and experience) and any reprogramming of 
NASA's aeronautical R&D programs must be evaluated to assure that cuts 
do not jeopardize the swift and effective implementation of this 
coordinated effort.
    Just as clearly, industry and academia alone will not meet the 
Nation's needs in aeronautics. It is an inherently governmental 
responsibility to drive the long-term R&D needed to create the 
revolutionary (and, hence, risky and unprofitable even in the medium-
term) changes needed for aviation in the 21st century. The profit 
motive will back the status quo until market conditions change so 
dramatically (e.g., the doubling of the number of commercial flights) 
that the status quo no longer functions safely and efficiently. Yet, 
revolutionary technology change does not occur overnight and hence the 
Nation can ill afford to wait until market forces can drive change, 
i.e., we cannot wait to act until planes are crashing because of an 
overburdened airspace system. Investing in NASA aeronautical R&D will 
bolster America's leadership in aeronautics as well as both our 
military might and our civilian competitiveness in aircraft design, 
production, and operations.
    NASA also plays a unique role in responding to the Nation's need to 
develop and maintain critical, unique, and--yes--unprofitable test 
facilities; as well as the need for the independent, scientifically-
based establishment of evolving standards for design requirements and 
safety certification. NASA plays a critical role in supporting the 
efforts of its sister aeronautics-related Agencies: the Federal 
Aviation Administration (FAA) and the National Transportation Safety 
Board (NTSB). Using its facilities and in-house expertise, NASA assists 
the FAA establish and introduce new safety standards and new 
operational capabilities and helps the NTSB identify the root causes of 
accidents. These key roles provide further justification for continuing 
a major governmental role in America's aeronautical R&D. Only NASA has 
the expertise, capability, and independence to perform this role 
properly and effectively without being compromised by external profit 
motives.
    In a recent thorough external review of NASA's aeronautics program 
conducted by the National Research Council (NRC Review of NASA's 
Aerospace Technology Enterprise: An Assessment of NASA's Aeronautics 
Technology Programs, 2004), a panel of experts throughout the 
aeronautics industry and academia issued a dozen top-level 
recommendations. Among these, the first two are: ``(t)he government 
should continue to support air transportation, which is vital to the 
U.S. economy and the well being of its citizens, and NASA should 
provide world leadership in aeronautics research and development.'' 
That said, in its third recommendation, the NRC gave NASA's rank-and-
file employees a ringing endorsement while warning of problems with 
NASA management: ``NASA has many excellent technical personnel and 
facilities to achieve its aeronautics technology objectives, but should 
improve its processes for program management.'' A large part of this 
management problem is the exploding population of technically-detached 
managers created by NASA management's inefficient matrixed structure 
and its insistence on excessive internal reporting, a permanent state 
of re-organization, and other unproductive, non-technical, and overall 
inefficient activities.
    A full evaluation of all the NRC recommendations is beyond the 
scope of this statement, but it is important to note that another 
important recommendation was that ``NASA should reconstitute a long-
term base research program, separate from the other aeronautics 
technology programs and projects.'' It is troubling that NASA 
management has rejected this recommendation and has turned instead in 
the opposite direction by implementing a demonstration project approach 
to its aeronautical R&D.
    The NASA blueprint concludes with the blunt statement that ``the 
cost of inaction is gridlock, constrained mobility, unrealized economic 
growth, and loss of U.S. aviation leadership.'' This must not be 
allowed to occur. NASA can continue to realign itself towards the 
President's Exploration Vision, but it must and can do so without 
dramatically reducing its aeronautical R&D capabilities. NASA 
management's plan to siphon off 30 percent of its aeronautics funds to 
support the Exploration Systems Mission Directorate (ESMD) will prevent 
NASA from living up to the promise of its own blueprint, to its 
responsibility in the JPDO's Next Generation Air Transportation 
Integrated Plan, to its duty to maintain the safety and security of the 
air-traveling public, and to its obligation to help fuel U.S. economic 
growth and prosperity.

The devastating impact of the FY06 budget on the Aeronautics Field 
                    Centers

    NASA's FY06 budget proposal contemplates an overall 30 percent 
decrease in the aeronautics budget between FY05 and FY07. The immediate 
FY06 cuts focus nearly completely on redirecting the Vehicle Systems 
Program (VSP), despite the fact that the NRC review stated that ``(t)he 
committee evaluated a total of 172 tasks in the VSP portfolio. The 
committee determined that more than 80 percent were of good quality or 
better, with 30 percent (51 tasks) rated as world-class.'' One has to 
wonder what will happen to all that world-class R&D and all those 
world-class scientists and engineers given that the proposed cuts far 
exceed the 20 percent that one might expect from the above numbers. 
However, even more troubling is the fact that, although the remaining 
programs (Airspace Systems, Aviation Safety and Security) appear stable 
in the overall FY06 budget projections, the current and projected 
funding picture is far different at all of the aeronautics performing 
Field Centers.
    From the data in Associate Administrator Lebacqz's February 16th 
briefing to committee staffers, one can generate the following clear 
picture of the magnitude of the impacts of the FY06 budget across all 
three Aeronautics Field Centers. (Similar impacts are evident at Ames 
Research Center but, because it is no longer an official Aeronautics 
Center, its detailed numbers were not available in his briefing.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The elimination over this 18-month period of more than a third of a 
Field Center's highly skilled and experienced technical aeronautics 
workforce would seem a bit imprudent, as well as contrary to NASA's own 
blueprint, the JPDO's Integrated Plan, and the NRC's recent NASA 
recommendations. The above numbers also do not address the adverse 
impacts on critical facilities (see below).

Legislative Proposals

    IFPTE asks that the House Science Committee exercise its oversight 
authority by adding the following language into its FY06 Authorization 
bill to safeguard NASA's aeronautics capabilities:

        1.  NASA shall reserve at least six percent of its FY06 budget 
        for the Aeronautical R&D activities and plan for seven percent 
        in the FY07 rising to 10 percent in out-year budgets. Among 
        other things, NASA shall use this increase in funding to 
        implement the NRC review panel's recommendation to 
        ``reconstitute a long-term base research program, separate from 
        the other aeronautics technology programs and projects.''

        2.  NASA shall decrease its management workforce (supervisors 
        and management officials) by a third in FY06 and plan to reduce 
        this workforce by a factor of two from the FY05 baseline by the 
        end of FY07. NASA shall not decrease its technical workforce at 
        any Field Center by more than 10 percent in any given year and 
        shall explicitly include any planned technical workforce 
        reductions of any kind in its annual Workforce Plan submitted 
        to Congress.

An Alternate Approach to Funding the Exploration Vision and Aeronautics

    The modest numbers in Proposal 1 will provide the Associate 
Administrator Dr. Lebacqz (or his successor) with adequate funding to 
preserve NASA's critical facility infrastructure and intellectual 
capital at Ames Research Center, Dryden Flight Research Center, Glenn 
Research Center, and Langley Research Center, and to enhance their 
ability to deliver to the American people what they need and expect 
from NASA--scientific discoveries and technology/operational 
breakthroughs.
    Proposal 2 will not only allow NASA to re-vector internal funds for 
Exploration, Science, and Aeronautics R&D, it will put NASA more in 
line with the rest of the high-tech world as far as its management to 
technical employee ratio. Currently, the number of scientists and 
engineers across NASA for every non-clerical administrative employee is 
typically two to three, and this ratio does not even include corporate 
overhead from NASA HQ management. Our proposal will go a long way 
towards making this overhead ratio closer to a healthy 1:8, typical of 
private enterprise.
    To generate the additional needed revenue to enable our first 
legislative proposal above and NASA's realignment toward the 
President's Exploration Vision, NASA should seriously consider reducing 
its role in completing the International Space Station (ISS). 
Administrator-nominee Dr. Griffin noted in his October 2003 testimony 
to the House Science Committee that ``in a human space flight program 
focused on `settling the solar system,' construction of a LEO (low-
Earth orbit) space station would not be an early priority.'' 
Furthermore, he states wisely that ``we must not mortgage our future to 
ISS.'' We concur and ask that NASA funding decisions reflect this 
reality. Reducing NASA's ISS commitments would also allow it to make a 
better effort to meet its requirement not to exceed the cost ceiling of 
$25 billion in the NASA Authorization Act of 2000.
    In this vein, NASA should admit now that it cannot conduct an 
additional 28 Shuttle flights before the end of 2010 and act 
accordingly. Significantly reducing the number of Shuttle flights would 
free up billions of dollars. NASA needs to wean itself as soon as 
possible of its dependence on the Shuttle, an intrinsically risky 
transportation system, and on Russian capabilities, a national security 
nightmare and a looming treaty violation. As Dr. Griffin stated to the 
House Science Committee, ``(r)egarding the Space Shuttle, . . .we 
should move to replace this system with all deliberate speed. . .we 
must admit to ourselves that it is time to move on.'' NASA should focus 
a smaller number of remaining Shuttle flights to address core needs of 
the President's Vision: research on the impact of space flight on 
physiology and performance, and a manned Hubble repair mission. The 
released funds can then be redirected primarily for enhanced support of 
the development of the Crew Exploration Vehicle (CEV) and secondarily 
for enhanced support of Science and Aeronautics. This general scenario 
also puts these three core NASA efforts in a better position should 
Congress decide that it must cut NASA's overall budget in FY06 or 
later.
    This alternate approach:

        1.  will expedite the Nation's real solution to its current 
        space-related problems by reinforcing the development of new, 
        safer, more flexible space transportation systems without 
        consuming critical long-term R&D funds to meet near-term 
        milestones;

        2.  will dramatically reduce the risk of another catastrophic 
        failure of the Shuttle with its associated loss of life and 
        national treasure;

        3.  will minimize U.S. dependence on Soyuz;

        4.  will minimize ISS cost overruns and NASA's need to extend 
        ISS's cost ceiling.

    The downside will be that this approach may harm NASA's 
relationship with its international partners. Of course, as Dr. Griffin 
stated with regard to ISS, ``we should do what is necessary to bring 
the program to an orderly completion while respecting our international 
partnership agreements.'' IFPTE concurs that we must respect our 
international partners and must handle any reduced U.S. involvement in 
ISS diplomatically, however this respect cannot be allowed to supersede 
NASA's duty to protect the American taxpayer, to fulfill the 
President's Exploration Vision, and to defend the safety and security 
of the air-traveling public. Given that NASA has proposed only a tiny 
increase in funding associated with the Exploration Vision and that 
Congress appears poised to reduce this increase, Congress should heed 
Dr. Griffin's warning that ``(i)f no additional funding can be made 
available, it will be very difficult to complete ISS and, at the same 
time, embark on the development of those other systems that are 
required for a truly valuable and exciting human space flight 
program.''
    IFPTE's legislative proposals above and the associated proposal to 
de-scope NASA's ISS commitments and to accelerate the retirement of 
Shuttle are sufficiently generic to allow NASA management considerable 
flexibility. They are meant to foster a serious discussion about the 
future of NASA and to propose an alternate path that allows NASA to 
better meet the challenge of the President's Exploration Vision without 
cannibalizing the other critical functions of the Agency.

Critical National Needs Impacted by NASA Aeronautics Cuts

    The Nation is facing key aviation challenges: increasing capacity 
while maintaining or enhancing safety, reducing noise and emissions, 
establishing effective post-911 security, and holding off the serious 
challenge by Europe of the U.S. global leadership in aeronautics. 
Although the private sector will play an important role in addressing 
these challenges, as Mr. O'Keefe's aeronautics blueprint (p. 14) states 
``the need for a continuing government role in aeronautical R&T in 
support of civilian and military objectives is as strong today as 
ever'' and that NASA's role is ``strategic forward-looking breakthrough 
research combined with tactical problem resolution in response to 
priorities established through close partnerships (with aviation 
product developers and process owners).''
    A complete evaluation of the programmatic impacts of NASA's 
proposed FY06 budget is beyond the scope of this statement. IPFTE urges 
the Committee to ask the Center Directors at each of the adversely 
affected Centers (Ames, Dryden, Glenn, Langley) to provide a report to 
them describing the impacts of the FY06 budget plan on their R&D 
activities, their facilities, and their contractor and Civil Service 
workforce. There is much more happening on the ground than is being 
shown to you in the FY06 budget numbers. The Committee will need this 
information to make an informed assessment of the wisdom of NASA FY06 
budget plan.
    Some make the argument that current technologies in aeronautics are 
mature and therefore should be transferred to the private sector. 
Current technologies are by definition mature and indeed have been 
transferred to the private sector. This argument is specious as it is 
future technologies that NASA is working on; these technologies are not 
mature and will require continued incubation in a government laboratory 
setting as part of a collaborative effort between NASA, industry, and 
academia prior to being ready for implementation in the real world. As 
Associate Administrator Lebacqz pointed out recently, ``there are 
tremendous breakthroughs still to come in aeronautics'' and ``the 
facilities to support those breakthroughs or other breakthroughs are 
still required'' (Aviation Week & Space Technology, March 7, 2005).
    The critical point is that the Nation needs to go beyond current 
technologies. The U.S. once was the world leader in aviation. More 
civilian airplanes were once made in the U.S. than in the rest of the 
world combined. Aviation once played a major role in the Nation's trade 
balance. Now Airbus has a larger share of the global market than 
Boeing. The Europeans know that government support for Airbus is 
crucial and this has been a key reason for their success. Now more 
airplanes are being built in Canada and Brazil than in the U.S. The 
U.S. is clearly losing its leadership position and our trade deficit 
continues to grow. Simply redirecting taxpayer dollars directly to 
industry is unwise as it may trigger trade sanctions as an improper 
direct subsidy. While NASA in-house R&D activities have a special 
relationship with American aviation companies and preferentially 
benefit American business, these governmental activities do not cross 
the line imposed by the General Agreement on Tariff and Trade (GATT). 
If the U.S. has any chance of holding its ground, major government 
investment in aeronautical R&D is necessary. The U.S. needs to be as 
clever as Europe in providing assistance and support for their national 
industries without running afoul of the GATT. NASA is poised to lead 
that effort, representing the national interest as a whole. The 
government must take the lead.
    Furthermore, even if current vehicle technologies are considered 
``mature,'' human error is still the major cause of aviation accidents. 
These accidents cost the Nation a huge amount even when they only 
happen in U.S. General Aviation, or to U.S.-made aircraft in other 
countries. No single manufacturer or operator will address this 
problem. It is a national issue, a national responsibility, a national 
priority. The government must take the lead.
    The recent quiet on the airline safety and security front is 
misleading. As air traffic increases (e.g., potential tripling of 
commercial flights over the next 20 years, Unmanned Airborne Vehicles, 
micro-jets) and Air Traffic Control support dwindles (e.g., 
synchronized retirements, out-dated equipment), we are going to see 
greater delays and greater risks. Without sustained NASA aeronautical 
R&D funding, NASA technology innovations will not be there to keep our 
airline safety record second to none and to reduce flight delays and 
associated economic losses. Although we have not had a major aviation 
security failure since September 11th 2001, it is a complete surety 
that terrorists will try to strike our aviation system again. Without 
sustained NASA aeronautical R&D funding, NASA technology innovations 
will not be there to help American stay one step ahead of terrorists. 
These are serious national issues that cannot be solved by simplistic 
solutions such as privatizing ATC or limiting air traffic. Aviation is 
a major component of the U.S. economy and any economic growth will 
depend on a reliable transportation system that can scale up to meet 
new economic demands. This challenge will not be met by industry alone. 
The government must take the lead.

Irreparable Harm to Critical Government Assets

    Prior to full-cost accounting, any ill-conceived budget cuts one 
year could be remedied the next by simply restoring the research funds. 
Unfortunately, full-cost accounting makes management blunders permanent 
by destroying laboratory infrastructure and intellectual capital. Once 
a facility is closed, it is gone. When the experts who run it are laid-
off, they are gone. Decades of developing unique wind tunnel and 
simulator facilities and expertise can be lost in a heartbeat when a 
facility is killed or employees are laid-off by a program manager's 
shortsighted need to meet near-term milestones. Inadequate attention is 
being paid to the big picture and the long-term health of the Agency 
and to its facilities and intellectual infrastructure. In a few years, 
when these very programs need these same facilities they once spurned, 
the facilities will no longer exist and the Nation will need to spend 
millions restoring capabilities inferior to the ones we previously had. 
As Associate Administrator Lebacqz warned recently, ``if we don't do 
adequate ground-testing before we go to flight test, we'll make 
mistakes'' (Aviation Week & Space Technology, March 7, 2005). These 
mistakes may kill military pilots or civilian passengers or lead to 
millions of dollars in expensive last minute design fixes, so this 
warning should not be taken lightly.
    The serious concern about how NASA is implementing full-cost 
accounting is not just Union rhetoric; it is shared by the external 
industry and academic experts on the NRC panel that recently reviewed 
NASA's aeronautics programs. One of its top-level recommendations was 
that ``NASA should implement full-cost accounting in a way that avoids 
unintended consequences harmful to the long-term health of the 
aeronautics program.'' Especially given the abysmal failure of NASA's 
full-cost accounting conversion to provide the accounting transparency 
promised Congress and the American taxpayer, we ask that Congress to 
use its authority to investigate this serious concern and to compel 
NASA to modify those accounting policies and practices that are 
adversely affecting NASA's ability to get its technical job done for 
the American people.
    Thank you again for submitting these remarks into the hearing's 
official record.

    Chairman Calvert. I thank the gentleman for his opening 
statement. Without objection, the additional statements of 
other Members will be put in the written record, so we can get 
right to the testimony. Hearing no objection, so ordered.
    [The prepared statement of Mr. Forbes follows:]
          Prepared Statement of Representative J. Randy Forbes
    Mr. Chairman, thank you for holding this hearing on the proposed FY 
2006 budget for aeronautics. This is an issue of great importance not 
only to the Hampton Roads area of Virginia, but also to our national 
security and economic security.
    In only the last half century, space exploration and scientific 
discovery have brought an unquantifiable richness to human life. 
America's space program is a symbol of our success as a scientifically 
and technologically advanced nation. I am pleased that President Bush 
has devised a plan that seeks to advance human space exploration, 
however I am concerned that the FY 2006 Budget proposes cuts to vital 
programs that are not related to NASA's Vision for Space Exploration.
    In particular, I remain concerned that reduced federal funding for 
aviation and aeronautics research and technology in FY 2006 will 
jeopardize the Nation's leadership in providing the technologies needed 
to develop the next generation aircraft, improve aviation safety and 
security, and attract the next generation of aerospace scientists and 
engineers. We are in danger of falling behind our competitors in Europe 
who have announced that their goal is to dominate commercial aviation 
sales by 2020.
    In addition, cuts to the NASA Aeronautics budget will have a 
profound impact on the NASA Langley Research Center in Hampton, 
Virginia, which has a long and proud history of aeronautics research. 
NASA Langley's wind tunnels and laboratories, research aircraft and 
spacecraft and flight simulators have made significant contributions to 
our nation's advances in the aeronautics industry and have the promise 
of yielding many more in the future. Like the explorers of the past and 
the pioneers of flight in the last century, we cannot identify today 
all that we will gain from aviation and aeronautics research; however, 
we know from experience that the eventual return will be great. The 
greater the investments of today, the greater the rewards for 
generations to come.
    I look forward to hearing from today's witnesses.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Calvert and Ranking Member Udall, thank you for holding 
this important hearing today. I believe it is essential that, as NASA 
undertakes a ``Transformation'' to carry out the President's Vision for 
Space Exploration, we remember that NASA stands for the National 
Aeronautics and Space Administration and examine what is happening to 
the aeronautics programs within the Agency.
    I am very concerned about the lack of Congressional oversight of 
this transformation and the fact that NASA has not provided us with 
timely information about changes that are taking place, including those 
being made as we speak to the aeronautics programs. Full Cost 
Accounting has been combined with broad discretionary authority granted 
to the Agency in the Fiscal Year 2005 Omnibus Appropriations bill to 
create a situation in which the salaries of vast numbers of Civil 
Service R&D employees are being moved out of project accounts and into 
general operations, which has created an artificial crisis at the 
centers and is being used as a reason to undertake large scale 
workforce reductions. To date, NASA has not provided us with a detailed 
Operations Plan outlining how these changes are being made, and NASA 
has not provided requested documentation outlining those ``excess 
competencies'' broken down by Center, so that it would be possible to 
see what areas NASA management considered to be no longer important to 
pursue. It seems that aeronautics programs have fallen in this group, 
with the FY06 Budget Request cutting aeronautics programs over 21 
percent by FY10, not counting the loss in purchase power due to 
inflation. Although aeronautics accounts for only 1/17 of the NASA 
budget, it had to absorb close to 1/3 of the total cut made to the 
Agency's out-year budget plan.
    These decisions seem to fly in the face of a number of 
recommendations made by expert panels. A RAND Corporation panel 
recommended that ``of the 31 existing major NASA test facilities, 29 
constitute the `minimum set' of facilities important to retain and 
manage to serve national needs.'' A National Academies committee 
concluded that ``although a strong national program of aeronautics 
research and technology [R&T] may not, by itself, ensure the 
competitiveness of the U.S. aviation industry, the Committee agrees 
with earlier studies that without it, the United States is likely to 
become less competitive in aeronautics relative to countries with 
stronger programs. Aviation is an R&T-intensive industry. . .. Some 
aeronautics R&T programs have produced `breakthroughs' that are 
immediately usable. . .. More often, aeronautics R&T advances are 
evolutionary, and a substantial number of years can pass before the 
aviation systems making use of these advances enter service.'' This 
last statement is particularly interesting in light of the fact that 
NASA is currently saying that it is going to focus only on 
``breakthrough'' technologies.
    NASA seems to be following a course on aeronautics that has 
potentially grave consequences not only for its Research Centers and 
those who work there, but also for our nation. I have many questions 
that I hope the witnesses can answer, and I look forward to their 
testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Calvert, Ranking Member Udall,

    I want to thank you for organizing this important Subcommittee 
hearing to discuss The Future of Aeronautics at NASA. I want to welcome 
our distinguished panel of witnesses to the Subcommittee on Space and 
Aeronautics. Being from Houston, I of course take a particular interest 
in the direction that NASA is taking. The truth is that any vision for 
NASA starts today, but will likely affect an entire generation of 
humanity in terms of its impact.
    A number of our recent hearings in the Science Committee have dealt 
with the national budget and its impact on scientific research, 
development, and discovery. Sadly, the news is almost all bad because 
this Administration has put out a budget that puts a squeeze on most of 
our vital agencies and programs. NASA, is not an exception to this 
budget squeeze. While some would point to the fact that the total NASA 
budget of $16.5 billion actually increased by 1.6 percent, the fact is 
that despite this small increase many NASA programs have suffered deep 
cuts including vital aeronautics research, which suffered a six percent 
cut in this latest budget. In fact, over the last decade, funding for 
NASA's aeronautics research has declined by more than half, to about 
$900 million. Even more troubling is that the proposed five-year plan 
for aeronautics contemplates substantial funding reductions of 20 
percent for aeronautics research, in addition with significant cutbacks 
in its civil service and contractor workforces. If our nation expects 
to stay on the cutting edge and leads the world's development of new 
technologies it can not afford to leave aeronautics research withering 
on the vine without proper funding.
    I am also deeply concerned that the proposed budget cuts will hit 
NASA's workers the hardest. Downsizing the workforce may reduce the 
budget, but it will not succeed in moving NASA forward. The NASA 
workers are the heart and soul of the Agency, the ones who put the 
vision into action and make discoveries happen. Not only do we lose 
these talented individuals by reducing the workforce, but I am certain 
that we will scare away potential NASA recruits. The fact that 
workforce is being reduced is a sign of instability and our best and 
brightest minds may decide to go another path if they feel NASA does 
not offer them the opportunity for real development. I hope NASA will 
soon provide figures as to how many facilities and workers they plan to 
release and the time frame for this downsizing. The uncertainty that is 
in the air can not be good for the Agency or for the future of our 
nation's aeronautics program.
    I have been supportive of President Bush's Vision for Space 
Exploration because I firmly believe that the invest we make today in 
science and exploration will pay large dividends in the future. 
Similarly, I do not want to put a cap on the frontiers of our 
discovery, NASA should aim high and continue to push our nation at the 
forefront of space exploration and scientific discovery. However, I can 
not see how this is accomplished by cutting aeronautics research and 
planning for even deeper cuts in the future. The President has stated 
that the fundamental goal of his directive for the Nation's space 
exploration program is ``. . .to advance U.S. scientific, security, and 
economic interests through a robust space exploration program.'' I 
could not agree more with that statement; unfortunately, this 
President's own budget does not meet the demands of his ambitious 
agenda. The United States can not cede our leadership in the area of 
aeronautics, especially considering all the practical applications it 
has for millions of Americans. While other nations, notably in Europe 
are strengthening their work in aeronautics research, we seem to be 
satisfied to stay stagnant and I find that unacceptable.
    As Members of this committee know I have always been a strong 
advocate for NASA. My criticism of the President's budget is intended 
only to strengthen our efforts to move forward as we always have in the 
area of space exploration and discovery. NASA posses an exciting 
opportunity to charter a new path that can lead to untold discoveries. 
As always I look forward to working with the good men and women of NASA 
as we push the boundaries of our world once again.

    Chairman Calvert. I would like to ask unanimous consent to 
insert at the appropriate place in the record the background 
memorandum prepared by the majority staff for this hearing. 
Hearing no objection, so ordered.
    Today, we will begin our hearing with testimony, beginning 
with Congresswoman Jo Ann Davis, and I think later, Congressman 
Dennis Kucinich will be joining us.
    They will be followed by the distinguished panel of 
experts, led by Dr. J. Victor Lebacqz, NASA Associate 
Administrator for Aeronautics. At the table with Mr. Lebacqz 
will be Dr. John Klineberg, who led a 2004 Research Council 
study entitled ``Review of NASA's Aerospace Technology 
Enterprise: An Assessment of NASA's Aeronautics Technology 
Program.'' He is retired as a President of Space Systems/Loral, 
and for 25 years, worked at NASA, including as Director of both 
the Goddard Space Flight Center and the Ames Research Center. 
Dr. Philip Anton, who was the principal investigator of the 
2004 report produced by the RAND Corporation entitled ``Wind 
Tunnels and Propulsion Test Facilities: An Assessment of NASA's 
Capabilities to Serve the National Needs.'' The report was 
jointly sponsored by NASA and the Department of Defense. He is 
a senior scientist at RAND, which is a federally-funded 
research and development center sponsored by the Department of 
Defense. And Dr. Mike Benzakein, who was named Chairman of the 
Department of Aerospace Engineering at Ohio State University in 
October '04. From 1967 through 2004, he worked for GE Aircraft 
Engines, and retired as general manager of advanced technology 
and military engineering. And finally, Dr. John Hansman, who is 
the Professor of Aeronautics and Astronomics at the 
Massachusetts Institute of Technology, and Director of the 
International Center for Air Transportation. His current 
research interests focus on advanced cockpit information system 
and flight crew situational awareness.
    Keep in mind, I would like to keep the testimony, spoken 
testimony, to five minutes. Any written testimony can be made 
part of the hearing record. Once the testimony is received from 
all the witnesses, the Members of the Subcommittee will begin 
their questions to the witnesses, which we will also limit to 
five minutes.
    We will start with Congresswoman Jo Ann Davis, who will 
lead off today, and hopefully, will be followed by Congressman 
Dennis Kucinich, who I am assured will be here shortly. And 
then, we will go right to our panel of experts, as soon as the 
two witnesses, Members of Congress, complete their testimony. 
If those witness could please come to the witness table. And 
here is Mr. Kucinich. Which will begin with NASA's Associate 
Administrator for Aeronautics, Dr. Vic Lebacqz.
    And with that, Congresswoman Davis, you may begin.

                                Panel I:

 STATEMENT OF HON. JO ANN DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Ms. Davis. Thank you, Mr. Chairman, Ranking Member Udall, 
and other distinguished Members of the Committee. I want to 
thank you for the opportunity to speak before your subcommittee 
this morning on the future of aeronautics in this country.
    I appreciate your holding a hearing on this important 
subject, which is truly becoming a matter of national security. 
I also appreciate Congressman Kucinich's appearance here this 
morning on behalf of NASA Glenn Research Center in Ohio.
    I am proud to represent the engineers and technicians at 
NASA Langley Research Center, who made United States 
aeronautics research and testing the envy of the world for over 
88 years. First established as the Langley Memorial 
Aeronautical Laboratory in 1917, it was the Nation's first 
civil aeronautics research laboratory under the charter of the 
National Advisory Committee for Aeronautics, the precursor to 
the modern-day NASA.
    Mr. Chairman, there is no doubt that we have been pioneers 
in this highly specialized field for most of the last century. 
My concern is that recent and future cuts will simply make us 
unable to retain this advantage in the future.
    In recent years, the National Aeronautics and Space 
Administration, the NASA budget, has seen modest increases. 
However, at the same time, the aeronautics programs within NASA 
have been dramatically reduced. Over the last decade, funding 
for NASA aeronautics research has declined by more than half, 
to about $900 million. In addition, the President's budget 
proposes to cut aeronautics research by an additional 20 
percent over the next 20 years--over the next five years.
    I have serious concerns that the United States is losing 
critical expertise in aeronautics research and development. 
This degradation will have a tragic impact on military and 
civilian aviation, which contributes significantly to our 
country's national defense and our economy.
    The U.S. military has benefited tremendously from NASA 
aeronautics research. The single most important benefit of the 
Department of Defense and NASA Langley's partnership is in the 
application of new technologies to this nation's military 
aircraft. Every aviation asset in the military's inventory was 
designed with the help of NASA's experts, and NASA conducted 
wind tunnel tests for the Department of Defense or their 
contractors on the F-14, F-15, F-16, F-18, F-22, JSF, B-1, C-
141, C-5, and the C-17, just to name a few.
    I think we can all agree that the combined contributions of 
these aircraft have been significant in our achievement of 
military superiority in the skies. Not only have NASA 
researchers made U.S. military vehicles technologically 
superior, they have helped determine the capabilities of our 
enemies by testing and analyzing foreign warplanes for the 
defense and intelligence communities. Without proper funding, 
this capability will perish, and will be exceedingly difficult 
to restore.
    In addition, the U.S. civil aviation industry, which plays 
an important role in the U.S. economy, has benefited from NASA 
research. This vital sector of our economy employs over two 
million Americans, and comprises roughly nine percent of our 
country's Gross National Product. This strength is a direct 
result of the investment in aeronautics research over the past 
several decades. Nonetheless, the industry has been declining 
over the past several years, and now, only holds 50 percent of 
the world market.
    While U.S. aeronautics research and testing programs are 
declining, countries in Europe and elsewhere are investing 
heavily in aeronautics research. The health of the U.S. 
aviation industry depends on aeronautics research and 
development, especially long-term research that cannot--that 
they cannot and will not perform themselves, in order to 
compete on the world market. NASA is the only, and I repeat, 
the only federal agency that supports research on civilian 
aircraft. Their researchers are working to make our planes and 
our skies safer, and I believe that this is a worthwhile 
investment of the taxpayer's money.
    Given the importance of NASA aeronautics research and 
testing, I am very concerned that NASA does not have a coherent 
vision for aeronautics programs. Past blueprints and other 
guiding documents seem to have been discarded, most likely 
because NASA did not have the aeronautics budget to support 
them.
    As I briefly noted today, the importance of aeronautics 
research is obvious. We cannot afford to lose the aeronautical 
advantage that is vital to our national defense and to our 
economy.
    Again, I want to thank you, Chairman Calvert, for holding a 
hearing on this important issue, and I am glad you thought it 
important enough to be your first hearing of the 109th 
Congress. I appreciate all of your work and your staff's work, 
and I thank you, also, to the witnesses for being here this 
morning.
    [The prepared statement of Ms. Davis follows:]

           Prepared Statement of Representative Jo Ann Davis

Mr. Chairman:

    Thank you for the opportunity to speak before your subcommittee 
this morning on the future of aeronautics in this country. I appreciate 
you holding a hearing on this important subject, which is truly 
becoming a national security concern. Also, I appreciate Congressman 
Kucinich's appearance here this morning on behalf of NASA Glenn 
Research Center in Ohio.
    I am proud to represent the engineers and technicians at NASA 
Langley Research Center who have made United States aeronautics 
research and testing the envy of the world for over eighty-eight years. 
First established as the Langley Memorial Aeronautical Laboratory in 
1917, it was the Nation's first civil aeronautics research laboratory 
under the charter of the National Advisory Committee for Aeronautics--
the precursor to the modern-day NASA.
    Mr. Chairman, there is no doubt that we have been pioneers in this 
highly specialized field for most of the last century.
    My concern is that recent and future cuts will simply make us 
unable to retain this advantage in the future.
    In recent years, the National Aeronautics and Space Administration 
(NASA) budget has seen modest increases. However, at the same time, 
aeronautics programs within NASA have been dramatically reduced. Over 
the last decade, funding for NASA's aeronautics research has declined 
by more than half, to about $900 million. In addition, the President's 
budget proposes to cut aeronautics research by 20 percent over the next 
five years.
    I have serious concerns that the United States is losing critical 
expertise in aeronautics research and development. This degradation 
will have a tragic impact on military and civilian aviation, which 
contributes significantly to our country's national defense and 
economy.
    The U.S. military has benefited tremendously from NASA aeronautics 
research. The single most important benefit of the Department of 
Defense and NASA Langley's partnership is in the application of new 
technologies to this nation's military aircraft.
    Every aviation asset in the military's inventory was designed with 
the help of NASA's experts, and NASA conducted wind tunnel tests for 
the Department of Defense or their contractors on the F-14, F-15, F-16, 
F-18, F-22, JSF, B-1, C-141, C-5, and the C-17, just to name a few. I 
think we can all agree that the combined contributions of these 
aircraft have been significant in our achievement of military 
superiority in the skies.
    Not only have NASA researchers made U.S. military vehicles 
technologically superior, they have helped determine the capabilities 
of our enemies by testing and analyzing foreign warplanes for the 
defense and intelligence communities. Without proper funding, this 
capability will perish and will be exceedingly difficult to restore.
    In addition, the U.S. civil aviation industry, which plays an 
important role in the U.S. economy, has benefited from NASA research. 
This vital sector of our economy employs over two million Americans and 
comprises roughly nine percent of our country's Gross National Product 
(GNP). This strength is a direct result of the investment in 
aeronautics research over the past several decades. Nonetheless, the 
industry has been declining over the past several years and now only 
holds fifty percent of the world market.
    While U.S. aeronautics research and testing programs are declining, 
countries in Europe and elsewhere are investing heavily in aeronautics 
research. The health of the U.S. aviation industry depends on 
aeronautics research and development--especially long-term research 
that they cannot and will not perform themselves--in order to compete 
in the world market. NASA is the ONLY federal agency that supports 
research on civilian aircraft. Their researchers are working to make 
our planes and our skies safer, and I believe this is a worthwhile 
investment of the taxpayers' money.
    Given the importance of NASA aeronautics research and testing, I am 
very concerned that NASA does not have a coherent vision for 
aeronautics programs. Past blueprints and other guiding documents seem 
to have been discarded--most likely because NASA did not have the 
aeronautics budget to support them.
    As I have briefly noted today, the importance of aeronautics 
research is obvious. We cannot afford to lose the aeronautical 
advantage that is vital to our national defense and economy.
    Again, thank you Chairman Calvert for holding a hearing on this 
important issue. I appreciate all of your work and your staff's work, 
and thank you also to the witnesses for being here this morning.

    Chairman Calvert. I thank the gentlelady for her testimony. 
Mr. Kucinich, you are recognized.

   STATEMENT OF HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Kucinich. Thank you, Mr. Chairman, and Members of the 
Committee. I am privileged to be here with Representative Jo 
Ann Davis on this important matter relating to aeronautics in 
the United States.
    She pointed out there is no vision for aeronautics. Sitting 
right behind you on the wall, come to this committee, are the 
words from Proverbs, which says: ``Where there is no vision, 
the people perish.'' So, it is important that we are here 
talking about the future of aeronautics.
    Today, I am going to make the case that aeronautics 
research is essential to America's national security, quality 
of life, economy, safety, and environment. NASA has played, and 
should continue to play, a crucial role in aeronautics. Yet, it 
is at grave risk of being undermined as a result of current 
efforts to eliminate jobs, facilities, and entire programs. We 
must not allow the erosion of aeronautics at NASA.
    NASA's contribution to the field of aeronautics to the 
Nation and world are profound. A good starting point is 
aeronautics' contribution to national security. From further 
surveillance--from surveillance systems that monitor aircraft 
flight paths, to the development of secure communication 
systems, NASA's research has been instrumental in improving our 
national security. In addition, NASA's recent successful 
hypersonic flight, clocked at about 7,000 miles per hour, 
demonstrated that military or civilian aircraft might soon be 
able to fly anywhere in the world in less than two hours. 
Aeronautical vehicles are a substantial and key part of the 
national defense infrastructure.
    NASA's aeronautics programs also contribute substantially 
to the Nation's economy. The NASA Glenn Research Center in 
Brook Park, Ohio, for example, is a cornerstone of Ohio's 
fragile economy, and a stronghold of aeronautics research. In 
fiscal year 2003, spending at Glenn on contracts and grants 
generated over $430 million of earnings for Ohio households. 
And studies have shown that it has over a billion dollar impact 
on the economy of northeast Ohio. Civil aeronautics is also a 
major contributor to this sector's positive balance of trade, 
more than any other industry. Aeronautics contributes to a 
stronger economy by lowering the cost of transportation, 
enabling a new generation of service-based industries like e-
commerce to flourish, and by performing the research that leads 
to inexpensive and reliable flights.
    Safety has advanced considerably because of NASA's 
elimination of wind shear as a cause of airline accidents, 
their improved detection of corrosion and cracks, their anti-
icing and deicing research, advanced air traffic management 
technology, and others. Again, much of that research came from 
NASA Glenn. Other contributions include noise reduction and 
emissions eliminations, both of which will be limiting factors 
to expansion of air traffic in the future.
    Finally, NASA's aeronautics research is important, because 
NASA is able to develop long-term, high-risk enabling 
technologies that the private sector is unwilling to perform, 
because it is too risky or too expensive. In fact, this has 
historically been the role of government-sponsored research. 
This is true not only with aeronautics, but with pharmaceutical 
research, defense research, energy research, environmental 
research, and much more. When the government-sponsored basic 
research yields information that could lead to a service or 
product with profit potential, the private sector transitions 
from research to development in order to bring it to market. 
While it is not always as simple as this, it is clear that 
where there is no basic research, there can be no development. 
Where there is no basic research, there could be no 
development, and what is happening with this new policy is we 
are getting out of basic research in aeronautics.
    Yet aeronautics research in NASA is being attacked from 
multiple angles. The most recent and most potentially 
devastating threats come from the fiscal year 2006 budget 
proposal, which would result in major losses of key aeronautics 
proposals. The greatest cuts would be felt at NASA Glenn and at 
NASA Langley in Virginia, and that is why I am here with 
Representative Davis, on behalf of aeronautics. If this dark 
vision is realized, we are going to be ceding aeronautic 
superiority to Europe. The effects are exacerbated by a recent 
shift in the market share for aeronautics to the Europeans. For 
example, Boeing is now doing testing in Europe. The European 
company Airbus is also fast becoming the leader in aircraft 
design with its new A380 being touted as the most advanced, 
spacious, and efficient airliner ever conceived. Think about 
that when you think about America's traditional role as a 
leader in aerospace, and you realize why it is absolutely wrong 
for anything that would deter from our mission in basic 
research in aeronautics.
    We already stand to lose valuable personnel. NASA 
aeronautics jobs are good paying jobs that attract people to 
areas hosting a center, and keeping them there. But the recent 
proposed cuts would eliminate 700 NASA jobs from Glenn, 1,100 
NASA jobs from Langley, and those two centers are the 
cornerstones of aeronautics research in the United States. An 
undetermined number of contractor jobs are at risk. It is 
important to understand that threats to job stability posed by 
funding losses will encourage the Nation's most talented 
scientists and engineers, who now work for the United States of 
America, to look elsewhere for work. And some have already 
started to do so.
    I want to submit the rest of the testimony for the record.
    Chairman Calvert. Without objection.
    Mr. Kucinich. And ask that the Committee, if they have any 
questions, please feel free to ask.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kucinich follows:]

        Prepared Statement of Representative Dennis J. Kucinich

    Thank you, Chairman Calvert and Ranking Member Udall, for the 
opportunity to testify about The Future of Aeronautics at NASA. Today, 
I will make the case that aeronautics research is essential to 
America's national security, quality of life, economy, safety and 
environment. NASA has played and should continue to play a crucial role 
in aeronautics. Yet it is at grave risk of being undermined as a result 
of current efforts to eliminate jobs, facilities and entire programs. 
We must not allow the erosion of aeronautics at NASA.
    NASA's contributions in the field of aeronautics to the Nation and 
the world are profound. A good starting point is aeronautics' 
contribution to national security. From surveillance systems that 
monitor aircraft flight paths, to the development of secure 
communication systems NASA's research has been instrumental in 
improving our national security. In addition, NASA's recent successful 
hypersonic flight, clocked at about 7,000 miles per hour, demonstrated 
that military or civilian aircraft might soon be able to fly anywhere 
in the world in less than two hours. Aeronautical vehicles are a 
substantial and key part of the national defense infrastructure.
    NASA's aeronautics programs also contribute substantially to the 
Nation's economy. The NASA Glenn Research Center in Brook Park, Ohio, 
for example, is a cornerstone of the state's fragile economy and a 
stronghold of aeronautics research. In FY03, Glenn spending on 
contracts and grants generated over $430 million of earnings for Ohio 
households. Civil aeronautics is also the major contributor to this 
sector's positive balance of trade--more than any other industry. 
Aeronautics contributes to a stronger economy by lowering the cost of 
transportation, enabling a new generation of service based industries 
like e-commerce to flourish by performing the research that leads to 
inexpensive and reliable flights.
    Safety has advanced considerably because of NASA's elimination of 
wind shear as a cause of airline accidents, their improved detection of 
corrosion and cracks, their anti-icing and deicing research, advanced 
air traffic management technology, and others. Again, much of that 
research came from NASA Glenn. Other contributions include noise 
reduction, and emissions eliminations, both of which will be limiting 
factors to expansion of air travel in the future.
    Finally, NASA's aeronautics research is important because NASA is 
able to develop long-term, high-risk enabling technologies that the 
private sector is unwilling to perform because it is too risky or too 
expensive. In fact, this is historically been the role of government 
sponsored research. This is true not only with aeronautics but also 
with pharmaceutical research, defense research, energy research, 
environmental research and much more. When the government sponsored 
basic research yields information that could lead to a service or 
product with profit potential, the private sector transitions from 
research to development in order to bring it to market. While it is not 
always as simple as this, it is clear that where there is no basic 
research, there can be no development.
    Yet aeronautics research in the National Aeronautics and Space 
Administration is being attacked from multiple angles. The most recent 
and most potentially devastating threats came in the form of the 
Administration's FY06 budget proposal, which would result in major 
losses of key aeronautics programs. The greatest cuts would be felt at 
NASA Glenn and at NASA Langley in Virginia. If the Administration's 
vision for the weakening of aeronautics at NASA is realized, we cede 
aeronautics superiority to Europe. The effects are exacerbated by a 
recent shift in the market share for aeronautics to the Europeans. For 
example, Boeing is now doing its testing in Europe. The European 
company Airbus is also fast becoming the leader in aircraft design with 
its new A380, being touted as the most advanced, spacious and efficient 
airliner ever conceived.
    We already stand to lose valuable personnel. NASA aeronautics jobs 
are well paying jobs that attract people to areas hosting a center and 
keep them there. But the recent proposed cuts could eliminate 700 NASA 
jobs from Glenn and 1100 NASA jobs from Langley, the two cornerstones 
of aeronautics research. An undetermined number of contractor job are 
also at risk. It is important to understand that threats to job 
stability posed by funding losses will encourage the Nation's most 
talented scientists and engineers to look elsewhere for work. And some 
have already started to do so.
    The Agency is also considering shutting down several unique and 
expensive facilities, without consideration of their income generation 
potential through enhanced use leasing. The world-class wind tunnels at 
NASA Glenn are a classic example. Allowing private and university 
researchers to use them could result in significant income, which would 
increase the efficient use of the facilities, and would contribute to 
more scientific output. The wind tunnels alone would require tens of 
millions of dollars to replace.
    We must not allow our dominance in aeronautics to atrophy. Clearly, 
NASA's role has historically been critical and can continue to be 
critical to our country's prosperity if we have the foresight to make 
it so. Make no mistake; it will require a long-term effort. But it will 
be worthwhile. In the meantime, it will be imperative that we stop the 
anti-aeronautics cuts to the budget.
    First, we need to immediately restore and strengthen funding for 
NASA aeronautics research that is an economic engine for aeronautics 
and aerospace industries. Secondly, we must examine creative approaches 
to funding like enhanced use leasing in all NASA facilities. Before 
deciding which facilities to mothball, NASA should take into account 
the increase in assets enhanced use leasing would bring. Third, the 
facilities that require renovation must be funded as such, since it is 
cheaper to upgrade than to rebuild the facilities.
    Of course, there is much more that needs to be done. I hope this 
important dialogue continues and intensifies. The future of 
aeronautics, not just at NASA, but in America, is at stake.
    Mr. Chairman, I would also like to submit the following resolutions 
from various governmental entities as part of my testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Calvert. I thank both of you for your excellent 
testimony. If there are no questions for the two Members. 
Questions? Mr. Rohrabacher.
    Mr. Rohrabacher. I would like to ask our two witnesses to 
tell me which part of the NASA budget that they would like to 
take the money from in order to bolster this part of the NASA 
budget that they are supporting today.
    Ms. Davis. Mr. Rohrabacher, what I would like to see is 
that there be a separate line item for a national--for 
aeronautics, and a separate one for space. I think that right 
now, we have a vision for space. We have no vision for 
aeronautics. My concern is national security.
    Mr. Rohrabacher. Are there any programs in NASA that you 
feel are of less priority that we could take the money from, in 
order to fulfill the noble objectives that both of you have set 
out today?
    Ms. Davis. Maybe not from NASA, but I believe the way the 
appropriations works, there are other projects within that pot 
of money that we can--I have an offset in mind, and I will be 
presenting that as an amendment, sir.
    Mr. Rohrabacher. You have a part of NASA that has less 
priority, that you think that the money could come from?
    Mr. Kucinich. Along with you, Representative Rohrabacher, I 
have been a strong supporter of the space program, as well as 
aeronautics, and I see the connection. Because for example, 
with the Shuttle, when the Shuttle goes up, it is a space 
vehicle. When it comes back, it relies on aeronautical 
technology in order to land. So you know, there always is a 
connection. That is why they call it the National Aeronautics 
and Space Administration, but we are going to take the A out of 
that, and it will just be the National Space Administration.
    I don't want to see the NASA budget cut anywhere. But the 
fact of the matter is, Mr. Chairman, we are looking at more 
than a $500 billion budget deficit. This is kind of an odd time 
for us to be looking at the one area where we can grow our 
economy, and start cutting there. NASA is the path out of a 
budget deficit, with the kind of research and development which 
the system is capable of doing. So, we shouldn't be looking at 
any cuts in any way.
    Mr. Rohrabacher. It is very easy to advocate spending more 
money. It is very difficult to find prudent ways of trimming 
things from the budget. And that is not just for Members of 
Congress. I mean, we have witnesses after witnesses after 
witnesses, I think I have been here 16 years now, and I don't 
remember even one witness who was able to put the lowest 
priority. They are always able to say everything we got to 
spend the money on, but never can come up with some idea of 
where we could, things, perhaps, aren't being spent wisely, and 
could be better spent on the program they were advocating 
today.
    Mr. Kucinich. If I may, to my friend, Mr. Rohrabacher. What 
we are doing would be akin to asking a farmer to save money by 
throwing away some of his seed corn. Or--I mean, we----
    Mr. Rohrabacher. Or maybe, get rid of the whiskey allotment 
that he uses for holidays or something like that.
    Mr. Kucinich. Well, I think that--there is--NASA can hardly 
be accused of spending money like someone who is interested in 
self-enjoyment here, but I think----
    Mr. Rohrabacher. Mr. Kucinich, wouldn't you admit that NASA 
is just like every other organization? There has got to be 
things that are of less priority, and other things that are of 
higher priority.
    Mr. Kucinich. Well, we sure haven't found them in 
aeronautics. I can tell you that.
    Mr. Rohrabacher. All right.
    Mr. Kucinich. And that is why I am here. And I agree--
listen, I am with you on space exploration, but why should 
space--why should one come at the expense of the other? Because 
the two are together.
    Chairman Calvert. I thank the gentleman for his question. 
Any other questions for this panel? Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Mr. Chairman, I 
think Mr. Rohrabacher is exactly right. This should be about 
looking at priorities. I just don't believe that aeronautical 
research is quite akin to whiskey allotment. And you know, as I 
look around this room, I am a strong supporter of the space 
program, but probably, I don't know, maybe there is somebody, 
but I don't know of anybody that has been in space sitting in 
this room, but I know just about everybody here has probably 
been on an airplane, and Congressman Davis, I appreciate the 
fact that you are here, because I know you serve on the Armed 
Services Committee, and I think the Intelligence Committee, and 
are you still on the Foreign Relations Committee, there----
    Ms. Davis. Yes, sir.
    Mr. Forbes. And you have traveled around the world, and 
there are two things that I want to ask you about. One is if 
you could elaborate a little bit more on the national security 
issue that you raised to us. But secondly, one of the things I 
hear over and over again, and Mr. Kucinich touched on this, so 
goes our research, so goes the industry. But I hear over and 
over again about the difficulties that we are having in 
attracting and retaining top flight engineers and researchers, 
and when I look at this budget, for Langley, in particular, it 
goes from $805 million in '04, $668 in '05, $557 in '06, $479 
in '07. I know there is nobody that has been on the ground at 
Langley with the personnel more than you.
    Can you elaborate a little bit more on, one, the national 
security concerns that you have, and secondly, the impact these 
budgets are having on the retention of top quality engineers 
and researchers?
    Ms. Davis. Well, I will tackle the second part of the 
question first. And my concern is, with the jobs at Langley, 
but not major concern. My major concern is national security. 
As you well elaborated, I am on Armed Services and 
Intelligence, and International Relations as well. And yes, we 
stand to lose a lot of brainpower at NASA Langley and at Glenn.
    I had someone in my office the other day telling me that we 
are now down to graduating, I think last year in the United 
States, 75,000 engineers, out of which 35,000 were Chinese, 
while China was graduating a million, Japan was graduating 
750,000. That is worrisome to me. It is worrisome to me that we 
are turning over our aeronautics and research to other 
countries other than the United States.
    On a national security level, it bothers me that the JSF 
that I mentioned, that was tested at Langley, it is also being 
tested in Europe. It bothers me that we will be looking to 
other countries to give us the research and development for our 
military, for our military aircraft. Today's allies may be 
tomorrow's adversaries. I am not interested in the technology 
coming from the other countries. I think we need to retain that 
superiority here in the United States.
    There is a reason NASA Langley is located next door to 
Langley Air Force Base, because there has been a partnership 
for many, many years, and I just would hate to see us lose 
that. And I think that the way we are going, we are heading 
down that path, and I think it would be a national tragedy.
    Mr. Kucinich. Mr. Forbes. Mr. Forbes. If I may, 
Representative Davis, you are absolutely right. I mean, we have 
to look to the future here, of America's defense capabilities, 
and if we cede the building of airplanes, to let us say, the 
Chinese market, we could be looking at a condition in the 
future where we don't have the technology we need to defend 
this country, and it is a very serious question.
    I mean, one of the first things that happened when I came 
to Congress was that a representative of one of the largest 
aircraft manufacturers in the world came in our office, and 
asked me to vote for the China Trade Bill, which I didn't do. 
But they admitted, when I questioned them, that the price of 
their entry into the China market was to give China the 
prototypes of development aircraft. Now, we have to be 
concerned that we are giving up our position of superiority for 
the future, and so, I am totally supportive of what 
Representative Davis has said.
    Mr. Forbes. Thank you, Mr. Kucinich, and I just want to add 
to what they said. There was an individual researcher that told 
me the other day, he was invited to China to give a talk to a 
group of engineers. He felt he would meet with 200 of them when 
he went there. There were 5,000 engineers in the room when he 
went there, so it is a big concern for us, and thank you both 
for being here today.
    Ms. Davis. I might say, Mr. Forbes, there is a reason 
Marine One is not being totally built in the United States.
    Chairman Calvert. I thank the gentleman from Virginia. The 
gentleman from California, Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and I appreciate your 
putting this hearing together, and I appreciate Congresswoman 
Davis and Kucinich's comments, and Mr. Chairman, since I won't 
be here for the full length, I would like to submit some of my 
questions in writing.
    Chairman Calvert. Without objection, so ordered.
    Mr. Honda. And hopefully, expect a response in writing, 
some time definite point in the future. And I, too, support 
both Congresswoman Davis and Congressman Kucinich's position. 
And regarding the budget, I think what we did in the NASA 
budget is take all the money out of aeronautics and put it into 
space. And so, we are messing around with the budget within its 
own self, and so, some people would call that a neutral budget 
action, but it is really not neutral. It is a deficit, in the 
sense that as they have quite well said, it is going to put us 
back, and it is not going to allow us to perform the mission 
that has been set out for us.
    This budget has been set up as a full accounting process, 
and looking at FTEs and bottom line, and you force the budget 
that way, versus the mission that is stated. If this were a 
mission-driven budget, it would look different, and the people 
would be treated differently. And I think that that is the big 
question that we have before Congress. As to where would you 
get the money, well, the budget is not only NASA. The budget 
is, in its entirety, a little over $2.5 trillion, in terms of 
the President's budget, and I think there has been a lot of 
activities on the Floor as to how we look at our budget.
    And you know, we had the issue of the Truman Commission, 
which looks for waste, and I am sure that we can find some 
moneys in that category. I think when Truman did it, they found 
over $15 billion. In those days, that was a lot of money. In 
today's count, that would be sufficient for what it is that you 
are looking for.
    And we are looking at other items that won't even show up 
to our budget, and I think that that, if we looked at those 
supplementals, we might find sufficient funding there. So, the 
budget is not just NASA. It is in its entirety, and if our 
budget reflects our priorities, this certainly was thinned 
back, as Congresswoman Davis and Kucinich is asking, to look at 
that, and we analyze, before it is too late, our position on 
ASA. Thank you.
    Chairman Calvert. Thank you. I will recognize Mr. Bartlett, 
and then, we will get right to our panel. The gentleman from 
Maryland.
    Mr. Bartlett. Thank you very much.
    I just wanted to note--I would like to comment on something 
that Congresswoman Davis said. The budget item that we are 
talking about today is simply a symptom of a very much larger 
problem. The numbers you gave about the number of engineers 
that are being trained in our country, and the percentage of 
those, nearly half of those, were Chinese, and then, the 
numbers being trained elsewhere, is a very alarming trend.
    A society gets what it appreciates, and the truth is, in 
this country, we do not appreciate academic achievers, bright 
young men in our schools are called geeks and nerds, and pretty 
girls won't date them, and a really bright girl will play dumb, 
so that she can get a date. Now, what do you expect the result 
is going to be, when this is the kind of a culture that you 
have in your country. Yet, we need to be inviting academic 
achievers to the White House, and we need to be praising them 
and holding them up at least as much as football players, thank 
you.
    I am concerned. I am concerned that for the short run, you 
are exactly right. Our economic superiority is at risk. We will 
not continue this blessed country, where one person out of 22 
has 25 percent of all the good things in the world. We aren't 
going to continue to be here, unless we turn out scientists, 
mathematicians, and engineers of quality in large enough 
numbers, and we are not doing it.
    Ultimately, you are exactly right. It is a threat to our 
military superiority. We will not continue to be the world's 
premier military power if we are not turning out scientists, 
mathematicians, and engineers of quality in large enough 
numbers, and we are not doing it today.
    So, thank you very much for bringing this to our attention. 
It is a whole lot bigger than aeronautics. That is just a 
system of a big problem our society has.
    Mr. Kucinich. Mr. Chairman, if I may, I want to thank 
Representative Bartlett for defending all those of us who had 
trouble getting dates in high school.
    Chairman Calvert. Something told me I knew that all along, 
Dennis. I thank the panel, and we will now have our----
    Ms. Davis. Thank you, Mr. Chairman.
    Chairman Calvert.--full panel up. Thank you, Congresswoman 
Davis.
    Thank you, gentlemen. I appreciate your coming out today, 
and Mr. Lebacqz, we will start with you. You are recognized for 
five minutes. You might turn your mike on, though.

                               Panel II:

 STATEMENT OF DR. J. VICTOR LEBACQZ, ASSOCIATE ADMINISTRATOR, 
         AERONAUTICS RESEARCH MISSION DIRECTORATE, NASA

    Dr. Lebacqz. There we go. Thank you, Mr. Chairman. It is a 
pleasure to see you again. Members of the Subcommittee, thank 
you. It is an honor for me to represent this fantastic agency 
to this panel today.
    If I might take a moment. Personally, my father was an 
immigrant to this country from Belgium, after the first World 
War. Came on a scholarship as a geek, went out to Stanford to 
get a Ph.D. There, he met my mother, who was a daughter of 
Norwegian immigrants, who worked her way across the country 
teaching, and also, got a Ph.D. at Stanford in the 1930s. So, I 
think that is a function of the fact that this country does 
represent opportunity for all, and equality for all. And it is 
amazing that one generation after two immigrants can do that, 
that their son represents this fantastic agency in front of 
you, and I am grateful for the opportunity. I only wish they 
were here to share it with me still.
    So, let me get on with my testimony. Mr. Chairman, I 
request that my full testimony be entered into the record.
    Chairman Calvert. Without objection, so ordered.
    Dr. Lebacqz. The NASA aeronautics research portfolio is a 
vital part of NASA's mission, to pursue the President's vision 
for space exploration, both in our continuing development of 
new technologies that improve aviation on this planet, and in 
our development of aeronautical science platforms to fly on 
this planet and those of other planets.
    The research in the Aeronautics Research Mission 
Directorate supports the NASA strategic plan, and specifically, 
strategic objective #12 in our new document, the New Age of 
Exploration, and has been formulated with your input, and the 
input of federal agencies, industry, and academia, through our 
advisory committees.
    The President's Fiscal Year 2006 budget fully supports the 
aeronautics program priority research in the areas of reducing 
aircraft noise, increasing aviation safety and security, and 
increasing the capacity and efficiency of the national airspace 
system. Our budget request also supports the NASA contributions 
to the critical national planning activities that have been 
identified by the Interagency Joint Planning and Development 
Office.
    NASA's Fiscal Year 2006 request for aeronautics research is 
$852.3 million, which supports three programs. The Aviation 
Safety and Security program protects air travelers and the 
public by developing technologies for both the national 
airspace system and the aircraft in it. We are focusing on 
technologies that can reduce air crash rates and reduce 
aviation injuries and fatalities, such as, for example, 
synthetic vision systems that allow us to see through fog and 
increase the safety of flying in bad weather. Additionally, the 
program produces technologies that can reduce the vulnerability 
of the national aviation system to terrorist attacks, such as 
integrated information technologies to predict trends.
    Our second important program is our Airspace Systems 
program, which works to enable major increases in the capacity 
and mobility of the U.S. air transportation system, through 
technology transfer and development. The NASA Airspace Systems 
Program has become an essential technology provider for the 
FAA's air traffic management long-term research requirements. 
We have already transitioned technologies to the FAA to support 
air traffic controllers, such as the Traffic Management 
Advisor, and we will be having a major demonstration of our 
small aircraft transportation system at Danville, Virginia, 
this spring, and you are all cordially invited to attend that.
    Additionally, it is through our Airspace Systems program 
that we support the Interagency Joint Planning and Development 
Office that I mentioned earlier. We are honored to lead one of 
the eight integrated product teams that will be instantiating 
the new national transformed air transportation system for the 
JPDO.
    Finally, the Vehicle Systems program develops and 
demonstrates barrier-breaking vehicle concepts and 
technologies, beyond the scope of conventional air vehicles, 
which protect the Earth's environment and enables science 
missions. To ensure maximum benefit to the taxpayer and to 
embrace the President's vision, this program will be undergoing 
a transformation in 2006, consistent with the review of the 
National Research Council a year ago. It has been refocused 
away from many interdisciplinary research and technology 
projects toward four specific revolutionary technology projects 
that are described in my written testimony.
    Today, Mr. Chairman, the U.S. remains a global power in 
aviation. 10 years ago, I would have likely said, as did 
Representative Davis, the U.S. is the global leader in 
aviation. Over the past 15 years, it is true, global 
competition has slowly, but steadily, eroded our supremacy in 
aviation. 60 years ago, Vannevar Bush wrote in his insightful 
report, ``Science, the Endless Frontier:'' ``A nation which 
depends upon others for its new basic scientific knowledge will 
be slow in its industrial progress and weak in its competitive 
position in world trade.''
    As I talk about our aeronautics program with our partners 
and stakeholders in academia, industry, and the government, and 
as you may hear from other members of this panel, and have, in 
fact, already heard this morning, there are at least two 
distinct philosophies for this nation's investment in 
aeronautical research. On the one hand, there are those who 
think aeronautics and aviation is a mature industry and market, 
one in which government's research role is best scaled back and 
left to private industry. This view holds that market forces 
will decide the Nation's future as a commercial aeronautics 
power. On the other hand, there are those who think there are 
many breakthroughs in aeronautics ahead, and worry about the 
continuous large investments by foreign governments and 
competitors, and the apparent shrinking market share for U.S. 
industry. This view holds that federal aeronautical investments 
are important for the Nation's future military and economic 
security.
    Many bipartisan reports, ranging from the President's 
Commission on the Future of the Aerospace Industry, to the 
National Academies Report, ``Securing the Future of U.S. Air 
Transportation: A System in Peril,'' have called for a national 
aeronautics policy from both sides of this policy debate. 
Perhaps, Mr. Chairman, the time is, in fact, right for a 
vigorous national dialogue leading to such a policy.
    I thank you again for your attention. I look forward to my 
fellow panelists, and I will be glad to answer questions from 
you.
    [The prepared statement of Dr. Lebacqz follows:]
                Prepared Statement of J. Victor Lebacqz

Mr. Chairman and Members of the Subcommittee:

    Four months ago, on November 16, 2004, a B-52 that was designed in 
the early 1950's took-off from Edwards Air Force Base in Southern 
California and headed to a test range over the Pacific Ocean. Mounted 
underneath the starboard wing was a Pegasus rocket that was designed in 
the 1980's. Fitted onto the Pegasus in place of the nosecone was the X-
43A, a small experimental scramjet (supersonic combustible ramjet)-
powered vehicle designed at the Langley Research Center in the mid-
1990's. Over the test range, the B-52 dropped the Pegasus, which 
propelled the X-43 into free flight. The X-43A scramjet ignited and 
flew at approximately Mach 10, nearly 7,000 mph, setting a new world 
record for an air-breathing vehicle, as it flew at an altitude of 
approximately 110,000 feet.
    This breakthrough provides a promise for the future. The talent and 
vision of the people at our NASA Research Centers, joining forces with 
our industry team, made this breakthrough a reality, turning visionary 
possibilities into incredible realities. As the President said last 
January, we are engaged in exploration and discovery, and breakthroughs 
such as this are needed to enable the President's Vision for Space 
Exploration. Breakthroughs power the future. NASA's job is to envision 
the future and make it a reality. This is our history and it is our 
future.
    I thank you for this opportunity to testify on aeronautics research 
at NASA. Our aeronautics research portfolio is a vital part of NASA's 
mission to pursue the President's Vision for Space Exploration, both in 
our continuing development of new technologies that improve aviation on 
this planet, and in our development of aeronautical science platforms 
to fly on this and other planets. We are developing technologies to 
improve safety, reduce environmental impact and improve the efficiency 
of aviation operations. We are developing technologies to permit long-
endurance uninhabited aeronautical vehicles. It is an honor for me to 
explain how we are doing so.

The Importance of Aeronautics and Its Role at NASA

    Aeronautics is critical to national military and economic security, 
transportation mobility and freedom, and quality of life. Air 
superiority and the ability to globally deploy our forces are vital to 
the national interest. Aviation is a unique, indispensable part of our 
nation's transportation system, providing unequaled speed and distance, 
mobility and freedom of movement for our nation. Air carriers enplane 
over 600 million passengers and fly over 600 billion passenger miles, 
accounting for 63 percent of individual one-way trips over 500 miles 
and 80 percent of trips over 1,000 miles. Airfreight carries 29 percent 
of the value of the Nation's exports and imports and is growing at over 
six percent annually. Global communications, commerce and tourism have 
driven international growth in aviation five to six percent annually, 
well beyond annual Gross Domestic Product (GDP) growth. In many ways, 
the U.S. has only begun to tap what is possible in air transportation. 
The U.S. has over 5,200 public-use airports, but the vast majority of 
passengers pass through a little more than one percent of those 
airports and only about 10 percent are used to any significant degree.
    Aviation and the aerospace industry support over 15 million 
Americans in high-quality, high-paying jobs, second only to trucking in 
the transportation sector. Driven by technology, annual growth in 
aviation labor productivity over the past 40 years has averaged 3.6 
percent, compared to two percent for U.S. industry as a whole. Aviation 
manufacturing is a consistent net exporter, adding $30 billion dollars 
annually to the Nation's balance of trade. Aviation produces and uses a 
broad base of technologies--from computing and simulation to advanced 
materials--supporting the high technology industrial base of the 
country. Defense aviation provides fast, flexible force projection for 
the U.S. Our military aircraft are unparalleled globally because they 
employ the most advanced technology.
    Technological advances in aeronautics over the past 40 years, many 
of them first pioneered by NASA, have enabled a ten-fold improvement in 
aviation safety, a doubling of fuel efficiency with reductions in 
emissions per operation, a 50 percent reduction in cost to travelers, 
and an order of magnitude reduction in noise generation. In large part, 
the gains we have enjoyed have been due to the efficient transfer of 
the benefits of technology to consumers via competitive air 
transportation markets.
    At NASA our aeronautics program is pioneering and validating high-
value technologies that enable discovery and improve the quality of 
life through practical applications. We are investing in the 
revolutionary technologies that will ensure the success of our mission. 
To ensure maximum benefit to the taxpayer, and to embrace the Vision 
for Space Exploration, we are transforming our investment in 
Aeronautics Research in order to more sharply focus our investment on 
revolutionary, high-risk, ``barrier breaking'' technologies. Toward 
this end, the NASA Aeronautics Vehicle Systems Program (VSP) has been 
refocused away from research and technology development in multiple 
areas toward four specific revolutionary technology demonstration 
projects for which there is a clear government research role. These 
projects will address critical public needs related to reduction of 
aircraft noise and emissions, and enable new science missions. The 
revolutionary technologies developed by NASA within the next decade 
will form the basis for a new generation of environmentally friendly 
aircraft and will enhance U.S. competitiveness 20 years from now.
    To fulfill our mission we must also identify the national 
facilities that are required to support our programs. Our transformed 
aeronautics program will rely on a more focused set of facilities than 
exists today. Over the past several years many reviews have been 
performed relative to our national aeronautical facilities. There have 
been closures and changes. However, more needs to be done to avoid the 
perpetuation of marginal facilities through small, evolutionary change. 
We are optimistic that looking to the future will provide the framework 
necessary to define the facilities, new and existing, that will enable 
success in aeronautics.

Roadmapping and the Strategic Plan

    NASA is working toward the aeronautics R&D goals as published in 
The New Age of Exploration: NASA's Direction for 2005 and Beyond. In 
Strategic Objective 12 of this document, we commit to ``provide 
advanced aeronautical technologies to meet the challenges of next 
generation systems in aviation, for civilian and scientific purposes, 
in our atmosphere and in atmospheres of other worlds.'' These 
aeronautics R&D goals are based on the NASA Aeronautics Blueprint, 
published in 2002. The Aeronautics Blueprint articulates goals for 
aeronautics that we believe can achieve the objectives set out in our 
Strategic Plan. As we looked forward and examined the issues facing 
aviation, we recognized a need for new concepts and new technologies to 
break through the current plateau facing aviation. Achieving big 
increases in capacity and mobility, while improving safety and reducing 
environmental impacts, was not feasible within today's construct and 
technology baseline. What we found was that emerging technologies, when 
combined with advances in traditional aerospace disciplines, can enable 
new system concepts that operate at levels of performance that eclipse 
current systems.
    We use the Blueprint to help guide and prioritize our investments. 
The process we began in 2002 with the publication of the Blueprint--the 
framework and emphasis of the Blueprint--is reflected in our current 
program restructuring. Next steps include more detailed systems 
analysis and technology roadmapping. We are also exploring a way to use 
the National Research Council to perform a decadal survey to help us 
better understand the Nation's future needs in aeronautics.
    NASA has initiated a new roadmapping endeavor to better define all 
of our activities. One of these roadmaps is focused on aeronautics. To 
this end we have developed a Federal Advisory Committee Act (FACA) 
team, consisting of industry, academia, government, military, and local 
government planning representatives, to evaluate and draft strategic 
roadmaps that will help guide our long-range goals, capabilities, and 
enabling technologies. We intend to deliver the aeronautics roadmap 
this fall, and invite you to participate by providing input and 
comment. This interaction will help direct future investment decisions 
represented in the integrated NASA Strategic Roadmap.
    As we begin this process, a broader national dialog on the 
aeronautics R&D goals for this roadmap may be appropriate as we enter 
the second century of aviation. These discussions should include a 
range of stakeholders and customers, including the Congress. This 
process could lead to a national consensus for aeronautics R&D goals.

Joint Planning and Development Office

    Last year's FAA Reauthorization Bill, VISION-100 (P.L. 108-176), 
created the Next Generation Air Transportation System Joint Planning 
and Development Office (JPDO) with the goal to develop an integrated, 
multi-agency ``National Plan'' to transform the Nation's air 
transportation system to meet the needs of the year 2025 while 
providing substantial near-term benefits. The National Plan--in 
essence, a roadmap for the Next Generation Air Transportation System--
has six overarching goals: (1) Promote economic growth and create jobs; 
(2) Expand system flexibility and deliver capacity to meet future 
demands; (3) Tailor services to customer needs; (4) Ensure national 
defense readiness; (5) Promote aviation safety and environmental 
stewardship; and (6) Retain and enhance U.S. leadership and economic 
competitiveness in global aviation.
    The JPDO--composed of NASA, the FAA, the Office of Science and 
Technology Policy (OSTP), and the Departments of Transportation, 
Commerce, Defense, and Homeland Security--working in close 
collaboration with other public and private sector experts, created and 
published the National Plan, entitled Next Generation Air 
Transportation System Integrated Plan, referred to as NGATS, that was 
delivered to Congress in December 2004.
    The NGATS goals and objectives broadly address eight major 
strategies. A series of eight Integrated Product Teams (IPT's) are 
developing executable roadmaps for each strategy to transform the 
National Airspace System. The eight IPT's are focused on such 
activities as developing alternative airport concepts and 
infrastructure to meet future demand, establishing a more effective and 
less intrusive airport security system without limiting mobility or 
infringing on civil liberties, creating a more responsive air traffic 
system that can accommodate new and changing aircraft vehicle classes 
and business models, reducing the impact of weather on air travel, and 
harmonizing equipage and operations globally.
    NASA has a major role in the JPDO and the Next Generation Air 
Transportation System. While NASA is performing aeronautics research 
that provides the foundation to enable NGATS and the right strategies, 
we are also providing civil servants and direct support to the JPDO. 
NASA is providing civil service employees to serve as the JPDO Deputy 
Director (SES), Agile Air Traffic System IPT Lead (SES), and a Board 
member (SES), as well as 11 other full or part time civil servants. 
NASA financial support to the JPDO was $5.4M in FY 2004. This has 
increased to $5.6M in FY 2005 and will increase to $10M in FY 2006. We 
are also conducting a network-enabled operations (NEO) demonstration of 
security and capacity related technologies. This demonstration, jointly 
sponsored by NASA, DOD, DHS, and DOT, could prove to be valuable in 
integrating government-wide intelligence operations, providing 
significant aid to our national security.
    In aviation there has never been a transformation effort similar to 
this one with as many stakeholders and as broad in scope. The objective 
of this plan is to provide the opportunity for creative solutions for 
the future of air transportation, our security, and our hope for a 
vibrant future. Its success is the first priority of our aeronautics 
portfolio.

Aeronautics Research Programs

    The research in the Aeronautics Research Mission Directorate 
programs supports the NASA Strategic Plan, as formulated with your 
input and the input of federal agencies, industry and academia. The 
President's FY 2006 Budget fully supports the Aeronautics program's 
vital research, especially in the areas of reducing aircraft noise, 
increasing the aviation safety and security and increasing the capacity 
and efficiency of the National Airspace System. The budget request also 
supports the activities that have been identified by the Joint Planning 
and Development Office. NASA's FY 2006 request for the Aeronautics 
Research Mission Directorate is $852.3 million, which is $54 million 
less than the FY 2005 budget.
    Protecting air travelers and the public is the focus of the 
Aviation Safety and Security Program (AvSSP) which develops 
technologies for both the National Aviation System and aircraft that 
are aimed at preventing both intentional and unintentional events that 
could cause damage, harm, and loss of life; and minimizing the 
consequences when these types of events occur. Aviation safety focuses 
on technologies that can reduce aircraft accident rates and reduce 
aviation injuries and fatalities. Aviation security focuses on 
technologies that can reduce the vulnerability of the National Aviation 
System to terrorist attacks while improving the efficiency of security 
measures. The AvSSP Program also develops and integrates information 
technologies needed to assess situations and trends that might indicate 
unsafe or insecure conditions before they lead to fatalities or damage. 
The goal, in short, is to reduce the potential for loss of life in the 
National Aviation System. The President's FY 2006 Budget for AvSSP is 
$192.9 million, an increase of four percent over the FY 2005 program.
    Last year AvSSP demonstrated aviation safety breakthrough 
technology that has enormous potential to eliminate the leading cause 
of world-wide commercial and general aviation fatalities, Controlled 
Flight Into Terrain (commonly referred to as CFIT). Synthetic Visions 
Systems performed simulation and flight-test evaluations of low-cost 
forward-fit and retrofit technologies for General Aviation aircraft. 
Synthetic Vision Systems create an artificial, ``virtual view,'' of an 
area based on a detailed terrain database. Although the pilot may not 
be able to see the ground through the fog, a computer screen presents 
the landing site accurately based on map and terrain information. 
Evaluations included technical and operational performance assessments 
of improved pilot situational awareness with regard to terrain 
portrayal, loss of control prevention, and display symbology. Results 
from our demonstration show the efficacy of synthetic vision displays 
to eliminate CFIT and greatly improve pilot situational awareness.
    Turbulence is a leading cause of in-flight injuries and costs the 
airlines at least $100 million per year. To address this issue, AvSSP 
has designed and is performing in-service evaluations of a turbulence 
prediction and warning system with a major airline that gives flight 
crews the advanced warning needed to avoid turbulence or advise 
passengers to sit down and buckle up to avoid injury. AvSSP is also 
developing safety design and maintenance tools to design safer aircraft 
that can, for example, operate more safely in icing conditions, and new 
techniques for industry to improve aviation maintenance procedures that 
can improve safety and reduce maintenance-related accidents.
    Working in concert with other government agencies that have mission 
requirements in aviation safety and security, such as the Federal 
Aviation Administration and the Transportation Security Administration, 
as well as in cooperation with the U.S. aviation industry and 
universities, NASA actively pursues technology transfer with these 
partners by identifying and addressing user needs and by demonstrating 
key attributes of the technologies in relevant user environments, 
making use of both NASA and partner facilities and capabilities.
    Last year at the Ft. Worth, Texas, and Washington, D.C., Air 
Traffic Control Centers, AvSSP demonstrated a prototype of the Rogue 
Evaluation And Coordination Tool (REACT), using a live traffic feed 
over eight hours. REACT demonstrated the ability to detect aircraft 
that are deviating from their expected flight paths using four 
detection algorithms. It also predicted incursions into restricted 
airspace, with countdown timers. These capabilities will enhance the 
public safety by mitigating the potential for catastrophic harm that 
might otherwise result from a rogue aircraft.
    Transferring technology to enable major increases in the capacity 
and mobility of the U.S. air transportation system is the focus of the 
Airspace Systems Program (ASP). For example, the Small Aircraft 
Transportation System (SATS) has demonstrated the feasibility of pilots 
safely landing at non-radar equipped airports under low visibility 
conditions. Also, SATS has demonstrated the use of automation to 
increase flight-path accuracy and situational awareness, precluding the 
need for expensive, ground-based systems. In 2005, we are conducting a 
number of SATS demonstrations validating technologies that promote 
routine and easy access of general aviation aircraft to the Nation's 
under utilized small airports. SATS technologies can help to relieve 
the current excessive demands on the Nation's National Airspace System. 
We will conduct a public demonstration of our accomplishments in 
Danville, Virginia, during June 5-7, 2005. I extend a personal 
invitation to all the Members on this committee to attend this SATS 
demonstration. The President's FY 2006 Budget for ASP is $200.3 
million, an increase of 22 percent over the FY 2005 program.
    The Airspace Systems Program has become an essential provider of 
the FAA's air traffic management long-term research. The FAA long-term 
forecast indicates a steady growth in air travel demand that will 
culminate in a doubling of that demand over roughly the next two 
decades. NASA's ASP research objectives are planned to meet the FAA's 
needs in 2025 though some priority is being given to meet the FAA's 
near-term operational support needs.
    The Virtual Airspace Modeling and Simulation System, developed by 
the ASP, provides a unique and critical capability that is used to 
perform simulations and trade-off assessments of future air 
transportation system concepts, models, and technologies. This 
capability will allow an air traffic management tool concept to be 
tested in a non-operational environment before major development 
dollars are invested. The JPDO currently is using this capability to 
assess the impact of new technologies and to establish the requirements 
leading to a transformed national air transportation system.
    Last year we successfully completed the Advanced Air Transportation 
Technologies (AATT) project that developed Air Traffic Management 
decision-making technologies and procedures to enable greater 
flexibility and efficiencies of the National Airspace System. In 
congested airspace with interdependent traffic flows, a delay at one 
center often creates a domino effect that spreads quickly to multiple 
centers. Over its five-year life, the AATT project developed and 
demonstrated several active decision support tools that would enable 
improvements in NAS throughput, user flexibility, predictability, and 
overall system efficiency while maintaining safety.
    The Vehicle Systems Program (VSP) is developing and demonstrating 
barrier-breaking vehicle concepts and technologies, beyond the scope of 
conventional air vehicles that protect the Earth's environment and 
enable science missions. In FY 2005, the VSP was transformed into a 
goal-driven technology development program aimed at the maturation of 
technologies to flight. By developing well-defined technological 
metrics and goals, the diverse technology development effort was 
refocused in over seven different vehicle classes. Considering our 
current constrained budget environment, the program will be undergoing 
a second stage of transformation in 2006. Three basic tenets govern 
this transformation: barrier-breaking demonstrations, sharp focus on 
fewer goals, and fully competed awards. The 2004 record-breaking Hyper-
X demonstrations, which I described at the beginning of my testimony, 
illustrated that many barriers remain in the second century of flight. 
The transformed Vehicle Systems investment will be focused on achieving 
these demonstrations through the use of increased competition through 
merit-based research selection. The President's FY 2006 Budget for VSP 
is $459.1 million.
    As part of the transformation of the VSP, we have consolidated our 
research to four specific ``barrier-breaking'' technology demonstration 
projects:

        <bullet>  Subsonic Noise Reduction: Continues the barrier 
        breaking research for reducing airport noise, a demonstration 
        of noise reduction technologies for large transport aircraft 
        will put us halfway to the goal of keeping objectionable noise 
        within airport boundaries. This demonstration will include 
        advanced engine and airframe noise reduction approaches as well 
        as the innovative continuous descent approach to avoid the 
        objectionable changes in engine speed as an aircraft approaches 
        the airport.

        <bullet>  Sonic Boom Reduction: If nothing is done to break the 
        barrier of supersonic flight over land, it will take just as 
        long to fly across the country in the third century of flight 
        as it did halfway through the first century. The barrier to 
        high-speed flight is defining a sonic boom level that is 
        acceptable to the general public, and designing an aircraft to 
        reach that level. Building on our recent successful flight 
        validation of the theory that by altering the contours of a 
        supersonic aircraft, the shockwave and its accompanying sonic 
        boom can be shaped resulting in a greatly reduced sonic boom 
        signature on the ground, we plan to demonstrate an innovative 
        air vehicle that will break the barrier of acceptable 
        supersonic flight.

        <bullet>  Zero Emissions Aircraft: Conventional turbo machinery 
        powered by fossil fuels can only incrementally address the need 
        to reduce harmful NOX and CO<INF>2</INF> emissions from 
        aircraft. A breakthrough demonstration of an all-electric 
        aircraft propulsion system will be the first step towards a 
        truly emission-less aircraft.

        <bullet>  High-Altitude, Long-Endurance, Remotely Operated 
        Aircraft (HALE ROA): NASA opened the door to high altitude 
        flight when it successfully demonstrated the Helios. This 
        legacy will be extended through a series of high-altitude long-
        endurance aircraft that will extend duration, range, and 
        payload capacity. The first breakthrough will be a 14-day 
        duration aircraft that flies at over 50 thousand feet.

NASA Aeronautics Research Centers: Issues & Implications

    Significant NASA organizational and programmatic transformation, 
based upon the recommendations of the President's Commission on the 
Implementation of United States Space Exploration Policy, is essential 
for NASA. As discussed above, the transformation of NASA's Aeronautics 
Research programs encompasses not only the technical content of those 
programs, but also the mechanisms by which those programs will be 
conducted. These changes are having major impacts on the people and 
facilities at NASA's four centers that perform aeronautics research for 
the Agency. NASA is taking proactive steps to manage the impact of 
these changes on our people and facilities. In particular, we are 
actively involved with several ongoing Agency initiatives, including 
the Core Competency Assessment and the Transformation Action Team, to 
ensure that we have identified the workforce skill sets that are 
critical to our future success. We have also established viable 
mechanisms for addressing areas where we anticipate having too many, or 
too few, of these skills. The NASA Organizational Model Assessment 
Team, established in response to a recommendation of the Aldridge 
Commission, identified potential alternate organizational models for 
NASA Centers. The Agency is evaluating the possible implementation of 
alternate organizational models including: Hybrid organizations, 
combining a Government component with an FFRDC, University Affiliated 
Research Center, Institute or Government Corporation.
    Additionally, the Agency is examining a range of actions to address 
our workforce issues. These include: voluntary separations-buyouts; job 
fairs and perhaps directed inter-Center workforce rebalancing; 
acceleration of Center transformation strategies; preparation of 
requests for demonstration personnel authorities; and as a last resort, 
preparation for involuntary measures.
    Regarding our facilities, we are instituting a ``corporate 
approach'' to the management of these key assets, beginning with our 
major wind tunnels. NASA, and its predecessor the National Advisory 
Committee for Aeronautics, has long used a variety of wind tunnels to 
support research, development, and related activities in both its 
aeronautics and space endeavors. External users, particularly DOD and 
the aerospace industry, have also used these facilities to meet their 
own research and development objectives. During the past decade, 
however, the level of demand for most, if not all, of these facilities 
has decreased substantially. The reduction in demand within NASA has 
been the result of a gradual change in programmatic direction toward 
areas such as airspace operations, aircraft safety, and aircraft 
security that by and large do not require significant wind tunnel 
usage. The reduction in demand external to NASA has paralleled the 
decreasing number of new aircraft development projects, both commercial 
and military.
    As a result, NASA has considerably more wind tunnels than the 
Agency's programs require. In an effort to match program requirements 
with supporting infrastructure, NASA has, within the last ten years, 
closed about half of its wind tunnels. Decisions regarding the 
operation, and closure, of specific facilities were made primarily by 
the Research Center that operated each respective facility. Recently, 
however, the nature and pace of change within and external to the 
Agency has made it increasingly difficult for the Centers to manage and 
operate such facilities, particularly those with large fixed costs and 
uncertain levels of utilization.
    Accordingly, on February 4, 2005, ARMD, operating as the 
Headquarters Center Executive responsible for the Dryden Flight 
Research Center, the Glenn Research Center, and the Langley Research 
Center, instituted a new ``corporate management of facilities'' 
approach, effective immediately. Under this approach, a new 
Headquarters office will be responsible for the integrated, strategic 
management of all the major wind tunnels within the Agency. 
Specifically, this office has been tasked with establishing an overall 
strategy for this suite of facilities; for setting cost, pricing, and 
top-level facility access policies; for coordinating overall marketing 
efforts; for approving test assignments; assessing program and facility 
performance; for sponsoring initiatives for improved operational 
effectiveness and efficiency; and--with respect to this set of 
facilities--for serving as the primary integrated interface with 
industry, DOD, and other customers and stakeholders.
    In particular, this new approach will enable us to better address 
many of the challenges facing the management of these facilities, 
including those highlighted by the RAND Corporation in their recently 
concluded examination of NASA's wind tunnel and propulsion test 
facilities, such as the need for an aeronautics test technology vision, 
selective consolidation and modernization of existing facilities, 
common management and accounting practices, and a renewed reliance 
between NASA and the Department of Defense.

Summary

    Thank you, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to testify today to share our 
accomplishments and the actions we are taking for the future of this 
nation in aeronautics research. We are transforming aeronautics at NASA 
to emphasize innovations in addressing barriers through high-risk, 
high-payoff technologies. Our transformed aeronautics program will 
create challenges and opportunities as we pursue the Vision for Space 
Exploration. We are excited about this future, and we are anxious to 
get on with it.

                    Biography for J. Victor Lebacqz
    Dr. Lebacqz is the Associate Administrator for Aeronautics 
Research, one of four Mission Directorates within the National 
Aeronautics and Space Administration (NASA), a position he has held 
since July 2003. In this position, he has overall technical, 
programmatic, and personnel management responsibility for all 
aeronautics technology research and development within the Agency. The 
programmatic activities are funded by a $1.0 Billion/year budget that 
supports three major NASA programs, which are performed at the four 
Aeronautics research centers of Ames, Dryden, Glenn, and Langley. 
Personnel oversight of approximately 6,200 civil servants at the four 
Aeronautics centers is a concomitant responsibility.
    Prior to this appointment, Dr. Lebacqz was the Associate Center 
Director for Aerospace Programs at the NASA Ames Research Center, a 
position he held since June 2002. In this position, he had overall 
management responsibility for the conduct of programs led by Ames for 
the Office of Aerospace Technology within NASA. These programs included 
Airspace Systems; Rotorcraft; Computing, Information, and 
Communications Technology; and Engineering for Complex Systems. They 
had a combined value of approximately $250M per year.
    Between May 2000 and May 2002, Dr. Lebacqz was Deputy Director of 
the Office of Aerospace at the NASA Ames Research Center. The Aerospace 
Directorate's research and technology development efforts include 
advanced aerospace projects, space transportation and thermal 
protection systems, aviation operations systems, nanotechnology, 
acoustics, basic and applied aerodynamics, and rotorcraft. The work is 
performed in seven subordinate Divisions or Offices comprised of 
approximately 280 civil servant employees and 235 contractors, with an 
annual budget on the order of $75M. Dr. Lebacqz independently, or in 
partnership with the Director, was responsible for all personnel and 
financial management activities associated with the Directorate, as 
well as the development and transfer to industry and/or other 
government organizations of advanced air traffic management and flight 
systems technology, and of rotorcraft, low-speed aeromechanics, and 
hypersonic aerothermodynamic technologies.
    Prior to this position, Dr. Lebacqz was Director of the Aviation 
System Capacity Program and the Aerospace Operations Systems Programs, 
for the National Aeronautics and Space Administration (NASA), a 
position he held since December 1997. He was responsible for the 
technical and programmatic conduct of three systems technology projects 
(Advanced Air Transportation Technologies, Terminal Area Productivity, 
and Short Haul Civil Tiltrotor) and one base research and technology 
program (Aerospace Operations Systems) for NASA. These programs have a 
combined value of approximately $725M over five years, and are 
conducted at three of the NASA Centers: Ames Research Center in 
California, Langley Research Center in Virginia, and Glenn Research 
Center in Ohio. They focus on developing technologies to increase the 
capacity and safety of the National Airspace System. In their conduct, 
he was also responsible for strategic alliances with the Federal 
Aviation Administration, and for developing formal relationships with 
the FAA's Technical Center and the DOT's Volpe Transportation Center.
    Previous to that assignment, Dr. Lebacqz was Chief of the Flight 
Management and Human Factors Division at NASA Ames, a position he held 
between December 1996 and December 1997. As Division Chief, he had 
technical and personnel responsibility for 200 civil servant and 
contractor employees, with an annual budget of approximately $35M. He 
was specifically responsible for interdisciplinary Division programs in 
Air Traffic Management, Aeronautical Human Factors, and Aviation Safety 
research. Prior to this appointment, he was Deputy Chief of the same 
Division since 1994, during which time his specific responsibilities 
also included Rotorcraft Systems. Concurrently, he was Program Manager 
of NASA's Rotorcraft Base Research and Technology program from February 
1996 until December 1996, with programmatic responsibilities for the 
entire NASA rotorcraft program at the same three NASA Aeronautics 
Centers.
    Between 1991 and 1994, he was Chief of the Flight Human Factors 
Branch at NASA Ames. In this position, he was responsible for the 
development of human factors programs in crew resource management, 
fatigue countermeasures, and air-ground integration. Between 1985 and 
1991 he was Chief of the Flight Dynamics and Controls Branch at Ames, 
where he was responsible for programs in rotorcraft and VSTOL 
stability, control, and handling qualities, and developed helicopter 
flight research activities cooperative with the U.S. Army, including 
the new RASCAL UH-60 helicopter. Concurrently, he was a lecturer at 
Stanford University between 1982 and 1992, teaching the graduate course 
``Dynamics and Control of Rotary-Wing Aircraft.'' From 1978 to 1985 he 
conducted flight and simulation research at Ames, and, prior to that, 
he was with the Calspan Corporation in Buffalo, NY, where he was Head, 
Flight Control Section.
    His BSE (cum laude), MA, and Ph.D. degrees in Aeronautical 
Engineering are all from Princeton University. He is the author or co-
author of over 50 technical reports, articles, or papers, was a member 
of the American Helicopter Society (AHS), and is a Fellow of the 
American Institute of Aeronautics and Astronautics (AIAA). For the AHS, 
he has been Technical Director for the San Francisco Bay Region (1982-
1983), as well as Technical Chairman for an International Conference on 
Flying Qualities and Human Factors in 1993. For the AIAA, he has been 
an Associate Editor for the Journal of Guidance, Control, and Dynamics 
(1982-1987), a member of the Technical Committee for Guidance and 
Control (1988-1991), and the Deputy Director, Aircraft Operations, for 
the Aircraft Technology Integration and Operations Technical Group. He 
was the Technical Chairperson for the first AIAA Aircraft Technology 
Integration and Operations Forum in November 2001.
    Dr. Lebacqz has received two individual NASA Special Achievement 
Awards, five NASA Group Achievement Awards, six NASA ``Turning Goals 
Into Reality'' (TGIR) awards, two NASA Ames Honor Awards (for 
excellence in supervision and for mentoring), the U.S. Army 
Aeroflightdynamics Directorate Director's Award for Interagency 
Cooperation, the NASA Exceptional Service Medal, and has twice been 
awarded NASA's Outstanding Leadership Medal. He was named a 
Presidential Rank Award Meritorious Executive in 2003. He is listed in 
the Lexington Who's Who Registry 2000-2001.

    Chairman Calvert. I thank the gentleman. Next, Dr. 
Klineberg, you are recognized for five minutes.

    STATEMENT OF DR. JOHN M. KLINEBERG, COMMITTEE CHAIRMAN, 
                   NATIONAL RESEARCH COUNCIL

    Dr. Klineberg. Thank you, Mr. Chairman, and Members of the 
Committee. Thank you for the opportunity to testify before you 
today.
    I have some prepared--get there on the screen. I am 
appearing today as the Chair of the Aeronautics and Space 
Engineering Board's Committee to Review the NASA Aeronautics 
Program. I have submitted a written report that covers that 
in--completely. I am going to try to hit some highlights here, 
and I will be as brief as I can.
    Chairman Calvert. Your full testimony will be entered into 
the record.
    Mr. Klineberg. Thank you very much.
    Particularly, the process I want to emphasize, we had a 
large number of very senior, very experienced people in the 
industry who reviewed, at length, the NASA aeronautics program 
during 2003, and the names of my fellow panel members are in 
the written submittal.
    I would just highlight several of the recommendations we 
came up with. This first one is something that I am sure this 
committee could--will endorse. It says that air transportation 
is vital to this country. But behind this statement is--was a 
consternation my committee found that NASA, the people in the 
NASA aeronautics program did not seem to have a good handle on 
why they were doing the work they were doing, and Mr. Kucinich 
touched on this earlier, the problem is the vision, the NASA 
Vision Statement says that their mission is to understand and 
protect the home planet, and that is the aegis, the vision 
under which aeronautics is contained in the NASA thinking, and 
frankly, that is completely wrong. That is not the vision for 
aeronautics. It is an issue of competitiveness, and the 
vitality of the air transportation system, and this has to be 
understood in NASA. And I will touch on that a little more 
later, if I may.
    Another one, we said, we looked around, and we said NASA is 
the agency that must provide that leadership, and particularly, 
in research and development, and I don't think you will find 
arguments here, but we needed--we felt we needed to re-
emphasize that, because that leadership role is not always 
exercised, and it needs to be exercised in having a strategic 
plan and a strategic vision that the rest of the players can 
unite behind.
    We found NASA remarkably healthy, considering the 
tremendous pressures that they have been under, in budget 
pressures. And their facilities are world class national 
facilities. There are some very, very good people out there, 
that are working at it. They need a little focus in those focus 
programs, a little more focus, but we found the program still 
is salvageable.
    They have absorbed, on this chart, they have absorbed a lot 
of cuts by decreasing the number of people they have in given 
areas. That is a natural tendency, but we felt that unless they 
can build up the budget, it is time, now, to look at dropping 
research in certain areas, because you simply don't have the 
people that can support that activity. At the same time that 
they need to focus their systems activities, we saw a real 
problem in that they backed away from long-term basic research, 
and NASA and NACA before it has traditionally been the home of 
a competence in aeronautics that we are worried has 
disappeared, as they have no line item and nowhere, place, to 
support basic research, unless it is focused on a given system, 
and that is not really what aeronautics is about. And that is 
my--that was recommendation 7.
    This recommendation 8, we recognize that much of NASA 
facilities did grow up at a time when there was a very large 
industrial base in this country. That has consolidated, and 
NASA has to continue to look at consolidating facilities, but 
they need to do this carefully, and only close down those 
facilities that are truly not needed or redundant in some way.
    And the last one I wanted to touch on this morning, is we 
felt there could be better, NASA could do a little bit better 
in dealing with their customers, the other agencies, the FAA, 
DOD, and others. And the second bullet down here is code a 
little bit, and I will touch on that in a second, we felt that 
we needed some way to involve the NASA Administrator in the 
aeronautics enterprise, and one way might be to have him 
recognize that aeronautics is, indeed, a very important, 
separate function of NASA, and needs to be supported that way.
    And essentially, in this way of co-chairing a meeting with 
the FAA Administrator is a way to enforce that kind of feeling. 
Now, if you will permit me just half a second, I would like to 
address the four specific questions I was asked verbally. I 
have no charts on that. And I will be as quickly as I can, Mr. 
Chairman.
    The first question, now, I need to inform you that I have 
to take off my hat as the representative of the National 
Academies, and I am now speaking to you as a private citizen, a 
concerned private citizen, but one with over 45 years 
experience in this field. So, I hope what I say will be useful.
    The first question was what are the main challenges facing 
us over the next two decades, and what are the Nation's most 
pressing strategic needs? I know my colleagues will address 
this in detail, so I am not going to go into that now, but in 
my mind, we are very close to letting the aeronautics 
infrastructure become a chokepoint for economic growth in this 
country. And not only exports of aeronautical systems and 
equipment and subsystems that we have talked about earlier, but 
the air traffic system itself in this country is becoming 
saturated. We had some relief after 9/11, when the growth in 
air traffic slowed temporarily. It is starting to pick up 
again, and we are going to get into a point very soon when you 
just can't--it will be unreliable. You won't be able to travel 
from point A to point B, and for those of us who live in 
California and use the Internet, for example, for commerce, and 
expect packages to appear at our door, that is going to be--
that will just be a disaster, and this country has got to 
support that infrastructure, and we have to start to plan for 
the next generation of air traffic control systems, and the 
vehicles and systems that will fly in that. And I want to note 
here that the National Academies and the ASAB hopes to conduct 
a study that will help a bit in this area, by developing what 
we call a decadal strategy for aeronautics research, that will 
help identify the major issues and what is being done to 
address them.
    The next question was what is NASA's role, and how 
effective are NASA's programs. I think I have touched on that, 
because that is what our study did. The mechanisms for NASA 
aeronautics have been in place since 1917. They grew a lot 
during the Second World War, and they are very effective. And I 
think that funding R&D is an effective way for the government 
to support this field, and it is much better than government 
subsidies, and as I say, we found a good program in place, in 
spite of the debilitating budget cuts that have been proposed.
    The third question I was asked is what effect will the 
proposed budget have on NASA's ability to carry out this 
program. I think the budget is a disaster, unmitigated. And if 
you look at the aero budget, it has declined by more than half 
over the last several years. The five-year runout contemplates 
an additional 20 percent reduction in the budget. I think this 
program is on its way to becoming irrelevant to the future of 
aeronautics in this country, and perhaps--and in the world.
    And what do I think NASA should do? I thought a lot about 
this. Representative Davis touched on this in her opening 
statements. I think somehow, I think NASA aeronautics belongs 
in NASA. NASA is an R&D agency, it is kind of special in the 
government. I don't believe we need a new organization that 
would involve the operational agencies like the FAA or DOD, but 
I think NASA itself has to pay attention to aeronautics, and 
one thought I have had is that NASA needs two Deputy 
Administrators, one for aeronautics and for space, both of 
which would have advise and consent screening, and you would 
have an Administrator, a Deputy Administrator for NASA 
aeronautics, and I think--I approve of the notion of not 
allowing transfer across the budget line items. NASA 
aeronautics has a very different constituency----
    Chairman Calvert. Doctor, if you will summarize.
    Dr. Klineberg. I am--the last second, sir.
    The--NASA has a different constituency in aeronautics than 
space. It is very hard to trade the two off, and it shouldn't 
be--we should fix that somehow. So, that concludes my 
testimony, Mr. Chairman. I am sorry I ran a little bit long, 
but I appreciate your attention.
    [The prepared statement of Dr. Klineberg follows:]
                Prepared Statement of John M. Klineberg

An Assessment of NASA's Aeronautics Technology Program

    Mr. Chairman, Mr. Udall, and Members of the Committee, thank you 
for the opportunity to testify before you today. My name is John 
Klineberg. I have recently retired from my position as the President of 
Space Systems/Loral and served for over 25 years in a variety of 
management and technical positions with NASA. I appear before you today 
in my capacity as Chair of the National Research Council's committee 
assessing NASA's aeronautics technology programs. The Research Council 
is the operating arm of the National Academy of Sciences, National 
Academy of Engineering, and the Institute of Medicine of the National 
Academies, chartered by Congress in 1863 to advise the government on 
matters of science and technology.
    In late 2002, the National Research Council was asked by NASA and 
the Office of Management and Budget to examine the technical quality of 
its aeronautics research and development. The National Research Council 
formed our committee under the auspices of the Aeronautics and Space 
Engineering Board to respond to this request. Our committee's report 
was released in November of 2003.
    I am aware that NASA's program has been changing since our report 
was issued and that it will continue to change. However, the following 
material summarizes the findings and recommendations of our report as 
it was issued in November 2003.

OVERVIEW

    The National Research Council (NRC) of the National Academies 
performed this detailed, independent assessment of NASA's Aeronautics 
Technology Programs by establishing three panels, one for each of the 
component programs within the Aeronautics Technology Programs. The NRC 
also established a parent committee, consisting of the Chairman and a 
subset of members from each panel. The committee and panels began their 
activities in early 2003.
    The three subordinate panels conducted an independent peer 
assessment of the Vehicle Systems Program (VSP), the Airspace Systems 
Program (ASP), and the Aviation Safety Program (AvSP), the three 
elements of NASA's Aeronautics Technology Programs. The committee and 
panels were asked by NASA to address four questions:

        1.  Is the array of activities about right?

        2.  Is there a good plan to carry out the program?

        3.  Is the program doing what it set out to do?

        4.  Is the entire effort connected to the users?

    The committee developed findings and recommendations at three 
different levels. At the top level, it created a list of 12 key 
crosscutting recommendations for the overall Aeronautics Technology 
Programs on issues that span the entire set of programs. These 
recommendations are appropriate for guiding Congress, NASA 
Headquarters, and the White House in prioritizing NASA's aeronautics 
research and development programs. At the second level of detail, the 
committee provided program-level recommendations appropriate for 
program and project managers at the NASA Research Centers. Finally, the 
committee developed findings and recommendations at the task level that 
are designed to assist the individual principal investigators in 
improving the quality of their research. These third-level 
recommendations are numerous and detailed and are not included in this 
document.

OVERALL ASSESSSMENT

    The committee's simple answer to the four questions posed by NASA 
is that, in general, the Aeronautics Technology programs are very good 
but could be greatly improved by following the committee's 12 top-level 
recommendations. The array of research activities is about right, 
although a few additions and deletions are recommended in various 
areas. There are good plans to carry out the programs and they are 
accomplishing much of what they were established to do, but with some 
changes in the plans for execution results could improve results 
significantly. In addition, the programs are reasonably well connected 
to the users, but here again the committee recommends some 
improvements. These issues--scope, planning, achievement, and ties to 
users--are addressed more completely in the specific recommendations 
themselves:

Top-Level Recommendation 1. The government should continue to support 
air transportation, which is vital to the U.S. economy and the well-
being of its citizens.

    A strong national program of aeronautics research and technology 
contributes to the vitality of the U.S. aeronautics industry, the 
efficiency of the U.S. air transportation system, and the economic 
well-being and quality of life of people in the United States. The 
government has an important role in assuring the best possible air 
transportation system and the development of related technologies that 
enable products and services to compete effectively in the global 
marketplace. This is consistent with the legislative charter for NASA, 
the National Aeronautics and Space Act of 1958, as amended. The Act 
specifies that NASA's aeronautics research and technology development 
should ``contribute to a national technology base that will enhance 
United States preeminence in civil and aeronautical aviation and 
improve the safety and efficiency of the United States air 
transportation system.''

Top-Level Recommendation 2. NASA should provide world leadership in 
aeronautics research and development.

    To provide leadership, NASA should develop consistent strategic and 
long-range plans to focus the aeronautics program in areas of national 
importance. NASA should have well-formulated, measurable, attainable 
goals at all program levels. To be meaningful, goals should be based on 
a sound evaluation of future needs, technological feasibility, and 
relevant economic and other non-technical factors.

Top-Level Recommendation 3. NASA has many excellent technical personnel 
and facilities to achieve its aeronautics technology objectives but 
should improve its processes for program management.

    Many NASA facilities are world class national assets. In addition, 
the committee was impressed with the technical expertise of many 
program personnel. To maximize these assets, NASA needs to improve its 
program management and systems integration processes, including 
integration across programs. In particular, NASA should assure clear 
lines of responsibility and accountability. The use of matrix and line 
management reporting structures sometimes obscures lines of 
accountability, and subproject and task-level plans, funding, goals, 
metrics, staffing, and responsibility are often difficult to define or 
cannot be clearly traced back to a plan or vision for the program as a 
whole. Further, NASA should use independent quality assurance processes 
for program evaluation, and all projects should be evaluated on a 
regular basis to determine whether continued investment is warranted.

Top-Level Recommendation 4. NASA should eliminate arbitrary time 
constraints on program completion and schedule key milestones based on 
task complexity and technology maturity.

    Research priorities, funding, and organizational structure change 
during the course of any research and development effort. However, NASA 
should resist constant changes and realignments designed to meet 
artificial five-year sunset requirements. Several long-term research 
efforts have been disguised as a series of five-year projects with 
different names so that it is not easy to trace the real progress of 
the research. In addition, the continuous reorganization and 
restructuring that occur in response to the five-year sunset rule 
create an unstable atmosphere that does not permit NASA researchers to 
pursue the best path to technology maturation. NASA programs need clear 
exit criteria at the task level that specify when research is complete 
or ready for transition to industry or other agencies.

Top-Level Recommendation 5. NASA should reduce the number of tasks in 
its aeronautics technology portfolio.

    NASA is trying to do too much within the available budget and 
resists eliminating programs in the face of budget reductions. Often, 
there are too many tasks to achieve research objectives in key areas. 
This overload may be partly the result of including various research 
tasks within more focused efforts. The committee is concerned that 
breadth of activities is coming at the expense of depth.

Top-Level Recommendation 6. NASA should pursue more high-risk, high-
payoff technologies.

    Many innovative concepts that are critical to meeting aviation 
needs in the next decades will not be pursued by industry or the 
Federal Aviation Administration (FAA). NASA should fill this void. The 
committee applauds the inclusion of high-risk, revolutionary sub-
projects in many areas and believes the program portfolio could benefit 
from additional far-reaching efforts with the potential for high 
payoff. This type of research is critical to investigating the 
feasibility of innovative concepts and reducing risk to the point where 
the concepts are suitable for advanced development and transfer to 
industry or the FAA.

Top-Level Recommendation 7. NASA should reconstitute a long-term base 
research program, separate from the other aeronautics technology 
programs and projects.

    The current research is mostly product-driven, with not enough 
fundamental work. Fundamental research is crucial for the development 
of future products. NASA needs to provide researchers the opportunity 
to conduct forward-looking, basic research that is unencumbered by 
short-term, highly specified goals and milestones. Historically, NASA 
has been a world leader in its core research areas; however, that base 
has eroded in recent years as the amount of in-house basic research 
diminishes. NASA needs to reassess its core competencies and assure 
their support through a base research program.

Top-Level Recommendation 8. NASA's aeronautics technology 
infrastructure exceeds its current needs, and the Agency should 
continue to dispose of under-utilized assets and facilities.

    NASA test facilities create large fixed costs. Some of these 
facilities are not unique, and long-term fixed costs could be reduced 
through consolidation and deactivation. This should be an ongoing 
effort as the needs of the industry change and as validated 
computational tools reduce or eliminate the need for some experimental 
facilities.

Top-Level Recommendation 9. NASA should implement full-cost accounting 
in a way that avoids unintended consequences harmful to the long-term 
health of the aeronautics program.

    NASA is in the process of transitioning from a net accounting 
system to one that uses full-cost accounting. Under the former scheme, 
researchers managed only costs directly related to research and 
development. In full-cost accounting, all project costs are included in 
the project budget, including institutional infrastructure costs such 
as: research operations support; direct procurement; direct civil 
service workforce, benefits, and travel; service pools; center general 
and administrative; and corporate general and administrative. The 
committee is concerned that, if not carefully managed, full-cost 
accounting could result in (1) the closure of critical infrastructure 
and special-purpose facilities that will be needed for future program 
execution and (2) a disincentive to use large-scale facilities and 
flight tests to fully demonstrate technology readiness. This can easily 
occur if the responsibility for preserving institutional capabilities 
is delegated to lower level project managers. These project managers 
will also tend to avoid full-scale flight tests or wind tunnel tests in 
order to conserve their project budgets, since under full-cost 
accounting much of the cost of the testing infrastructure will be 
billed directly to their projects if they perform such tests. The 
testing infrastructure will be underutilized and will not generate the 
resources needed to sustain it. The committee recommends that basic 
research costs should be carried as a line item and not hidden in 
larger projects and. that large infrastructure costs, such as wind 
tunnels and full-scale flight testing, should be attributed to the 
total program and accounted for accordingly.

Top-Level Recommendation 10. NASA should develop a common understanding 
with the FAA of their respective roles and relationship.

    NASA's airspace research ultimately benefits manly government, 
industry and private organizations with an interest in aviation, 
including the Department of Defense (DOD), airlines, manufacturers, 
system operators (air traffic controllers, managers, flight dispatchers 
and pilots), and the flying public. Practically speaking, however, the 
most important customers are the senior managers at the FAA, at other 
government agencies, and in industry who decide whether they will take 
applied research products from NASA and continue their development to 
the point of incorporating them in operational systems. Although much 
of NASA's airspace research is applicable to systems acquired and 
operated by DOD, other government agencies, and industry, most of it is 
intended for application to civil aviation systems acquired, operated 
and/or certified by the FAA. In this sense, customers also include the 
many other organizations and officials who influence decisions by the 
government and industry regarding the advanced development of new 
systems for civil application.
    NASA and the FAA often collaborate at the technical level but there 
is a real need for more effective management coordination. The need for 
continued improvement in NASA interactions with its customers is 
indicated, in part, by the committee's observation that NASA officials 
seem to perceive interactions with the FAA as more effective than do 
many FAA managers. NASA officials need to recognize that implementation 
decisions rest with FAA management (for systems to be implemented by 
the FAA) and advocacy by NASA, when it runs counter to FAA 
implementation plans, is not helpful. Problems in this area are 
exacerbated by (1) the view of many NASA personnel that the success of 
their research is measured only in terms of the extent to which 
customers incorporate NASA research in operational systems, and (2) 
competition that may arise between NASA and other organizations that 
conduct research on behalf of the FAA or other key customers. As as 
particular NASA research effort approaches the point where the value of 
continued development is contingent on operational implementation, the 
prospective user may decide that implementation is not feasible., NASA 
should be willing to close out the project that has no future and use 
the resources to support other research.

Top-Level Recommendation 11. NASA should seek better feedback from 
senior management in industry and other government organizations.

    NASA's customers include aircraft manufacturers, operators, 
airlines and the FAA. NASA already involves customers in almost all of 
its research--for example, in the form of joint efforts with the FAA to 
take research products into the field for testing. Some projects, such 
as Small Aircraft Transportation Systems (SATS), also sponsor wide-
ranging outreach efforts. Usually, however, customer involvement 
earlier in the process would be beneficial. Early involvement would (1) 
ensure that researchers understand and are able to respond to user 
requirements and concerns as early as possible, and (2) probably 
increase customer buy-in. Customers need not and should not be given 
veto authority over NASA research, but researchers should be aware of--
and research plans should account for--objections or concerns that 
customers raise. This is especially important for research intended to 
provide operationally useful products capable of meeting specific 
functional requirements, but early consultations with user would also 
be beneficial in a base research program. NASA should improve its 
relationships with the FAA and other customers by involving them from 
the early stages of the research and development process through field 
implementation. One method for improving interaction would be for NASA 
to convene a yearly meeting, co-chaired by the FAA and NASA 
Administrators, with participation by industry executives at the chief 
operating officer level and senior managers from other federal agencies 
(e.g., Department of Transportation, Department of Homeland Security, 
and DOD). Topics should be limited to near-term issues and 
implementation plans, and such a meeting should not be held unless the 
NASA and FAA Administrators and industry chief operating officers will 
commit to personally attending.

Top-Level Recommendation 12. NASA should conduct research in selective 
areas relevant to rotorcraft.

    Rotorcraft are an important constituent of air transportation. Many 
of the research projects currently under way in the Aeronautics 
Technology Programs, such as synthetic vision and human factors, would 
be directly relevant to rotorcraft, with only minimal additional 
investment. NASA could make a significant impact in under-researched 
areas of rotorcraft such as decision aids, synthetic vision, pilot 
workload, and situational awareness. Further, the existing U.S. Army 
programs in rotorcraft technologies and industry research and 
development in rotorcraft could be leveraged by NASA to meet civilian 
needs in the area. The committee believes that research in civil 
applications of rotorcraft will not be conducted elsewhere in 
government or industry and that NASA's decision to discontinue 
rotorcraft research has left critical civilian needs unaddressed. 
Therefore, NASA should consider potential applications to rotorcraft in 
its research programs in general aviation and transport aircraft.

SUMMARY

    The first two top-level recommendations reiterate the importance of 
air transportation and of NASA's role in the research and development 
process. Top-level recommendations 3-7 suggest ways the content and/or 
structure of the programs could be improved, and 8 and 9 identify near-
term important concerns that should be addressed. The final three top-
level recommendations address the relationships between NASA and its 
customers. The committee believes that NASA can improve and strengthen 
its Aeronautics Technology Programs by following this advice.

SPECIFIC ASSESSMENT OF THE VEHICLE SYSTEMS PROGRAM

    The Vehicle Systems Program contains seven projects:

        <bullet>  Breakthrough Vehicle Technologies. Develops high-
        risk, high-payoff technologies to dramatically and 
        substantially improve vehicle efficiency and emissions.

        <bullet>  Quiet Aircraft Technology. Discovers, develops, and 
        verifies, in the laboratory, technologies that improve quality 
        of life by reducing society's exposure to aircraft noise.

        <bullet>  Twenty-First Century Aircraft Technology Project. 
        Develops and validates, through ground-based experiments, the 
        aerodynamic, structural, and electric power technologies that 
        will reduce by 20 percent the fuel burn and carbon dioxide 
        emissions from future subsonic transport aircraft.

        <bullet>  Advanced Vehicle Concepts. Develops advanced vehicle 
        concepts and configurations to reduce travel time, expand 
        commerce, and open new markets.

        <bullet>  Flight Research. Tests and validates technologies and 
        tools developed by NASA in a realistic flight environment.

        <bullet>  Ultra-Efficient Engine Technology. Identifies, 
        develops, and validates high-payoff turbine engine technologies 
        that would reduce emissions.

        <bullet>  Propulsion and Power. Researches revolutionary 
        turbine engine technologies, propulsion concepts, and 
        fundamental propulsion and power technologies that would 
        decrease emissions and increase mobility.

    The committee noted that VSP has a clear mission statement with a 
set of fully linked goals and products, but it believes that NASA needs 
a better understanding of the core competencies required to meet these 
goals. The committee also believes that the current investment strategy 
of VSP appears to be ad hoc, with too many unprioritized projects and 
tasks and no apparent methodology to determine which areas will provide 
the greatest benefit. The committee recommends that NASA identify and 
prioritize technologies with respect to their potential benefit to 
aviation.
    The committee was concerned that the recent transition to full-cost 
accounting will have an unintended effect on certain facilities and 
infrastructure that are national assets and will compromise the 
research program by reducing the number of full-scale tests for concept 
validation.
    The committee was concerned that NASA does not always get the 
benefit of industry involvement at the appropriate management level and 
suggests that NASA re-examine the composition of its advisory groups.
    The committee evaluated a total of 172 tasks in the VSP portfolio. 
The committee determined that more than 80 percent were of good quality 
or better, with 30 percent (51 tasks) rated as world-class. The 
committee identified 91 tasks that were good quality, 6 that were 
marginal, and 24 that were poor and should be redirected.

SPECIFIC ASSESSMENT OF THE AIRSPACE SYSTEMS PROGRAM

    The ASP is organized into four projects:

        <bullet>  Advanced Air Transportation Technologies. Develops 
        air traffic management tools to improve the capacity of 
        transport aircraft operations at and between major airports.

        <bullet>  Virtual Airspace Modeling and Simulation. Develops 
        models and simulations to conduct trade-off analyses of 
        concepts and technologies for future air transportation 
        systems.

        <bullet>  Small Air Transportation Systems. Develops and 
        demonstrates technologies to improve public mobility through 
        increased use of local and regional airports.

        <bullet>  Airspace Operations Systems. Develops better 
        understanding, models, and tools to enhance the efficient and 
        safe operation of aviation systems by human operators.

    The committee was concerned that NASA's ASP research was generally 
too focused on short-term, incremental payoff work. NASA should plan 
ASP research based on a top-down understanding of the air 
transportation system. Research should focus on areas of greatest 
payoff--that is, areas that relieve choke points and other constraints 
to a more efficient air transportation system.
    The committee noted that many existing airspace research tasks will 
not be completed before the expiration of the projects under which they 
are currently funded. NASA is establishing a new project, NASA 
Exploratory Technologies for the National Airspace System (NAS)--
NExTNAS--to continue some ongoing research tasks and start some new 
tasks. The committee recommends that NASA incorporate many ongoing 
tasks in the NExTNAS project so they can be completed.
    The committee determined that the ASP also should support basic 
research relevant to long-term objectives and other research with a 
far-sighted vision. More specifically, the committee observed that the 
portfolio was primarily directed at improving ground-based air traffic 
management. The committee recommends that NASA continue distributed 
air-ground research for autonomous separation, with increased effort on 
the airborne side.
    The committee developed a series of findings and recommendations 
regarding the FAA-NASA relationship. First, the committee noted that 
two different tools, Research Management Plans and Research Transition 
Plans, were being used to facilitate the transition of technology from 
NASA to the FAA.\1\ The committee believes that there are worthwhile 
elements in the Research Transition Plans that could be included in 
Research Management Plans. In addition, NASA and FAA program directors 
should vigorously adhere to the Research Management Plan process, with 
reviews and updates at regular intervals. If either agency determines 
that the research results will not be implemented, the Research 
Management Plan should be canceled and NASA should formally reassess 
the merits of continuing to develop a product that will not improve the 
operation of the NAS.
---------------------------------------------------------------------------
    \1\ The FAA's Free Flight Phase II Office uses Research Transition 
Plans, which are similar to the Research Management Plans used by other 
FAA offices.
---------------------------------------------------------------------------
    The committee also had recommendations about how NASA should 
measure the success of its research. Currently, it tends to view 
success in terms of the ability to mature technology and get the FAA to 
implement it for operational use. Some FAA users, however, believe this 
view of success leads NASA to focus too much on implementation issues, 
which NASA may not be qualified to address given its limited 
operational experience. The committee recommends that NASA and the FAA 
develop a common definition of what constitutes the successful 
completion of an applied ASP research task. Success of NASA applied 
research tasks should not be defined solely in terms of implementation.

SPECIFIC ASSESSMENT OF THE AVIATION SAFETY PROGRAM

    The AvSP consists of three projects:

        <bullet>  Vehicle Safety Technology. Strengthens aircraft to 
        mitigate vehicle system and component failures, loss of 
        control, loss of situational awareness, and post-crash or in-
        flight fires.

        <bullet>  Weather Safety Technology. Researches and develops 
        technologies to reduce the frequency and severity of weather-
        related accidents and injuries.

        <bullet>  System Safety Technology. Reduces the frequency and 
        severity of aviation accidents and incidents by proactively 
        managing risk in a systemwide approach.

    The committee found several examples of work of outstanding quality 
in AvSP, notably the Aircraft Icing subproject (Weather Safety), the 
Crew Training task (System Safety), the Structures Health Management 
subtask (Vehicle Safety), the Mode Confusion subtask (Vehicle Safety), 
and scale-model development and testing work (Vehicle Safety).
    The committee was concerned about recent changes it observed in the 
quality of the human factors research in AvSP, partly because the 
number of in-house human factors personnel was decreasing and those who 
remained were primarily managing the work of contractors. In addition, 
the committee noted that human factors work did not appear to be well-
integrated across the program. The committee recommends that AvSP 
strengthen in-house human factors research with federal employees who 
have outstanding human factors expertise. In addition, NASA should 
consider human factors requirements early in the design phase of all 
aeronautics technology research projects.
    The committee believes AvSP health would be improved if five-year 
lifetimes were not imposed on every project. Instead, a project should 
endure for the natural lifetime of the research activity, which would 
allow basic research efforts to extend beyond five years. In addition, 
the committee found the AvSP research portfolio to be too product-
oriented and recommended that it include more basic research.
    The committee also found that NASA's existing management structure 
obscures the lines of responsibility and accountability within the 
program, to the point that it is difficult to trace project, 
subproject, and task goals to the vision and goals of the program as a 
whole. The committee recommends that AvSP develop a hierarchy of goals 
and improve its management processes to create clearer accountability.
    The committee believes that several products under development in 
AvSP duplicate similar products being developed in industry. The 
committee recommends that AvSP improve its user connections and 
benchmark its products against similar work performed elsewhere. NASA 
should not be working in a specific technical area unless it is leading 
the field. An outside advisory committee structure of some sort could 
assist AvSP in determining which technical areas it should address.
    Finally, the committee noted a large gap in the program portfolio 
in the area of rotorcraft. NASA could significantly contribute to 
improving rotorcraft safety without substantial additional investment, 
particularly in the areas of decision aids, synthetic vision, pilot 
training, workload reduction, and situational awareness.
    Thank you for the opportunity to testify. I would be happy to take 
any questions the Committee might have.

                   COMMITTEE FOR THE REVIEW OF NASA'S

                     AERONAUTICS TECHNOLOGY PROGRAM

JOHN KLINEBERG, Chair, Space Systems/Loral (retired), Redwood City, 
        California
RICHARD ABBOTT, Lockheed Martin, Palmdale, California
WALTER COLEMAN, Regional Airline Association (retired), McLean, 
        Virginia
ROBERT HILB, United Parcel Service, Louisville, Kentucky
S. MICHAEL HUDSON, Rolls-Royce North America (retired), Indianapolis
RAYMOND LaFREY, MIT Lincoln Laboratory, Lexington, Massachusetts
LOURDES MAURICE, Federal Aviation Administration, Washington, D.C.
THEODORE OKIISHI, Iowa State University, Ames
TOD PALM, Northrop Grumman, El Segundo, California
EDUARDO SALAS, University of Central Florida, Orlando
THOMAS SHERIDAN (NAE), Massachusetts Institute of Technology 
        (emeritus), Cambridge
EDMOND SOLIDAY, United Airlines (retired), Valparaiso, Indiana
ALFRED STRIZ, University of Oklahoma, Norman (from 01/03/2003 to 09/09/
        2003)
FRANK TUNG, Volpe National Transportation Systems Center (retired), 
        Boston
THOMAS WILLIAMS, Northrop Grumman, Bethpage, New York
DEBRA WINCHESTER, Raytheon, Marlborough, Massachusetts

PANEL ON THE VEHICLE SYSTEMS PROGRAM (VSP)

THOMAS WILLIAMS, Panel Chair, Northrop Grumman, Bethpage, New York
MARK BALAS, University of Colorado, Boulder
ROBERT GOETZ, Lockheed Martin (retired), Friendswood, Texas
S. MICHAEL HUDSON, Rolls-Royce North America (retired), Indianapolis
STEVEN IDEN, Lockheed Martin, Fort Worth, Texas
SHEILA KIA, General Motors, Warren, Michigan
GARY KOOPMANN, Pennsylvania State University, University Park
HARRY LIPSITT, Wright State University (emeritus), Yellow Springs, Ohio
LOURDES MAURICE, Federal Aviation Administration, Washington, D.C.
DUANE McRUER (NAE), Systems Technology, Inc., Manhattan Beach, 
        California
THEODORE OKIISHI, Iowa State University, Ames
TOD PALM, Northrop Grumman, El Segundo, California
ALFRED STRIZ, University of Oklahoma, Norman (from 01/01/2003 to 09/09/
        2003)
MAHLON WILSON, Los Alamos National Laboratory, Los Alamos, New Mexico
J. MITCHELL WOLFF, Wright State University, Dayton
MICHAEL ZYDA, Naval Postgraduate School, Monterey, California

PANEL ON THE AIRSPACE SYSTEMS PROGRAM (ASP)

FRANK TUNG, Panel Chair, Volpe National Transportation Systems Center 
        (retired), Boston
CHARLES AALFS, Federal Aviation Administration (retired), Menifee, 
        California
YAAKOV BAR-SHALOM, University of Connecticut, Storrs
BARRY BERSON, Lockheed Martin, Palmdale, California
WALTER COLEMAN, Regional Airline Association (retired), McLean, 
        Virginia
WILLIAM DUNLAY, Leigh Fisher Associates, Tiburon, California
ANGELA GITTENS, Miami-Dade International Airport, Miami, Florida
ROBERT HILB, United Parcel Service, Louisville, Kentucky
R. BOWEN LOFTIN, Old Dominion University, Suffolk, Virginia
J. DAVID POWELL, Stanford University (emeritus), Stanford, California
EDUARDO SALAS, University of Central Florida, Orlando
DEBRA WINCHESTER, Raytheon, Marlborough, Massachusetts

PANEL ON THE AVIATION SAFETY PROGRAM (AvSP)

THOMAS SHERIDAN (NAE), Panel Chair, Massachusetts Institute of 
        Technology (emeritus), Cambridge
RICHARD ABBOTT, Lockheed Martin, Palmdale, California
JAMES DANAHER, National Transportation Safety Board (retired), 
        Alexandria, Virginia
VALERIE GAWRON, Veridian Engineering, Buffalo
RONALD HESS, University of California, Davis
ADIB KANAFANI (NAE), University of California, Berkeley
DAVID KOHLMAN, Engineering Systems, Inc., Colorado Springs
RAYMOND LaFREY, MIT Lincoln Laboratory, Lexington, Massachusetts
JOHN McCARTHY, Naval Research Laboratory (retired), Palm Desert, 
        California
EDMOND SOLIDAY, United Airlines (retired), Valparaiso, Indiana

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for John M. Klineberg

    Dr. Klineberg recently retired as President of Space Systems/Loral, 
a major provider of commercial communications satellite systems and 
services, and Vice President of Loral Space & Communications, of which 
SS/L is a wholly owned subsidiary. He continues his association with 
the company as a member of SS/L's Board of Directors. Before becoming 
the President of SS/L in 1999, Dr. Klineberg was Executive Vice 
President for Globalstar programs, where he led the successful 
development, production and deployment in orbit of the Globalstar 
satellite constellation for providing a new generation of telephone 
services. Before joining Loral in 1995, Dr. Klineberg spent 25 years 
with the National Aeronautics and Space Administration (NASA) in a 
variety of management and technical positions. He was the Director of 
the Goddard Space Flight Center; Director of the Lewis (now Glenn) 
Research Center; Deputy Director of the Lewis Research Center; Deputy 
Associate Administrator for Aeronautics and Space Technology at NASA 
Headquarters, and a research scientist at the Ames Research Center. 
Before beginning his career at NASA, he conducted fundamental studies 
in fluid dynamics at the California Institute of Technology and worked 
at the Douglas Aircraft Company and the Grumman Aircraft Company. Dr. 
Klineberg has received many awards for his outstanding service to NASA 
and his significant contributions to the fields of aeronautics and 
space systems, including: the NASA Distinguished Service Medal; the 
NASA Outstanding Leadership Medal; the NASA Goddard Award of Merit; the 
U.S. Government's ranks of Distinguished Executive and Meritorious 
Executive; the AIAA Barry M. Goldwater Education Award; and the 
Engineer of the Year Award from the University of Maryland. Among his 
other activities, he is a member of the Board of Directors of The 
Charles Stark Draper Laboratory Inc, Cambridge, MA; a member of the 
Board of Directors of Swales Aerospace, Beltsville, MD; a member of the 
National Research Council's Aeronautics and Space Engineering Board; an 
honorary Board member of the National Space Club; a member of the 
International Astronautical Federation; a fellow of the American 
Astronautical Society; and a fellow of the American Institute of 
Aeronautics and Astronautics (AIAA). He earned his Bachelor's degree in 
engineering from Princeton University and his Master's and doctoral 
degrees from the California Institute of Technology.

    Chairman Calvert. Thank you. Dr. Anton, you are recognized 
for five minutes.

    STATEMENT OF DR. PHILIP S. ANTON, DIRECTOR, CENTER FOR 
            ACQUISITION AND TECHNOLOGY POLICY, RAND

    Dr. Anton. Chairman Calvert, and distinguished Members of 
the Committee, thank you for inviting me to testify today on 
the roles and issues of NASA's wind tunnel and propulsion test 
facilities for American aeronautics. It is an honor and a 
pleasure to be here.
    My comments today are informed by a recent RAND Corporation 
assessment of America's needs for wind tunnel and propulsion 
test facilities, and NASA's capabilities to serve those needs.
    What would be the consequence to American aviation of NASA 
closing one or more wind tunnels? When NASA closes one or more 
strategically important wind tunnel propulsion test facilities, 
it eats away at our aeronautics future. Aeronautics maturity 
does not nullify the need for test facilities, but in fact, 
relies on the availability and effective use of test facilities 
to provide important capabilities.
    Are there particular wind tunnels that would be especially 
detrimental to close? It would be detrimental to close any 29 
of 31 NASA test facilities that serve national needs. Nine 
facilities would be especially detrimental to close. In an 
attempt to identify which facilities would be especially 
detrimental to close, I utilized the data from the RAND study 
using the following criteria. The facilities most detrimental 
to close are those that serve national needs that can not be 
met by any other U.S. facility, regardless of cost, moderate 
improvements, or access concerns. It is important to note the 
following. If the facilities that did not make this list are 
closed, then the testing costs to go to other U.S. facilities 
may be much higher, and relying on them may, in the long run, 
cost this country more money. Higher testing costs at 
alternative U.S. facilities may drive users to cheaper foreign 
facilities. The facilities most detrimental to close would 
affect any national strategic need from all sectors, NASA 
research, civil aviation, military, and space, not just NASA 
research needs.
    There are nine such facilities meeting these criteria that 
would be especially detrimental to close. The Ames 12-Foot 
High-Reynolds number pressure wind tunnel, the Ames National 
Full-Scale Aerodynamics Complex, the Glenn Icing Research 
Tunnel, the Langley National Transonic Facility, the Langley 
Transonic Dynamics Tunnel, the Langley 8-Foot Hypersonic High-
Temperature Tunnel, The Langley 20-Inch Mach 6 
Tetrafluoromethane and Mach 6 Air, and finally, the Glenn 
Hypersonic Tunnel Facility.
    Are there ways NASA could seek outside funding for its wind 
tunnels? There are outside funding options for NASA, but their 
viability is unclear. Possibilities include retainer or 
consortia fee from outside users from industry, or opening 
NASA's facilities to international users.
    NASA could also explore shared funding mechanisms with the 
DOD, but that would not reduce the burden on the federal 
budget, and begs the question of who in the Federal Government 
is responsible for looking out for the long-term strategic 
aeronautic needs of the Nation.
    Are there ways NASA could change its accounting practices 
regarding its wind tunnels? Elimination of full-cost recovery 
for test facilities and identifying shared financial support 
are recommended options. The full-cost recovery currently 
imposed by NASA on centers discourages use and endangers 
strategic facilities by causing wide, unpredictable price 
fluctuations. Shared support would be relatively small. Even 
the total operating costs of about $130 million per year for 
these important facilities make up less than one percent of 
NASA's overall budget, and are infinitesimal related to the 
$32-58 billion the Nation invests annually in aerospace RDT&E.
    RAND did identify a few accounting options. NASA Langley 
and Glenn tax the research resident programs to supplement user 
fees and ensure that test facilities are kept open. In 
addition, NASA headquarters could consider creating a line item 
in the budget to provide financial shared support for strategic 
facilities. The DOD's Major Range and Test Facility Base model, 
with direct financial support, is a mature model, and has 
served the DOD well.
    What are the disadvantages of relying on foreign tunnels, 
and how serious are they? Relying on foreign facilities incurs 
serious security risks, and unclear access and availability 
risks. An assessment performed by the DOD Counterintelligence 
Field Activity on foreign test facilities indicated that there 
are real security risks to testing in foreign facilities.
    In conclusion, the most critical issues are to develop an 
aeronautic test technology vision and plan, identify shared 
financial support, and stop applying full-cost recovery to wind 
tunnels. A national aeronautics policy would greatly inform and 
guide an aeronautics test technology plan.
    While generally not redundant within NASA, a few of NASA 
facilities are redundant with those facilities maintained by 
the DOD, and others are redundant with commercial facilities. 
NASA should work with the DOD to analyze the viability of a 
national reliance plan. Unless NASA, in collaboration with the 
DOD, addresses specific deficiencies, investment needs, 
budgetary difficulties, and collaborative possibilities, the 
Nation risks losing the competitive aeronautics advantage it 
has enjoyed for decades.
    Thank you for the opportunity to contribute to the debate 
regarding this important issue area in aeronautics. I am happy 
to answer any questions from the Committee, and I would like to 
request that my full testimony be entered into the record.
    Chairman Calvert. Without objection, so ordered.
    [The prepared statement of Dr. Anton follows:]

                 Prepared Statement of Philip S. Anton

    Chairman Calvert, and distinguished Members of the Committee, thank 
you for inviting me to testify today on the roles and issues of NASA's 
wind tunnel and propulsion test facilities for American aeronautics. It 
is an honor and pleasure to be here.

INTRODUCTION

    My comments\1\ today are informed by a recent RAND Corporation 
assessment of America's needs for wind tunnel and propulsion test (WT/
PT) facilities,\2\ and NASA's capabilities to serve those needs. We 
focused on the needs for, and capabilities of, the large (and, thus, 
more expensive to build and operate) test facilities in six types of 
WT/PT facilities--subsonic, transonic, supersonic, hypersonic, 
hypersonic propulsion integration, and direct-connect propulsion--as 
well as any management issues they face. RAND conducted this research 
from June 2002 through July 2003, followed by refinement of our 
findings, peer review, and the generation of study reports. The results 
of the RAND study were published in 2004.\3\ The study methodology 
involved a systematic review and analysis of national research, 
development, test, and evaluation (RDT&E) and sustainment needs, 
utilization trends (historical and projected), test facility 
capabilities, and management issues.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, State, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ Throughout this testimony, I use the term ``WT/PT facilities'' 
to mean wind tunnel facilities and propulsion test facilities. Since 
individual facilities within this designation can be either wind tunnel 
facilities, propulsion test facilities, or both, ``WT/PT facilities'' 
serves as a generic term to encompass them all. That being said, when a 
specific facility is talked about, for clarity, I refer to it using its 
owner/operator, size, and type. As well, the term ``test facilities'' 
and ``facilities'' can be substituted to mean ``WT/PT facilities.'' Of 
course, NASA owns and operates other types of test facilities, but my 
conclusions and recommendations do not apply to them unless explicitly 
stated doing so.
    \3\ See Anton, Philip S., Richard Mesic, Eugene C. Gritton, and 
Paul Steinberg, with Dana J. Johnson, Michael Block, Michael Brown, 
Jeffrey Drezner, James Dryden, Tom Hamilton, Thor Hogan, Deborah Peetz, 
Raj Raman, Joe Strong, and William Trimble, Wind Tunnel and Propulsion 
Test Facilities: An Assessment of NASA's Capabilities to Meet National 
Needs, Santa Monica, Calif.: RAND Corporation, MG-178-NASA/OSD, 2004, 
available at www.rand.org/publications/MG/MG178/; and Anton, Philip S., 
Dana J. Johnson, Michael Block, Michael Brown, Jeffrey Drezner, James 
Dryden, Eugene C. Gritton, Tom Hamilton, Thor Hogan, Richard Mesic, 
Deborah Peetz, Raj Raman, Paul Steinberg, Joe Strong, and William 
Trimble, Wind Tunnels and Propulsion Test Facilities: Supporting 
Analyses to an Assessment of NASA's Capabilities to Serve National 
Needs, Santa Monica, Calif.: RAND Corporation, TR-134-NASA/OSD, 2004, 
available at www.rand.org/publications/TR/TR134/.
---------------------------------------------------------------------------
    While some things have changed since our study concluded 
(particularly declines of NASA's research programs and aeronautics 
budget and closure of three facilities), our technical assessments and 
much of our strategic assessments remain valid.
    In addition to leading this study, I have also remained active in 
supporting government assessments of issues and options related to WT/
PT facilities. My statements below also reflect analysis and 
experiences related to those activities.

Study Activities

    To answer these study questions, RAND conducted intensive and 
extensive interviews with personnel from NASA headquarters; personnel 
from NASA research centers at Ames (Moffett Field, Calif.), Glenn 
(Cleveland, Ohio), and Langley (Hampton, Va.), which own and manage 
NASA's WT/PT facilities; the staff of the Department of Defense's 
(DOD's) WT/PT facilities at the U.S. Air Force's Arnold Engineering and 
Development Center (AEDC, at Arnold AFB, Tenn.); selected domestic and 
foreign test facility owners and operators; U.S. Government and service 
project officers with aeronautic programs; and officials in a number of 
leading aerospace companies with commercial, military, and space access 
interests and products.
    In addition to RAND research staff, the study employed a number of 
distinguished senior advisers and consultants to help analyze the data 
received and to augment the information based on their own expertise 
with aeronautic testing needs and various national and international 
facilities.
    Finally, the study reviewed and benefited from numerous related 
studies conducted over the past several years.

Perspectives on the Study Approach Used by RAND

    The analytic method used in the study to define needs did not rely 
on an explicit national policy and strategy document for aeronautics in 
general or for WT/PT facilities in particular because they do not 
exist. Lacking such explicit needs documents, we examined what 
categories of aeronautic vehicles the United States is currently 
pursuing, plans to pursue, and will likely pursue based on strategic 
objectives and current vehicles in use.
    Also, as enabling infrastructures, WT/PT facility operations are 
not funded directly by specific line items in the NASA budget.\4\ The 
study's determination of WT/PT facility needs and the resulting 
conclusions and recommendations are therefore not based on the federal 
budget process as a direct indicator of policy dictates of facility 
need. We determined WT/PT facility need by identifying what testing 
capabilities and facilities are required given current engineering 
needs, alternative approaches, and engineering cost/benefit trade-offs. 
This, of course, can lead to a bias in the findings in that these 
assessments may be overly reflective of what the engineering field 
determines is important rather than what specific program managers are 
willing to spend on testing because of program budget constraints. 
Thus, when a needed facility is closed because of a lack of funding, 
there is a disconnect between current funding and prudent engineering 
need. This indicates that the commercial and federal budget processes 
may be out of step with the full cost associated with research and 
design of a particular vehicle class, indicating a lack of addressing 
long-term costs and benefits.
---------------------------------------------------------------------------
    \4\ The construction of government WT/PT facilities are, however, 
very large expenditures that require explicit congressional funding, 
and certain facilities such as the National and Unitary facilities have 
associated congressional directives regarding operation and intent.
---------------------------------------------------------------------------
    Finally, while the study's focus was on national needs and NASA's 
WT/PT facility infrastructure, national needs are not dictated or met 
solely by NASA's test infrastructure; DOD, U.S. industry, and foreign 
facilities also serve many national needs. Our study did look at 
technical capabilities of alternate facilities. However, the study was 
not chartered or resourced to examine the entire sets of cost and other 
data for these alternative facilities to fully understand consolidation 
opportunities between NASA and non-NASA WT infrastructures. Based on 
our findings, however, such a broader study is important and warranted.

WHAT WOULD BE THE CONSEQUENCE TO AMERICAN AVIATION OF NASA CLOSING ONE 
                    OR MORE WIND TUNNELS?

When NASA closes one or more strategically important wind tunnel and 
        propulsion test facilities, it eats away at our aeronautic 
        future.
    Closing facilities needed for strategic reasons cuts off the 
country's options for research and development of current and future 
concepts and vehicles. Even if current budgetary priorities limit on-
going aeronautic research, we should not ``eat our seed corn'' given 
that it often takes a decade to build these kinds of major facilities, 
more years to fund them; and replacing all these facilities would cost 
billions. Does the country want to have a future in advanced 
aeronautics, or will it decide to relegate future aeronautic leadership 
to foreign countries who are aggressively pursuing our position and its 
economic fruits?
    To understand why this is so, let me review why this country needs 
wind tunnel and propulsion test facilities. In particular, I would 
emphasize that this concern applies to strategically important 
facilities, not simply all facilities regardless of current need.

Background

    Wind tunnel and propulsion test facilities continue to play 
important roles in the research and development (R&D) of new or 
modified aeronautic systems and in the test and evaluation (T&E) and 
sustainment of developmental systems. The Nation has invested about a 
billion dollars (an unadjusted total) in NASA's existing large, complex 
WT/PT facilities\5\ (some dating from the World War II era), which has 
created a testing infrastructure that has helped secure the country's 
national security and prosperity through advances in commercial and 
military aeronautics and space systems. Replacing these facilities 
would cost billions in today's dollars.\6\
---------------------------------------------------------------------------
    \5\ The Book Value of 26 of the 31 NASA facilities that fell within 
the scope of RAND's study amounted to about $0.9 billion dollars based 
on data identified in the NASA Real Property Database. The book value 
is the simple sum of unadjusted dollars invested in past years in 
facility construction or modernization. Because, in many cases, decades 
have passed since construction, the book value is significantly lower 
than the cost it would take to build these facilities today.
    \6\ The current replacement value (CRV) of 26 of the 31 NASA 
facilities that fell within the scope of RAND's study totaled about 
$2.5 billion dollars based on data identified in the NASA Real Property 
Database. The CRV is derived by looking at similar types of buildings 
(e.g., usage, size) within the Engineering News Magazine's section on 
construction economics. The magazine uses a 20-city average to come up 
with rough estimates of how much a building would cost to replace. Most 
NASA finance and facilities people believe that this average 
underestimates the actual cost of replacing WT/PT facilities, since 
they are more complex buildings than the ``similar'' building types 
available through engineering economics. Unfortunately, NASA has not 
found a better metric to compare buildings across the various field 
centers.
---------------------------------------------------------------------------
    Many of these test facilities were built when the United States was 
researching and producing aircraft at a higher rate than it does today 
and before advances in modeling and simulation occurred. This situation 
raises the question of whether NASA needs all the WT/PT facilities it 
has and whether the ones NASA does have serve future needs. In fact, 
over the past two decades, NASA has reduced its number of WT/PT 
facilities by one-third. More recently, the Agency has closed 
additional facilities. In addition, some of the remaining facilities 
are experiencing patterns of declining use that suggest they too may 
face closure.

Despite Aeronautic Maturity, Test Facilities Are Still Critical

    Some argue that the facility testing capabilities that have been 
built up over the years are no longer needed. They assert that the 
aeronautics industry has matured and that any test capability needs can 
be met through computer simulation or other means.
    Our research generally confirms industry maturity, but that 
maturity relies on the test facility infrastructure. No vehicle classes 
have gone away, and for each new design in a class, it will still be 
necessary to predict airflow behavior across a range of design 
considerations.
    Although applied aeronautics encompasses relatively mature science 
and engineering disciplines, there is still significant art and 
empirical testing involved in predicting and assessing the implications 
of the interactions between aeronautic vehicles and the environments 
through which they fly. Designers are often surprised by what they find 
in testing their concepts despite decades of design experience and 
dramatic advances in computer modeling and simulation known as 
computational fluid dynamics (CFD). This is, of course, especially true 
for complex new concepts that are not extensions of established systems 
with which engineers have extensive practical design and flight 
experience. But even improving the performance at the margin of well-
established and refined designs--for example, commercial jet liners in 
areas such as reduced drag, fuel efficiency, emissions, noise, and 
safety (e.g., in adverse weather)--depends on appropriate and 
sufficient WT/PT facility testing.
    Insufficient testing or testing in inappropriate facilities can 
lead to erroneous estimations of performance. Missed performance 
guarantees can impose extremely costly penalties or redesign efforts on 
airframe manufacturers, overly conservative designs from low 
estimations prevent trade-offs such as range for payload, and even a 
seemingly small one-percent reduction in drag equates to several 
million dollars in savings per year for a typical aircraft fleet 
operator.
    For engineers to predict with sufficient accuracy the performance 
of their vehicles during design and retrofit, they need a range of 
capabilities during testing, including high Reynolds number (Rn),\7\ 
flow quality, size, speed, and propulsion simulation and integration. 
These capabilities cannot be met by a single test facility but rather 
require a suite of facilities.
---------------------------------------------------------------------------
    \7\ The Reynolds number is a nondimensional parameter describing 
the ratio of momentum forces to viscous forces in a fluid. The Mach 
number is a more familiar nondimensional parameter, describing the 
ratio of velocity to the sound speed in the fluid. When the flows 
around similarly shaped objects share the same nondimensional Rn and 
Mach parameters, the topology of the flow for each will be identical 
(e.g., laminar and turbulent flow distribution, location of separation 
points, wake structure), and the same aerodynamic coefficients will 
apply. Airflow behavior changes nonlinearly and unpredictably with 
changes in Rn. Thus, it is important to test the flow conditions at 
flight (or near-flight) Rn to ensure that the flows behave as expected 
and that conditions such as undesired turbulence, separations, and 
buffeting do not occur.
---------------------------------------------------------------------------
    While CFD has made inroads in reducing some empirical test 
requirements capabilities, this technology will not replace the need 
for test facilities for the foreseeable future. Flight testing 
complements but does not replace WT/PT facilities because of its high 
costs and instrumentation limitations. The aeronautic engineering 
community does not have well-accepted handbooks of facility testing 
``best practices'' or even rules of thumb from which to deduce testing 
requirements, nor is it possible from historical data to accurately 
predict returns on specific facility testing in terms of programmatic 
cost savings or risk reduction.
    Thus, aeronautic maturity does not nullify the need for test 
facilities but in fact relies on the availability and effective use of 
test facilities to provide important capabilities. The Nation continues 
to need general-purpose WT/PT facilities across all speed regimes, as 
well as for specialty tests facilities. These facilities advance 
aerospace research, facilitate vehicle design and development, and 
reduce design and performance risks in aeronautic vehicles.

ARE THERE PARTICULAR WIND TUNNELS THAT IT WOULD BE ESPECIALLY 
                    DETRIMENTAL TO CLOSE?

It would be detrimental to close any 29 of the 31 NASA test facilities 
        that serve national needs. Nine facilities--for which no 
        alternatives exist within the U.S. regardless of cost--would be 
        especially detrimental to close.

Identifying Facilities Detrimental to Close: A ``Minimum Set''

    RAND used four factors to assess which NASA facilities constitute 
the minimum set of strategically important facilities: alignment with 
national needs, technical competitiveness, redundancy, and usage.
    First, facilities in the minimum set must serve national needs. 
Thus, facilities that no longer meet national needs are discarded from 
consideration out of hand.
    Next, the primary NASA facilities that serve national needs are 
included in the set. These are the primary facilities that NASA has to 
serve each national need. Until the need disappears or analysis can 
determine that it is better served outside NASA (see the discussion on 
collaboration and reliance below), the Agency should include it in the 
minimum set.
    Finally, facilities that are redundant to the primary facilities 
may or may not be included in the set depending on their technical 
competitiveness and utilization.

Nearly All of NASA Facilities Serve Strategic National Needs

    We examined how well NASA's portfolio of 31 test facilities aligns 
against national strategic needs in each of six categories--subsonic, 
transonic, supersonic, hypersonic, hypersonic propulsion integration, 
and direct--connect propulsion. Nearly all existing NASA facilities 
serve at least one strategic need category important to the Nation's 
continuing ability to design aeronautic vehicles. We found very little 
overlap and very few gaps in coverage.
    NASA's WT/PT facilities have been generally consistent with the 
testing needs of NASA's research programs, as well as with those of the 
broader national research and development programs. Currently, 
redundancy is minimal across NASA. Facility closures in the past decade 
have eliminated almost a third of the Agency's test facilities in the 
categories under review in this study. In nearly all test categories, 
NASA has a single facility that serves the general- or special-purpose 
testing needs, although some primary facilities also provide secondary 
capabilities in other test categories. We found two noncritical WTs: 
(1) the Langley 12-Foot Subsonic Atmospheric WT Lab, which is redundant 
to the Langley 14x22-Foot Subsonic Atmospheric WT, and (2) the Langley 
16-Foot Transonic Atmospheric WT, which is generally redundant to the 
Ames 11-Foot Transonic High-Rn and Langley National Transonic Facility 
WTs run in low-Rn conditions.
    There are gaps in NASA's ability to serve all national needs. In 
most of these cases, though, DOD or commercial facilities step in to 
serve the gaps.
    Finally, some of NASA's facilities that serve national needs have 
been mothballed or closed. While mothballing an important facility is 
preferred to abandonment, mothballing involves the loss of workforce 
expertise required to safely and effectively operate the facility. 
Thus, mothballing is not an effective solution for dealing with long 
periods of low utilization, and it puts capabilities at risk.

29 of 31 Facilities Should Be in NASA's ``Minimum Set''

    Based on RAND's assessment of national needs, survey data of test 
users' strategic needs to produce the kinds of vehicles they research 
or develop, technical capabilities within NASA, and usage data, RAND's 
study concluded that 29 of the 31 existing major NASA test facilities 
constitute the ``minimum set'' of facilities important to retain and 
manage to serve national needs. Thus, the test complex within NASA is 
both responsive to serving national needs and mostly ``right sized'' to 
the range of national aeronautic engineering needs. Closing any of the 
29 would be detrimental.
    It is important to bear in mind that, while not the case within 
NASA, a few of NASA's facilities are redundant when considering the 
technical capabilities of the larger set of facilities maintained by 
commercial entities and by the DOD's AEDC. All such NASA facilities had 
strategic advocacy resulting from unique features such as cost 
effectiveness (e.g., due to their smaller size), technical 
capabilities, and proximity to researchers. Whether these redundancies 
amount to the ``unnecessary duplication'' of facilities prohibited by 
the National Aeronautics and Space Act of 1958 was beyond the scope of 
RAND's study. Further analysis of technical, cost, and availability 
issues is required to determine whether WT/PT facility consolidation 
and right-sizing across NASA and AEDC to establish a national reliance 
test facility plan would provide a net savings to the government and 
result in a smaller minimum set of WT/PT facilities at NASA.
    Congress has expressed interest in collaboration between NASA and 
the DOD.\8\ NASA and the DOD (through the National Aeronautics Test 
Alliance--NATA) have made some progress in their partnership,\9\ but 
NASA's recent unilateral decision to close two facilities at Ames 
without high-level DOD review shows that progress has been spotty. Some 
in industry have expressed an interest in exploring collaborative 
arrangements with NASA and hope that RAND's study will reveal to others 
in industry the risks to NASA's facilities and the need for industry to 
coordinate its consolidations with those of NASA and the DOD. Our study 
provides insights into the problem but offers only glimpses into the 
wider possibilities and issues surrounding broader collaboration.
---------------------------------------------------------------------------
    \8\ See, for example, the GAO report on NASA and DOD cooperation 
entitled Aerospace Testing: Promise of Closer NASA/DOD Cooperation 
Remains Largely Unfulfilled, 1998.
    \9\ For example, NATA has produced a number of joint NASA and DOD 
consolidation studies.
---------------------------------------------------------------------------

Which Are Especially Detrimental to Close?

    In an attempt to identify which of those 29 facilities would be 
especially detrimental to close, I utilized the data from the RAND 
study using the following criteria:

         The facilities most detrimental to close are those that serve 
        national needs that cannot be met by any other U.S. facility 
        regardless of cost, moderate improvements, or access concerns.

    In using these criteria to form a list of those facilities 
especially detrimental to close, it is important to note the following:

        1.  If the facilities that did not make this list are closed, 
        then the testing costs to go to other U.S. facilities may be 
        much higher, and relying on them may, in the long run, cost 
        this country more money, especially in future research programs 
        that would probably have to spend more on testing in 
        alternative facilities than they would otherwise. In many 
        cases, alternative facilities are more sophisticated and have 
        more capabilities than needed (e.g., they are larger or have 
        additional technical features that cost more). An analogy would 
        be to eliminate the ability of a consumer to use a compact 
        pickup truck, leaving them the only alternative of driving a 
        semi truck to work despite the fact that the added capabilities 
        of the semi were not needed in all cases.

        2.  Higher testing costs at alternative U.S. facilities may 
        drive users to cheaper foreign facilities, reducing the amount 
        of domestic facility business and incurring risks discussed 
        later related to foreign facility testing.

        3.  Each test facility is unique in some way, so this list does 
        not consider all technical differences.

        4.  The facilities most detrimental to close would affect any 
        strategic national need from all sectors--NASA research, civil 
        aviation, military, and space--not just NASA research needs. 
        Therefore, this list in some way assumes that NASA, as a 
        ``National'' agency, still has a role in supporting not just 
        NASA's own research needs but the Nation's aeronautic needs. 
        With a lack of a recent national aeronautics policy, it is 
        difficult to see if there has been an objective, long-term 
        policy shift away from NASA having a role as a national steward 
        of government infrastructure, or whether there has been just a 
        short-term budgetary prioritization forcing NASA to focus on 
        infrastructure needed for its own current research.

    There are nine facilities meeting these criteria based on the data 
available from the RAND study that would be especially detrimental to 
close:

        <bullet>  Subsonic

                --  Ames 12-Foot High-Reynolds number pressure wind 
                tunnel, needed, for example, for high-lift vehicle 
                research and development such as super-short take-off 
                and landing commercial and military passenger, cargo, 
                and tanker transports,\10\
---------------------------------------------------------------------------
    \10\ This facility is currently closed but is the only U.S. 
capability in this category and has been historically important for 
civil, space, and military vehicle RDT&E. Currently, however, the 
facility has some undesirable features and limitations that render it 
unacceptable for both commercial transport and tactical aircraft 
development when compared with the two superior facilities in Europe: 
the QinetiQ 5-Metre in the United Kingdom and the ONERA F1 in France. 
Users are currently using facilities in Europe, particularly the 
QinetiQ 5-Metre.

                --  Ames National Full-Scale Aerodynamics Complex 
                (NFAC), needed, for example, for rotorcraft and noise 
---------------------------------------------------------------------------
                reduction research and development, and

                --  Glenn Icing Research Tunnel, needed for icing 
                research and certification testing, for example, to 
                prevent accidents from flying in icing conditions.

        <bullet>  Transonic

                --  Langley National Transonic Facility (NTF), needed, 
                for example, to validate computational models and test 
                data from lower Reynolds number facilities for 
                transports and high-dynamic fighters,

                --  Langley Transonic Dynamics Tunnel (TDT), needed, 
                for example, to test for noise problems and dynamic 
                effects such as the tail buffeting problem not 
                discovered by the F/A-18A program until flight testing.

        <bullet>  Hypersonic (needed to pursue future concepts of 
        hypersonic transport or space access vehicles and missiles)\11\
---------------------------------------------------------------------------
    \11\ Note that users in our surveys rated nearly all of NASA's 
hypersonic facilities as essential for continued progress. Thus, it is 
particularly difficult to identify those that are especially 
detrimental to lose given that each facility offers important 
capabilities. Because hypersonics is still relatively immature, those 
differences are important in resolving the wide variety of challenges 
facing the research, development, and production communities. 
Nevertheless, the Langley 8-Foot HTT is definitely the most advocated 
facility, and the two Langley Mach 6 tunnels and the Glenn HTF offer 
significant capabilities not available elsewhere in the U.S.

                --  Langley 8-Foot High-Temperature Tunnel (HTT), 
                needed for a broad range of moderately high Mach 
                numbers, is the most important hypersonic facility in 
---------------------------------------------------------------------------
                this list,

                --  Langley 20-Inch Mach 6 Tetraflouromethane (M6 CF4) 
                and the companion Langley 20-Inch Mach 6 Air, needed, 
                for example, to understand real-gas effects,

                --  Glenn Hypersonic Tunnel Facility (HTF), needed, for 
                example, to understand whether combustion byproducts in 
                other facilities is preventing advances in air-
                breathing Ramjet and Scramjet that don't require 
                carrying oxygen for combustion.

    Note that most of these facilities could not be operated as a 
commercial venture without shared financial support (as evidence by 
their low current utilization and financial difficulties). Nearly all 
would be too expensive for industry to build on their own. Thus, 
emphasizing the significance of losing them.

ARE THERE WAYS NASA COULD SEEK OUTSIDE FUNDING FOR ITS WIND TUNNELS?

There are outside funding options for NASA, but their viability is 
        unclear.
    The RAND study did not explore in depth the question of outside 
funding mechanisms, but there are some obvious candidates for 
consideration. Possibilities to explore include retainer or consortia 
fees from outside users from industry, or opening NASA's facilities to 
international users (assuming we want to make our national capabilities 
available to potential economic competitors). NASA is already exploring 
some of these options with U.S. industry.
    NASA could also explore shared funding mechanisms with the DOD, but 
that, of course, would not reduce the burden on the federal budget and 
begs the question of who in the Federal Government is responsible for 
looking out for the long-term strategic aeronautic needs of the Nation.

ARE THERE WAYS NASA COULD CHANGE ITS ACCOUNTING PRACTICES REGARDING ITS 
                    WIND TUNNELS?

Elimination of full-cost recovery for test facilities and identifying 
        shared financial support are recommended options.

Why Are Financial Accounting and Shared Support So Important?

    The current full-cost recovery (FCR) accounting policy imposed by 
NASA on the centers discourages use and endanger strategic facilities 
by causing wide, unpredictable price fluctuations in a world where 
government and commercial testing budgets are under pressure and are 
set years in advance. It appears reasonable to ask users to pay for the 
costs associated with their tests (i.e., to pay for the short-term 
benefits), but forcing them to pay all operating costs (including long-
term priorities such as the costs for facility time they are not using) 
through FCR direct test pricing (as is done at Ames) is ill advised.
    FCR has especially serious implications for the financial health of 
those facilities that are underutilized (about one-third of the 
facilities in general, with variation across the test facility category 
types). Average-cost-based pricing, decentralized budgeting, poor 
strategic coordination between buyers and providers of NASA WT/PT 
facility services, and poor balancing of short- and long-term 
priorities inside and outside NASA are creating unnecessary financial 
problems that leave elements of the U.S. WT/PT facility capacity 
underfunded. With declining usage and FCR accounting, these facilities 
run the risk of financial collapse. Identifying shared financial 
support will keep NASA's minimum set of facilities from financial 
collapse given the long-term need for these facilities.
    In the extreme case at Ames, the lack of resident aeronautics 
research programs, combined with the center management's strategic 
focus toward information technology and away from ground test 
facilities, has left Ames WT/PT facilities without support beyond user 
testing fees. Thus, Ames WT/PT facilities are vulnerable to budgetary 
shortfalls given low utilization. Two Ames facilities are unique and 
needed in the United States, yet they have already been closed. One 
(the Ames NFAC) is in the process of being transferred to DOD 
operation, but the other remains abandoned.
    Shared support would be relatively small. Even the total operating 
costs of about $130 million per year for these important facilities 
make up less than one percent of NASA's overall budget and are 
infinitesimal relative to the $32-58 billion the Nation invests 
annually in aerospace research, development, test, and evaluation 
(RDT&E).
    If NASA management is not proactive in providing financial support 
for such facilities beyond what is likely to be available from FCR 
pricing, then the facilities are in danger of financial collapse. In 
the near-term, this market-driven result may allow NASA to reallocate 
its resources to serve more pressing near-term needs at the expense of 
long-term needs for WT/PT facilities. Given the continuing need for the 
capabilities offered by these facilities for the RDT&E of aeronautic 
and space vehicles related to the general welfare and security of the 
United States, the right-sizing NASA has accomplished to date, the 
indeterminate costs to decommission or eliminate these facilities, the 
significant time and money that would be required to develop new 
replacement WT/PT facilities, and the relatively modest resources 
required to sustain these facilities, care should be taken to balance 
near-term benefits against long-term risks. Collaboration, reliance, 
and ownership transferal options for obtaining alternative capabilities 
in lieu of certain facilities are possible, but even if these options 
are exercised, many NASA facilities will remain unique and critical to 
serving national needs. Key to subsequent analysis of these options is 
the collection and availability of the full costs of operating these 
facilities as well as the full costs associated with relying on 
alternative facilities.

Accounting Options

    RAND identified a few accounting options to recovering full 
operating costs through user fees.

    Taxing Research Programs. NASA Langley and Glenn tax the resident 
research programs to supplement user fees and ensure that test 
facilities are kept open. However, the ability to keep current 
facilities open through those taxing mechanisms are at risk as the 
aeronautics research program budgets continue to decline. Also, NASA 
Ames currently does not have a resident aeronautics research program to 
tax.

    Line Item and MRTFB-Like Model. NASA Headquarters could consider 
creating a line item in the budget to provide financial shared support 
for strategic facilities. The DOD's Major Range and Test Facility Base 
(MRTFB) model, with direct financial support, is the most mature and 
has served the DOD well. This support has allowed the DOD to keep its 
strategic facilities open through times of low utilization. The DOD 
Financial Management Regulation provide lessons learned through its 
user accounting and management guidelines, essentially charging users 
for the direct costs associated with their tests but not the full costs 
to keep the facility open for the year.

    UK MOD Outsourcing Model. Finally, another accounting and 
management option is the facility operations outsourcing model recently 
enacted by the UK Ministry of Defence (MOD) for its T&E facilities.
    Under this model, the MOD identified the T&E facilities it needed 
for the future and then privatized the operation of those facilities. 
Ownership of the fixed equipment and land were retained by the MOD for 
indemnity reasons, but ownership of the movable items was transferred 
to a private company, QinetiQ.
    Under the model, QinetiQ has a 25-year contract for operating the 
facilities. The contract is structured to encourage the company to 
implement efficiencies while retaining the long-term health and 
availability of the facilities. QinetiQ gets to keep the efficiency 
savings realized during the then-current five-year period of the 
contract. When the next five-year period is negotiated, the MOD 
receives the benefits of the efficiencies by adjusting the period 
funding amount to the new efficiency level.
    The key to this model was the MOD's access to all facility costs to 
ensure that support levels in the contract guarantee the success of 
QinetiQ and the facilities. In U.S. parlance, this would require open 
full-cost accounting not only of the facilities but also of the 
acquisition programs that rely on the facilities.
    The model employs shared support for the facilities. In the current 
five-year period, the MOD centrally funds 84 percent of facility costs 
to keep the facilities' doors open. Sixteen percent of the funding 
comes from programs to support direct costs of specific program test 
activities. In the past, the MOD had to query programs for how much 
they would put in first. Now, the health of the facilities are ensured 
and planned for, regardless of the realized utilization in the known-
variable environment.
    The MOD implemented the model in 2003, so the long-term success of 
it has yet to be established. Nevertheless, some important observations 
can be made. The MOD made a conscious, objective decision about which 
facilities are strategically important in the long term (25 years, in 
this case). The ministry ensured that it accounted for all the costs to 
inform its decision. It provided shared support for the facilities to 
ensure their long-term health, independent of the yearly utilization. 
While not having to perform the actual operation of the facilities, the 
MOD provided controls and incentives to realize efficiency and cost 
savings while ensuring quality and availability of needed facilities. 
NASA could learn from these observations.

    Full-Cost Accounting. Finally, while our study recommended that 
NASA should change its policy of Full-Cost Recovery (where operators 
must recover the full annual costs of operating facilities from the 
users regardless of the actual utilization of those facilities), we 
applaud NASA's implementation of Full-Cost Accounting (that ensures we 
know the full costs of operating activities). It is important to know 
the full costs of operations to inform management analysis and 
decision-making.

WHAT ARE THE DISADVANTAGES OF RELYING ON FOREIGN WIND TUNNELS, AND HOW 
                    SERIOUS ARE THEY?

Relying on foreign facilities incurs serious security risks, and 
        unclear access and availability risks.
    The RAND study did not explore in depth the policy issues of 
relying on foreign wind tunnel, but some observations and references 
can be made. It appears that the main disadvantages are security, 
access, and availability risks.
    As a continuation of my involvement in this area, I have been 
briefed on an assessment performed by the DOD Counterintelligence Field 
Activity (CIFA) on foreign test facilities.\12\ That report indicated 
that there are real security risks to testing in foreign facilities. 
``Without tight controls on access and data management, critical 
technology is at significant risk for compromise at most, if not all, 
of the [foreign facilities that CIFA considered], or in transit to and 
from them. Despite contractual security specifications, the designs or 
data deployed to these sites is in a virtual sea of potential 
collectors whether representing national, commercial or private 
interests.'' I commend that report to the committee for its classified 
details.
---------------------------------------------------------------------------
    \12\ ``Technology Risk Assessment for European Test Facilities 
(U),'' DOD Counterintelligence Field Activity Report, SECRET, CIFA/DA-
218-04, 12 July 2004.
---------------------------------------------------------------------------
    While the RAND study did not analyze them in detail, access and 
availability are also of concern, especially given an international 
competitive environment in aeronautics and tensions that arise 
occasionally (even with allies) and the unstable global business of 
wind tunnel facility operation. In general, if we rely on foreign 
facilities for strategically important capabilities, then we put our 
strategic needs at risk. At the very least, the government should 
explore reliance agreements to help reduce security risks and establish 
long-term agreements to ensure access as well as the long-term 
financial and technical stability of those facility operations.
    In the course of our study, RAND did find that there is some 
reliance on foreign test facilities, particularly on the QinetiQ 5-
Metre subsonic high-Reynolds number wind tunnel. If additional NASA 
facilities are closed, the country will be forced to rely more on 
foreign facilities for capabilities it cannot find domestically, 
including those that are inexpensive alternatives to larger, remaining 
U.S. facilities.

CONCLUSIONS

    For NASA leadership, the most critical issues are to:

        <bullet>  develop a specific and clearly understood aeronautics 
        test technology vision and plan;

        <bullet>  identify shared financial support and stop applying 
        full-cost recovery to WT/PT facilities;

        <bullet>  continue to support developing plans to very 
        selectively consolidate and broadly modernize existing test 
        facilities; and

        <bullet>  prescribe common management and accounting directions 
        for NASA's facilities.

    This vision cannot be developed apart from other critical national 
decisions. It must be informed by the long-term aeronautic needs, 
visions, and capabilities of both the commercial and military sectors 
supported by NASA's aeronautical RDT&E complexes. A national aerospace 
policy would greatly inform and guide an aeronautics test technology 
plan.
    Given the inherent inability to reliably and quantitatively predict 
all needs for RDT&E to support existing programs much beyond a few 
months out, the tendency of multi-year surges in aeronautic programs, 
and the trends indicating a continuing decline in needed capacity to 
support these needs for the foreseeable future, long-term strategic 
considerations must dominate. If this view is accepted, then NASA must 
find a way to sustain indefinitely and, in a few cases, enhance its 
important facilities (or seek to ensure reliable and cost-effective 
alternatives to its facilities) as identified in the RAND study.
    While generally not redundant within NASA, a few of NASA's 
facilities are redundant with those of facilities maintained by the 
DOD, and others are redundant with commercial facilities. NASA should 
work with the DOD to analyze the viability of such a national reliance 
plan because it could affect the determination of the future minimum 
set of facilities NASA must continue to support.
    NASA should pursue all three testing approaches--facility, CFD, and 
flight--to meeting national testing needs; establish the minimum set of 
facilities important to retain and manage to serve national needs; 
reassess poorly utilized facilities for strategic, long-term needs 
rather than eliminate them out of hand; identify financial support 
concepts to keep its current minimum set of facilities healthy for the 
good of the country; continue to invest in CFD; eliminate the backlog 
of maintenance and repair at its facilities; and address hypersonic 
air-breathing research challenges.
    Unless NASA, in collaboration with the DOD, addresses specific 
deficiencies, investment needs, budgetary difficulties, and 
collaborative possibilities, the Nation risks losing the competitive 
aeronautics advantage it has enjoyed for decades.
    Thank you for the opportunity to contribute to the debate regarding 
this important issue area in aeronautics. I am happy to answer any 
questions from the Committee.

                     Biography for Philip S. Anton

    Dr. Anton directs the Acquisition and Technology Policy Center in 
RAND's National Security Research Division (http://www.rand.org/nsrd/
atp.html). This center addresses how accelerating technological change 
and modernization efforts will transform the U.S. national security 
establishment. It also explores new acquisition and management 
strategies and explores ways to maintain core defense technology and 
production bases.
    Dr. Anton also conducts a wide range of research, including policy 
and application research in information technology, cyber security, 
information operations, nanotechnology, biotechnology, applied 
neuroscience, aeronautics, science and technology trends and effects, 
acquisition, and venture capital. His projects include a major study of 
wind tunnel and propulsion test facilities for NASA; development of a 
methodology for finding and fixing vulnerabilities in information 
systems; and an assessment of the global technology revolution through 
2015.
    Dr. Anton earned his Ph.D. in information and computer science from 
the University of California, Irvine, and his B.S. in engineering from 
the University of California, Los Angeles.

    Chairman Calvert. Dr. Benzakein, we are going to recognize 
you for five minutes, and we need to stay on that five-minute 
schedule, because we have a vote that is going to be present, 
and we are going to recess right after your testimony. So, you 
are recognized for five minutes.

  STATEMENT OF DR. MIKE J. BENZAKEIN, CHAIRMAN, DEPARTMENT OF 
          AEROSPACE ENGINEERING, OHIO STATE UNIVERSITY

    Dr. Benzakein. Thank you, Mr. Chairman. Thank you, Members 
of the Committee.
    I think we need aeronautics technology to create a civil 
aviation industry that will bring safe, clean, affordable jet 
service to every community. To do that, it will take research 
and a new generation of highly trained Americans to create the 
vehicles, airports, air traffic management systems to make this 
possible. The national needs can be summarized as follows. U.S. 
competitiveness, freedom of air travel, flight safety, security 
and defense of our nation, protection of the environment, 
education of the future workforce.
    The U.S. has enjoyed a favorable balance of trade in 
aeronautics since--every year since 1970. This is based on the 
fact that we own the right technologies, which permits us to 
adopt the right market and product strategies. This could 
change in the next 10 years. The European Union, as well as 
others, have decided to make the necessary investment to 
threaten our leadership position in the industry. Europe is 
also developing a strong partnership between industry, 
government, and academia. It is led by industry and focused on 
their needs.
    Technology breakthroughs are required for emission, 
acoustic, fuel efficiency. We are at the point of diminishing 
returns with current technology, and the United States needs to 
fund R&D for quantum improvement as we move forward. There is 
also a need to triple the current airspace capacity. Last, but 
not least, we must address the need for a first-rate aerospace 
engineering workforce, as they hold the key to the future.
    So, what is NASA's role in the aeronautics agenda? Let me 
start by saying that technology developed by NASA has been key 
to the success of jet engines, which is the industry I am 
coming from. The Energy Efficient program, the Quiet Engine 
Program, sponsored by NASA in '80s and the--in the '70s and the 
'80s, did identify technologies that found themselves in 
product lines, like the GE90 family that powers the Boeing 777 
today, and who spawned products like the GEnx, which will power 
the 787 at Boeing tomorrow.
    Why NASA? The answer is simple. There is no other agency 
that can do it. DOD, of course, has the technical expertise in 
airframe and engine systems, but their focus is on weapon 
systems, as it needs to be. While FAA's mission is similar, it 
has neither the expertise nor the infrastructures required.
    How effective are NASA programs? They have been effective 
in the '70s and '80s. Unfortunately, the critical link to 
industry began to break down in the late '90s. The curtailment 
of budget dictated by the funding needs of the International 
Space Station and other space projects have left the Agency 
struggling to identify its mission and agenda in aeronautics. 
So NASA's effectiveness in help, ensuring the U.S. industrial 
competitiveness in civil aeronautics is unfortunately 
diminishing. The intellectual power is there. The facilities 
are still there. And so is the will to do it, but the budget is 
not. So, this is creating a serious void for this nation as we 
look forward.
    That brings me to the next subject, the impact of the 2006 
budget cuts. I am sorry to say that these cuts are having and 
will have serious implications on the ability of NASA to 
continue to play a relevant role in aeronautics in the future. 
The cuts that were made affect not only the programs that the 
industry needs, but cuts into the core of NASA competency and 
facilities at centers like Glenn and Langley. These centers 
have some unique competencies to the Nation and the world, and 
we are going to lose them. In the years ahead, both people and 
facilities will be gone, with little chance for recovery.
    That takes us back to what is NASA's mission? The 
technology that NASA develops in civil aviation will be used by 
industry and the FAA. It is therefore paramount that a very 
strong partnership exists between NASA and its stakeholders. 
This kind of strong partnership exists in Europe, where 
industry shapes most of the technology program. The U.S. needs 
to learn from this relationship. The end user has to be part of 
the process. Is this corporate welfare? The answer is no. The 
industry is not looking for NASA to fund the development of 
their products, but they do need NASA's help to do the 
fundamental research and screening of high-risk concepts before 
industry picks it up. The alliance works. It has gotten the 
U.S. aeronautics industry its leadership position, and we need 
to ensure that it stays there.
    So where do we go from here? I believe that aeronautics 
needs a national vision and an agenda to move forward. I 
believe, also, that the vision and strategy must be developed 
in partnership by industry, academia, and the Federal 
Government. Aeronautics must have a vision and goals, like 
those that NASA has set for returning to the Moon and going to 
Mars. So, how do we get this started? Well, we already have.
    In response to the Aerospace Commission Report and other 
national studies, Congress asked the National Institute of 
Aerospace to work with the aeronautics industry and academia to 
develop a research plan and budget for the next five years that 
would substantially augment ongoing NASA programs. More than 
250 of the Nation's aeronautics aviation experts from industry 
and academic have developed an integrated budget plan that 
contains roadmaps, milestones, and funding requirements for 
aeronautics technology to address the Nation's needs in the 
years ahead.
    The result of this intense effort that has taken place over 
the last five months is being summarized in a report to 
Congress, which is targeted to be available at the end of the 
month.
    Chairman Calvert. And Doctor, if you could summarize your 
statement, we have to recess very shortly.
    Dr. Benzakein. Thank you, Mr. Chairman, Members of the 
Subcommittee. I appreciate the opportunity to testify today, 
and to share my views on aeronautics and the roles that NASA 
plays. I believe that the opportunities are there, the needs 
are there, and the strong partnership between industry, let me 
repeat that, I think it needs a partnership to move ahead. And 
we need a partnership in industry, academia, and NASA, but we 
need a strong, stable support from Congress and the 
Administration, and that is the answer.
    Thank you very much.
    [The prepared statement of Dr. Benzakein follows:]

          Prepared Statement of Statement of Mike J. Benzakein

Mr. Chairman and Members of the Subcommittee:

    The National Authorization Act for FY 2001 created ``The Commission 
on the Future of the United States Aerospace Industry'' as a bipartisan 
effort to address Congress's concern for America's economic and 
national security. The Commission issued an urgent call to the White 
House and Congress to increase and sustain significant and stable 
funding in long-term research and associated Research, Development and 
Technology infrastructure. Some of us have been working to help 
Congress respond to that call.

The Importance of Aeronautics

    From building the strongest economy in the world to winning the war 
on terror, we need aeronautics technology to create a civil aviation 
industry that will bring affordable jet service to every community. 
Moving people and goods faster, safer, more cost effectively and more 
securely to any place in the world in a more environmentally friendly 
way will benefit the American public and the American economy. To do so 
will take research and a new generation of highly trained Americans to 
create the vehicles, airports and air traffic management systems to 
make this possible. The national needs can be summarized as follows:

        <bullet>  U.S. economic competitiveness

        <bullet>  Freedom of air travel

        <bullet>  Flight safety

        <bullet>  Secure and defend the Nation

        <bullet>  Protect the environment

        <bullet>  Educate the future workforce

    In all partnerships around the world, the U.S. industry must 
maintain a leadership position. The U.S. has enjoyed a favorable 
balance of trade in aeronautics every year since 1970. In 2003, this 
was $27 billion--not an insignificant number. Aeronautics research is 
key to maintaining our leadership.
    Leadership is based on the fact that we own the right technologies, 
which permit us to adopt the right market and product strategies. This 
could change in the next 10 years. The European Union, as well as a 
number of Asian governments and, most recently, the Canadian 
government, are making the necessary investments to threaten our 
leadership position in this industry. The European 2020 Vision 
unequivocally states that the E.U. wants to be #1 in aeronautics by the 
year 2020. They have increased their funding in aeronautics by a factor 
of 20 over the last 10 years. To this one can add the individual 
European governments' funding (United Kingdom, France, Germany, etc.). 
Europe is also developing a strong partnership between industry, 
government and academia. In fact, it is led by industry and focused on 
their near-term and mid-term needs.
    Meanwhile, U.S aeronautics research is focused primarily on more 
revolutionary, long term research instead of the need to maintain our 
economic competitiveness. We need a balance between long-term and 
shorter-term research. In addition as we move forward, aeronautics 
research must develop the tools and technologies to provide the 
comfort, performance, fuel economy, and reduced emissions and noise 
expected by the traveling public. These advanced tools and technologies 
require research on airframe and propulsion for both large and small 
vehicle systems.
    We need to facilitate the ease of travel from point to point with 
small vehicles as well as meet the requirement to travel faster around 
the globe. Technology breakthroughs are critically needed for acoustics 
and fuel efficiency. We are at the point of diminishing returns with 
current technologies, and the United States needs to fund R&D for 
quantum improvements as we move forward.
    There is also a necessity to triple the current airspace capacity 
in the U.S. To accomplish this will take close cooperation between the 
different agencies of the Federal Government, industry and academia. 
The freedom of air transportation and America's ability to advance 
economically are lost if the aviation system is not safe, secure and 
capable of handling the increasing demand for airspace. It is critical 
that the research agenda recognizes current and future system 
vulnerabilities based on changing transportation concepts and designs.
    Last but not least, we need to educate our workforce. There is an 
increased demand for students in Aeronautical Engineering. We need to 
interest young people in science and engineering. We have to start at K 
through 12, continue through college. We must prepare undergraduate and 
graduate students--B.S., M.S., and Ph.D. candidates--for what should be 
very exciting careers in aeronautics. We need more U.S. students 
pursuing advanced degrees. These young people will be key if the United 
States is to maintain its aeronautics leadership in the world.

NASA's Role

    So what role should NASA play in the aeronautics agenda? Let me 
start by saying that technologies developed by NASA have been key to 
the success of jet engines, which is the industry where I have spent 
most of my life. The Energy Efficient Engine Program, the Quiet Engine 
Program, etc., sponsored by NASA in the 1970's and 1980's identified 
technologies that eventually found themselves in product lines like the 
GE90 family of engines that powers the Boeing 777 today. They have also 
spawned products like the GEnx which will power the Boeing 787 
tomorrow. Without this research, GE could not have had the composite 
fan blades, the high pressure-ratio core, or the low emission double 
annular combustor that put them in a leading position in the industry 
today.
    Why NASA? The answer is simple: There is no other agency that can 
take that role in the United States today. In 1915 Congress created the 
National Advisory Committee for Aeronautics (NACA); this organization 
was reconstituted as NASA in 1958 as the United States entered the race 
for space. From 1915 onward, NACA/NASA has invested in aeronautics 
research and technology--an investment in the future of this nation. 
Over the years, Industry and Academia have come to depend on NASA's 
support to invest in longer-term research--but always with an eye to 
providing a benefit to the American public. This investment has been 
small compared to the infrastructure it supports and the balance of 
trade benefits it brings. DOD, of course, has the technical expertise 
in airframe and engine systems, but their focus is on weapon systems as 
it should be, and DOD does not have the same priorities as civil 
aviation. In fact, DOD has traditionally relied on NASA to provide 
noise and emissions breakthroughs that could be adopted by the 
military. While FAA's research mission is similar, they have neither 
the expertise nor infrastructure required.
    How effective are NASA's programs? They have been very effective in 
the 1970's and 1980's as I previously said. Unfortunately, the critical 
link to industry began to break down in the late 1990's. The 
termination of the High Speed Research Program and the Advanced 
Subsonic Technology Program marked the beginning of a downslide that 
continues today. The curtailment of budgets dictated by the funding 
needs of the International Space Station and other space projects has 
left the Agency struggling to identify its mission and agenda in 
aeronautics. It has valiantly tried. The NASA Aeronautics Blueprint 
published in 2002 articulated very well the correct goals of the 
Agency. Unfortunately, adequate funding was never there to fulfill 
these goals. More important, the funding was never stable enough to 
launch and sustain any significant initiatives. So NASA's effectiveness 
in helping to ensure the U.S. industrial competitiveness in civil 
aeronautics is unfortunately diminishing. The intellectual power is 
still there, the facilities are still there, and so is the will to do 
it; but the funding is not. This is creating a serious void for this 
nation as we look ahead.

Budget Cuts

    That brings me to the next subject--the impact of budget cuts. I am 
sorry to say that these cuts are having and will have serious 
implications on the ability of NASA to continue to play a relevant role 
in aeronautics in the future. The cuts have occurred primarily in the 
Vehicle Systems Program, which defined technologies for the airframe 
and propulsion systems of the future. These technologies are aimed at 
ensuring U.S. competitiveness in the years ahead. The cuts that were 
made unfortunately affect not only the programs that industry needs, 
but cut into the core of NASA competency and facilities at centers like 
Glenn and Langley. These centers have some competencies unique to the 
Nation and the world, and we are going to lose them. In a few years, 
both people and facilities will be gone with little chance for 
recovery.
    NASA has refocused the Vehicle Systems Program to address four 
revolutionary high risk ``barrier breaking'' technologies. They 
represent a valiant effort to salvage what is remaining of the vehicle 
system programs. However, the funding constraints make even these 
programs highly inadequate. Let me take for example the supersonic 
airplane program which focuses on the need to reduce the sonic boom. We 
need to do it and it is the right thing to do, but it currently focuses 
only on changes in airframe configuration. At the same time there are a 
flock of technologies dealing with materials, engine emissions and 
engine noise, airplane systems, etc., that must be addressed if we want 
to have a supersonic airplane program in the future.
    That takes us back to what is NASA's aeronautics mission? Before I 
speak to this, let me discuss the role of the industry. When DOD 
develops technology, it does so for its own use, its own vehicles, its 
own weapons systems. The technologies that NASA develops for civil 
aviation will be used primarily by industry and the FAA. It is 
therefore paramount that a very strong partnership exists between NASA 
and its stakeholders. This kind of strong partnership exists in Europe 
where industry shapes most of the technology programs. The U.S. needs 
to learn from this relationship. The end user has to be part of the 
process. Is this ``corporate welfare''? The answer is no. Industry 
looks to NASA to screen technologies and help define the key game 
changers that are worth pursuing.
    Let's take, for example, the NASA Clean Combustor Program. Under 
this 1970's NASA program, GE looked at different combustor concepts to 
reduce nitric oxides (NOX). GE identified a double annular 
configuration as a leading candidate, ran it in an engine and declared 
victory. But it wasn't until the mid 1980's that the pressure for low 
NOX was such that GE decided to put the double annular combustor into 
some of their products. It cost GE over $100 million to make it service 
ready for the CFM and GE90 families. I use this example to show that 
industry is not looking for NASA to fund the development of their 
products, but they do need NASA's help to do the fundamental research 
and screening of high-risk concepts before industry picks them up. This 
alliance works. It has gotten the U.S. aeronautics industry its 
leadership position, and we need to ensure that it stays intact.

The Go Forward Plan

    So where do we go from here? I believe that aeronautics needs a 
national vision and an agenda to move forward. I believe also that the 
vision and strategy must be developed in partnership by industry, 
academia and the Federal Government. It should be focused on 
aeronautics priorities based in future commercial regulatory 
challenges. Challenging aeronautical goals for 2015/2020 need to be 
established targeting 85 percent lower emissions, 50 percent lower 
noise, 30 percent lower fuel consumption, 3  thruput, etc. Aeronautics 
must have a vision and specific goals like those that NASA has for 
returning to the Moon and going to Mars. So, how do we get this 
started? Well, we already have.
    In response to the Aerospace Commission Report and other National 
studies, Congress asked the National Institute of Aerospace to work 
with the aeronautics industry and academia to develop an aeronautics 
research plan and budget for the next five years that would 
substantially augment ongoing NASA programs. More than 250 of the 
Nation's aeronautics/aviation experts from industry and academia have 
developed an integrated budget plan that contains roadmaps, milestones 
and funding requirements for aeronautics technology to address the 
Nation's needs in the years ahead. It addresses the requirements for:

        <bullet>  airspace systems

        <bullet>  aviation safety and security

        <bullet>  hypersonics

        <bullet>  rotor craft

        <bullet>  subsonic vehicles

        <bullet>  supersonic vehicles

        <bullet>  workforce and education

    The result of this intense effort that has taken place over the 
last five months is being summarized in a report to Congress that is 
targeted to be available by the end of this month. The team has worked 
hard to balance the short and long-range needs of the Nation. The 
short-range needs address technologies for systems and vehicles to be 
ready in the years 2015-2020. The long-range needs address requirements 
for systems required in the years 2040-2050. In addition to research 
requirements, we addressed the need for a strong aerospace workforce, 
suggesting coalitions to revamp the way we prepare students for careers 
in industry. The proposal is to transform aeronautical engineering 
programs to meet industry needs and will require a paradigm shift in 
emphasis on the way we educate B.S. students, and will require a 
collaboration of all elements that make up the educational system.
    As said earlier, this report should be available to Congress and to 
NASA by the end of this month. We look to Congress and the 
Administration to call for a national vision for aeronautics and hope 
that this report will serve as a baseline upon which to build the 
aeronautics strategy for the future.

Summary

    Thank you, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to testify today and to share my views on 
aeronautics and the role that NASA plays in aeronautics research. The 
partnership between NASA and industry has meant success to the United 
States in aeronautics in the past. The budget pressures on NASA are at 
the point of potentially creating a technology void in the future. It 
is important that this be turned around. The opportunities are there, 
the needs are there and a strong partnership between industry, academia 
and NASA with strong, stable support from Congress and the 
Administration is the answer.

    Chairman Calvert. Thank you, Doctor, and Dr. Hansman, we 
will have your testimony as soon as we return from this recess. 
We will recess until approximately five minutes after the last 
vote.
    [Recess.]
    Chairman Calvert. Our last witness on the panel is Dr. 
Hansman. You are recognized for five minutes.

STATEMENT OF DR. R. JOHN HANSMAN, JR., DIRECTOR, INTERNATIONAL 
               CENTER FOR AIR TRANSPORTATION, MIT

    Dr. Hansman. Thank you, Mr. Chairman, for the opportunity 
to speak on the future of aeronautics and NASA. I have some 
slides, because a university professor these days should have 
to have slides to talk.
    [Slide.]
    This is a picture that shows the U.S. air traffic density 
over the U.S., which shows the dependence of the U.S. economy 
on air transportation. This is a little macro scale conceptual 
model we use that show the dependence of the economy on the air 
transportation system, both the capability of the national 
airspace system, our infrastructure, and also, the capability 
of the vehicles that are in there.
    As people have mentioned today, the U.S. aviation impact is 
estimated at about eight percent of the Gross Domestic Product, 
roughly 100 million, correction, 10 million jobs, and about 
$900 billion per year to the U.S. economy. This shows you the 
growth of passenger traffic by region, showing the U.S. is--has 
been growing exponentially in passenger traffic as well as 
Europe and Asia Pacific. You can see the latent demand, which 
hasn't emerged yet, in other parts of the world. This shows you 
the freight demand, and shows you that the freight out of Asia 
actually exceeded the freight out of the U.S., starting in the 
1990s. So, you can see that dependence on the economy.
    Talking about challenges and opportunities, I will just 
quickly go through one--a few of them. Let me start with flight 
delays and the capacity of the air traffic--air transportation 
system. Before the attacks of September 11, in the years 2000, 
2001, air traffic control delays were an emergent and critical 
problem. Even in this body, people were very upset, concerned 
about it. The system was close to saturation. The attacks of 
September 11 pulled down demand on the system for a few years. 
Demand has come back into the system, and you can see, starting 
in late 2003 and through 2004, the delays in the system have 
actually exceeded historical levels.
    The capacity of the system is limited by the--fundamentally 
in the U.S., the capacity of the airports and runways, although 
it is also the airspace system, the complexity, the people to 
run the system, and the technical elements of the system. These 
are going to be urgent issues in the future, and we actually 
project that the system will go into gridlock, probably in the 
summer either of 2007 or 2008, and we will see issues emerging 
next summer.
    Another factor is the economic instability in the industry. 
This shows you the net U.S. airline profits, as a function of 
time, starting with deregulation in 1978. You can see that the 
industry is cyclic, with about an 11 year cycle. And the 
amplitude of the cycle has been growing with time. This is 
actually--appears to be a fundamental effect, not directly 
attributable to September 11, which exacerbated the situation.
    Another clear and emergent issue will be fuel availability 
and price of fuel. As you know, fuel at the crude level has 
gone over $50 a barrel. This appears to reflect a secular 
trend. As fuel prices go up, this will be actually a technical 
opportunity to look for more efficient means, more efficient 
aircraft, will actually provide an opportunity to renew 
aircraft in the system, and also, the aerospace industry, 
because of its nature, worrying about efficiency, will provide 
a technical conduit for technologies to come out of aviation 
into other modes, such as ground vehicles.
    Environmental limitations are going to be critical. We 
already know the noises are a critical issue which limits our 
ability to add airports and runways to the system. Emissions 
are becoming a more important problem, both in local emissions, 
but also global emissions. Also, interestingly, effects such as 
contrails are now starting to be looked at as significant 
factors on influencing the global radiative balance and global 
warning.
    International--this industry is clearly an international 
industry, and that is both an opportunity, in terms of future 
markets, but it is also, as has been said earlier today, an 
issue in terms of challengers. People mention the Airbus A380. 
This is the rollout of the A380, expected to fly later this 
year. It is an interesting airplane, and again, it is enabled 
by some of the technical investments in Europe, but it is not 
just Europe. It is--we have significant growth in midsized jets 
and regional jets. These are the new airplanes coming out of 
Brazil, the Embraer 190 and 170 series. Out of Canada, the CRJ-
900 series, and actually, out of China, on a midlevel, regional 
jets, and this is expected to be one of the big growth markets. 
We do have innovation in the U.S., in a number of ways, this is 
a picture of the Boeing 77. I just note it, because it is in 
the Japanese livery, which were the--one of the launch 
customers. So, again, points to the issue as this being an 
international industry and international markets, which we have 
to compete in.
    The biggest challenge and my biggest concern is actually in 
our intellectual capital, not just in NASA, which was talked 
about today, but really, in the country at large. In my 
business, you know, we look at students flowing into the 
system, go--you know, I actually teach a lot of those what were 
called nerds this morning. Okay. And they are not really nerds. 
The concern I have is that the talent and experience really 
isn't being replaced. Right now, we are getting competition 
from other fields, information technology, biotechnology, 
bioengineering, and we are also getting, as we know, 
international competition, so you know, one has to ask, why 
would a young person go into aeronautics, except for their love 
of flying or flight?
    Another issue that we deal with is changing skill 
requirements, so that the skills that we are going to need for 
aeronautics in the future are not the same skills that we have 
needed in the past. In terms of NASA's role, they have a 
critical role in developing the knowledge base, technologies, 
and people, and stimulating innovation, fostering growth of 
talent, and their critical role in reducing the technical risk 
in the systems.
    They have been historically invaluable. I actually took off 
my bookshelf a book that one of my mentors gave me, which is 
Abbott and van Doenhoff, all these guys will know this book, 
okay. These were the original work out at NACA, these were the 
wind tunnel data of airfoil geometry which are still used 
today, and sort of represent the fundamental type of knowledge 
we should be generating out at NASA. There currently is, people 
have said, sub-critical. The programs are aligned with some of 
the future needs, but are inadequate from the core standpoint. 
The budget and the trend in the budget is inadequate to 
maintain a vital national aeronautics capability that we must 
have. The working budget, the amount of money that is really 
available for innovation, creativity, and excitement, just 
isn't there. Okay. And this will have an adverse impact on the 
intellectual capital to meet future challenges. Again, why 
would you recommend that your son or daughter go into the 
industry?
    What can the government do? The government should invest in 
aeronautics, for the future, and not coast on the prior 
momentum. NASA should take more risks, and should increase 
investment in developing opportunities that will attract 
excitement and talent to aeronautics. We need a fundamental 
research core in the portfolio, and this is going to require 
additional investment and collaboration with government 
agencies and industry, and there are some efforts, such as the 
JPDO, that are a good start.
    Chairman Calvert. If the gentleman would summarize his 
remarks, we----
    Dr. Hansman. That is it.
    Chairman Calvert. That is it.
    Dr. Hansman. And my written remarks are--hopefully will go 
in the record.
    Chairman Calvert. Your full written remarks will be entered 
into the record, without objection.
    [The prepared statement of Dr. Hansman follows:]
               Prepared Statement of R. John Hansman, Jr.

Chairman Calvert and Members of the Subcommittee:

    Thank you for the opportunity to comment on The Future of 
Aeronautics at NASA. For most of the past century, the U.S. has led the 
world in ``pushing the edge of the aeronautics envelope'' based, in 
part, on a strong national aeronautics research strategy. This has 
resulted in a vibrant aerospace industry and an unsurpassed air 
transportation system which has contributed materially to the Nation's 
economic development, geographic structure and quality of life. The 
social and economic connectivity provided by our air transportation 
system can bee seen in the density of aircraft trajectories over the 
U.S. (Fig 1.).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There are, however, indications that the U.S. preeminence in 
aerospace has declined. In part this is due to strategic investments 
other nations have made, and continue to make, in aeronautics research. 
These investments in programs and, more importantly, in people, have 
created a strong international civil aeronautics capability. In 
contrast the U.S. has systematically decreased it's investment in civil 
aeronautics research over the past decade and has underinvested in 
fundamental and high risk research to develop the excitement knowledge 
and people to shape aeronautics in the future.
    I will comment below on the specific questions which you have asked 
me to address.

Over the next two decades, what are the main challenges facing the 
aeronautics industry and our aviation infrastructure? What are the 
Nation's most pressing strategic needs in civil aeronautics?

    National Airspace System Capacity--Indications of the capacity 
problem can be seen in the delay data of Figure 2. Prior to September 
11, 2001, the system was approaching capacity limits at key airports 
and other points in the system. Nominal interruptions resulted due to 
weather or traffic congestion in non-linear propagation of delays and 
loss of reliability in the system. Delays were reduced after September 
11 due primarily to reduced traffic. However traffic has returned and 
delays in late 2004 have exceed historic levels. This pattern is 
expected to continue and it is likely that delays will reach crisis 
proportions within the ext few years. It is important to note that key 
airports in the system (e.g., LGA and ORD) have had a disproportional 
impact on national delays illustrating the importance of getting 
maximum capacity from our airports and reducing local environmental 
impacts to reduce local community opposition to airport capacity 
expansion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Economic Stability--The economic instability of the aeronautics 
industry can been seen in the aggregate profitability of the U.S. 
airlines (Fig. 3). The cyclic nature of the industry can be seen with 
the cycle period being approximately 11 years. Prior to deregulation of 
the industry in 1978 the Airline Industry was cyclic but profitable. 
After de-regulation the amplitude of the oscillation has increased. 
This pattern is also seen globally. It is unclear what will limit the 
growth of this instability, however the implications are significant 
both for the industry, the Nation and the world.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Fuel--Another challenge will be the price and availability of fuel. 
As can be seen in Fig. 4, the price of fuel recently exceed $50 per 
barrel. While this is partly due to short term issues it is expected 
that fuel prices will continue to rise as the rate of discovery of new 
fossil fuel sources slows. While this is a challenge, it is also a 
technical opportunity as it shifts the design criteria to value fuel 
efficiency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    International Competition and Markets--International competition 
will also be a key challenge over the next few years. As noted above, 
international competition to U.S. manufactured aircraft and aeronautics 
technologies have increased and the historical U.S. leadership has 
diminished. However, the international markets represent the largest 
future opportunities for civil aeronautics products and systems. This 
can bee seen in Figures 5 and 6 which show the rapid growth in 
passenger and freight traffic in North America, Europe, and Asia and 
the emergent potential of developing regions such as the Middle East, 
Latin America, and Africa.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Environmental Impact--Environmental issues will become increasingly 
important challenges to aviation as well as other segments of society. 
At the local level, noise and emissions make it difficult to add runway 
capacity to meet the traffic demand. On a global scale, increasing 
concerns regarding global warming will impose limits on high altitude 
emissions and aircraft contrails which impact the earth's radiative 
energy balance.
    Security and Public Health Threats--The perception as aviation as a 
potential social threat mechanism could significantly constrain the 
potential benefits from aviation and the aeronautics industry. As 
important as the well publicized security concerns is the bio-
propagation of natural health threats as illustrated by the reaction to 
the SARs virus in Asia. While these concerns are real the potential to 
overreact are significant.
    Information Technology and Complexity--On the technology side, one 
of the key challenges will be dealing with complexity and criticality 
in Information Technology and software systems which are an 
increasingly important part of all aerospace systems.
    Human Roles--Defining the limits of automation and the role of the 
human will be a challenge for civil aviation. Unmanned Air Vehicles 
have demonstrated their capability in military applications and are 
emerging in civil aviation. The future role of humans both as operators 
and controllers will change and become an emergent issue.
    Loss of Intellectual Capital--Perhaps the most important challenge 
is the potential decline of intellectual capital in the U.S. 
Aeronautics enterprise. Much of the historical strength in aeronautics 
was due to the knowledge and expertise in our people. Currently we are 
not stimulating intellectual renewal at a pace which will maintain or 
increase the national capability to deal with the challenges ahead.

What role do NASA's aeronautics programs and strategic plans have in 
fulfilling the Nation's strategic needs in civil aeronautics? How 
effective are NASA's programs in helping to ensure U.S. industrial 
competitiveness in civil aeronautics markets worldwide?

    There is clearly an urgent strategic need to invigorate aeronautics 
research in the U.S. to meet the challenges of the future. As the 
national agency for civil aeronautics research NASA should have a key 
role. However the lack of prioritization of aeronautics within NASA 
puts this at risk.
    Given the limited budget for aeronautics, the aeronautics programs 
are generally aligned with a subset of the strategic needs but are 
unlikely to be as innovative or as effective as necessary to have a 
major impact on U.S industrial competitiveness in civil aeronautics.
    I am somewhat concerned that budget pressure and internal 
evaluation metrics have created an environment where the aeronautics 
research efforts are too short-term focused on products and programs 
and not enough on knowledge and capability which are the critical 
enablers for the long-term competitiveness.
    Regarding the three specific NASA Aeronautics Programs:
    The Airspace Systems Program is well aligned with the future 
capacity challenges to the National Airspace System (NAS) although 
somewhat too focused on developing specific solutions rather than 
general capabilities which can be used to address future challenges as 
they emerge. It is important to recognize that NASA does not implement 
airspace systems and must work collaboratively with the FAA and other 
government agencies as well as industry and international agencies in 
order to be effective. To this end, I am encouraged by NASA's strong 
involvement with the Joint Program and Development Office (JPDO).
    The Aviation Safety and Security Program supports the noble goal of 
increasing aviation safety. The safety element of the program is based 
on a well developed identification of key safety issues. The program 
appears to be open to innovation. The one area which appears under-
represented are issues related to critical software and complexity 
related emergent safety issues. I am less clear what the appropriate 
NASA role is in aviation security and am therefore concerned that the 
security element of the program may be diverting scarce resources from 
other efforts. Again, I am encouraged that the JPDO will be a mechanism 
to clarify the NASA role in aviation security.
    The Vehicle Systems Program has been refocused around four 
technology demonstration projects (Subsonic Noise Reduction, Sonic Boom 
Reduction, Zero Emissions Aircraft, and High Altitude Long Duration 
Remotely Operated Aircraft). Each of these programs address expected 
future challenges and their priority has emerged from a collaborative 
interaction with industry. There is, however, a general concern that 
the focus on technology demonstrations comes at the expense of more 
fundamental research and core technology development in vehicle systems 
and that the national competitiveness in aircraft technologies may 
atrophy as a result.

What effect do you believe NASA's proposed budget (including proposed 
changes in funding, workforce, and operation of wind tunnels) will have 
on its ability to meet the Nation's strategic needs in civil 
aeronautics?

    I am generally dismayed by the magnitude and trend of the proposed 
NASA aeronautics budget. It appears to reflect a lack of commitment of 
the Agency to the future of aeronautics.
    Given the reduced level of investment in the Aeronautics Theme, 
NASA has done a reasonable job at prioritizing facilities and has 
recognized the need to align it's workforce to the challenges of the 
future. While there is clearly a need to reduce the number of NASA 
facilities, this must be done carefully and with a strategic national 
perspective. If done correctly the Nation's future strategic needs will 
be met.
    I am more concerned regarding the ability of NASA to maintain a 
talented and enthusiastic workforce with the skills and interest to 
meet the challenges in civil aeronautics. The workforce actions, appear 
to motivated by budget pressures rather than strategic efforts at 
intellectual renewal. This coupled with a perception of declining NASA 
priority in aeronautics, can create an atmosphere where it is difficult 
to retain and attract the best and the brightest.
    I am also concerned that the declining aeronautics budget coupled 
with fixed obligations and congressionally mandated earmarks have 
reduced the ability of the NASA aeronautics program to pursue 
innovative new ideas and emergent research needs.

What steps should the government take to better address the Nation's 
strategic civil aeronautics needs? If continued research has an 
important role to play, what should be its priorities? How do you 
recommend NASA balance investment in evolutionary research against 
revolutionary, high-risk, high-payoff research?

    I believe that the Nation must recognize the civil and military 
importance of aeronautics and commit to maintaining the health and 
vitality of the national capability in aeronautics. A vital element of 
this capability is a healthy research program which builds core 
knowledge, stimulates innovation, builds intellectual capital, creates 
opportunity and solves emergent problems in the civil air 
transportation system.
    I believe that NASA is most effective when it focuses on 
fundamental issues and longer-term innovative research and hands of the 
results to industry or the operating agencies such as FAA to implement. 
To this end NASA must continue to build close ties to industry and 
other government agencies. The JPDO has the potential to be a conduit 
for this collaboration.
    In terms of priority, I would focus on building the knowledge base 
and national workforce to address the challenges to civil aeronautics 
identified above.
    To this end, I would urge NASA to take more risks and to actively 
stimulate innovation.
    I would also urge NASA to increase the opportunity space in 
aeronautics for new faculty and students through an increased focus on 
small single investigator, projects or grants. The investment is not 
large but the potential for innovation and growth of the Nation's 
capability is huge.

                   Biography for R. John Hansman, Jr.

    Dr. Hansman is currently a Professor of Aeronautics and 
Astronautics at MIT, where he is Head of the Humans and Automation 
Division. He is also the Director of the MIT International Center for 
Air Transportation. He conducts research in several areas related to 
Air Transportation including air transportation systems, flight vehicle 
operations, safety, information technology, human factors and Air 
Traffic Control. Dr. Hansman holds six patents and has authored over 
200 technical publications. He has over 5,000 hours of pilot in-command 
time in airplanes, helicopters and sailplanes, including 
meteorological, production and engineering flight test experience. He 
holds a Type Rating for Lear Jet 20, 30 and 55 series aircraft. He is a 
Fellow of the American Institute of Aeronautics and Astronautics. 
Professor Hansman received the 1996 FAA Excellence in Aviation Award, 
the 1994 Losey Atmospheric Sciences Award from the American Institute 
of Aeronautics and Astronautics, the 1990 OSTIV Diploma for Technical 
Contributions.

                               Discussion

              Aeronautics Planning: Budget vs. Priorities

    Chairman Calvert. Let's get into the question part of the 
hearing. When I was in business, years ago, we would obviously 
put together a business plan, and that would drive our number 
of jobs, our capital outlays, and our budget.
    We would make a determination at that point what would 
occur. It seems, sometimes, as I listen through this, that the 
job level and the budget is driving the business plan here 
some, to some degree. And that the budget right now is the 
determining factor.
    Dr. Lebacqz, how would you evaluate the '06 aeronautics 
budget? Does it match the priorities of the Nation, in your 
opinion?
    Dr. Lebacqz. Sir, let me start by talking about the way 
that NASA develops a business plan, which of course, is 
different than you would have done, but is consistent with the 
way we developed the budget. We are, in fact, engaged in a road 
mapping activity, across the entire Agency. We have developed 
18, I believe the number is, strategic objectives for the 
Agency, and there are 13 roadmaps that are intended to be long-
term guideposts to achieve those 13--those objectives.
    One of those roadmaps is in aeronautics. It is co-chaired 
by my Deputy for Technology, who is here behind me, Mr. Terry 
Hertz, as well as the Chief Technology Officer of the Boeing 
Company, Mr. Jim Jamieson. We use that, in conjunction with a 
lot of other guidance that we get from the aerospace, the 
President's Commission on the Future of Aerospace, from the 
National Research Council, both their prospective studies, such 
as ``Securing the Future of U.S. Air Transportation,'' as well 
as the reviews of our program that my friend and colleague, Dr. 
Klineberg, talked about, to develop the aspects of the roadmap. 
From that, in principle, we then derive budgetary requirements 
to achieve the goals of the roadmap.
    Chairman Calvert. Well, what--before I get into that, why 
don't we allow the other panel to answer that question also. 
I--Dr. Klineberg, I think you probably answered that question 
in your opening remarks, but you can do it again.
    Does the aeronautics budget, in your opinion, match the 
priorities of the Nation?
    Dr. Klineberg. I think you are right, Mr. Chairman, that 
the budget is driving the strategic plan, and not the other 
way, and I don't think that is right. So, my answer would be 
no, that it is not satisfying the needs of the country, because 
we haven't really looked hard at what those aeronautics needs 
are, separately from the budget, and I think my colleagues have 
talked to what some of those needs are, and need to be 
addressed.
    Chairman Calvert. Dr. Anton.
    Dr. Anton. I am probably the most qualified to talk about 
the infrastructure needs, and from that perspective, no, there 
has not been an identification, as of yet, of assured support 
for those facilities that are needed from a national 
perspective.
    Chairman Calvert. Dr. Benzakein.
    Dr. Benzakein. Mr. Chairman, I think we--some of us are 
agreed that it looks like the budget is driving the agenda, 
which is really, in our opinion, the wrong way to go.
    There is unfortunately, and I think some of our colleagues 
said the same thing, we do need an aeronautics mission, an 
agenda, agreed to. And then, after that, you can put a budget 
around it. Here, it seems to say there are that many, that much 
funding available, and then, a mission gets wrapped around it. 
That is really, in our opinion, in my opinion, the wrong way to 
go.
    Chairman Calvert. Dr. Hansman.
    Dr. Hansman. The simple answer is no.

                            Zero Base Review

    Chairman Calvert. The Navy has just gone through a zero 
base review on their operations, the United States Navy, and 
they have done quite, for the Navy, quite a radical change, 
where how they utilize their personnel, how they utilize their 
fixed assets, how they utilize ships, equipment, et cetera. Dr. 
Lebacqz, do you see NASA going through that same type of 
exercise, in order to get as much efficiency and economy and 
productivity out of its working force?
    Dr. Lebacqz. Yes, sir. Thank you for the question. What we 
have done this year, effective the beginning of February, is 
focusing on one set of--one part of our infrastructure, which 
is our set of wind tunnels. We have corporatized, so to speak, 
management of them. I noticed earlier in speech, in some of the 
other testimony today, that people would talk about the Langley 
such and such tunnel, or the Glenn such and such tunnel. They 
are NASA tunnels, and so, we have brought the management of 
them back to headquarters, under a program manager, who is 
responsible across all of the wind tunnels, for assessing the 
pricing policy, assessing the demand, because these are, after 
all, demand-driven facilities.
    Somewhat similar to other zero base reviews, we are trying 
to understand what the demand will be for them from our own 
programs, what the demand will be for them from other programs 
within NASA, and what the demand for them will be from the 
industry, and our colleagues in other agencies. The folks, good 
folks at the RAND Corporation, in the study that Dr. Anton 
mentioned, talked, provided sort of a process to go through, in 
which one can prioritize against a set of criteria the need for 
some of these facilities, and as Dr. Anton mentioned, they came 
up with roughly 31, or 29, I can't quite get the number 
straight in my head, of the NASA facilities that has some need, 
and nine of them, in their view, are critical, based on this 
process.
    We will be doing that again, given the fact that the 
environment is different now than it was three years ago, when 
the study was initiated. But using the same process, but at a 
corporate level, rather than at an individual center level, 
because in those cases, one tends to sub-optimize. There are a 
number of ways, if I could go on briefly, a number of ways here 
that these facilities can be operated differently than they are 
now.
    One of them is through some kind of shared ownership, 
shared pricing. One of them is through transfer of some of them 
to other entities that need them. We are investigating that 
currently, with one of the big tunnels at the Ames Research 
Center, with the DOD, as a matter of fact. Another of them is 
to, if we can corporatize how we operate them, operate them 
differently than we have. For example, take an idea from the 
Navy, of having a cadre of people who are capable of operating 
all the facilities, and move them physically, as needed, to the 
facility that is required.
    So, all of these things are in play, and that is the 
purpose of this corporatizing of the program this year. We are 
going to identify some money that we will pull out into a 
separate program, to give this program manager some leverage. 
It is the government. You have got to follow the money, so you 
need some leverage.

                     Number of Wind Tunnels Needed

    Chairman Calvert. I want to turn it over to Mr. Udall for 
his question, but while we are on the subject of wind tunnels, 
and how many wind tunnels we need, and how many tunnels need to 
be closed, is that decision based upon utilization, or is that 
decision based upon--maybe Dr. Anton, you could answer that 
briefly, and how did you arrive at the 28 versus 30 or 29 or 
whatever?
    Dr. Anton. We found in our research that utilization data 
was very difficult to project into the future, and so, we took 
a much more strategic look at trying to understand the kinds of 
vehicles that----
    Chairman Calvert. So, if you have a tunnel that has zero 
utilization.
    Dr. Anton. Yes.
    Chairman Calvert. It still has value in your mind?
    Dr. Anton. Yes. The question is what kinds of future 
vehicles might need that kind of capability. So, for example, 
the hypersonics program in the country has gone down, but----
    Chairman Calvert. I understand that from the manager's 
point of view, Dr. Lebacqz's point of view, if--going back to 
the old business model. If you have zero utilization, but you 
have an asset that may have potentiality----
    Dr. Anton. Yes.
    Chairman Calvert.--how do you manage that asset? And I 
guess that is something that has to be worked out, but I am 
going to--but I just--trying to understand how you are 
determining what has future value to hold, and what should be 
closed, or what shouldn't be closed. With that, Mr. Udall.

                 Credibility of NASA's Aeronautics Plan

    Mr. Udall. Thank you, Mr. Chairman. I think this line of 
questioning is important to pursue later. I want to just start. 
First, I want to thank the panel, and also, ask your 
forgiveness for the break in the action, but I appreciate you 
being willing to stay with us, because this is a very crucial 
area that we are discussing today.
    Dr. Lebacqz, your testimony, along with that provided with 
other witnesses, makes a persuasive case for the importance of 
aeronautics research. I enjoyed looking at your bio. You have a 
long and distinguished career in aeronautics research. And as I 
mentioned in my opening remarks, you are obligated to put the 
best face on what I think is a bleak situation that NASA's 
aeronautics program faces.
    I have to tell you, I find a real disconnect between the 
NASA testimony and the actual situation. The paragraphs of 
your--initial paragraphs of your written statement talk about 
the great promise of hypersonics, yet the '06 budget eliminates 
funding for hypersonics. The testimony talks about the 
importance of the Aviation Safety and Security Program, yet 
that budget for that program will be lower in 2010 than it was 
in Fiscal Year 2004. The testimony makes a strong case for the 
critical need to modernize the Nation's air transportation 
system, yet funding for Airspace Systems would decline by 22 
percent from fiscal '04 levels. Finally, your testimony makes a 
case for pursuing flight demonstrations of breakthrough 
technologies in four areas, and yet, the funding for the 
Vehicle Systems will be 43 percent lower in 2010 than it was in 
'04. That is even though, and my understanding, the flight 
demonstrations are the most expensive part of the R&D cycle.
    I have to confess, the plan doesn't appear credible to me, 
and I know what your official position has to be, but speaking 
as an experienced professional in aeronautics research, do you 
consider it to be a credible and sustainable plan for the long 
term? That is my first question.
    I want to ask two more. What will the consequences for the 
future of NASA's aeronautics program be if the funding and 
workforce and infrastructure reductions contained in the five-
year budget plan actually come to pass? And then I would like 
to ask the other witnesses if they would like to make any 
comments, Doctor, after you make yours.
    Dr. Lebacqz. There is a lot of points in your question 
there, so maybe I can kind of get at it from the back end 
toward the front.
    Mr. Udall. I apologize for throwing all that at you.
    Dr. Lebacqz. No, that is all right. I am supposed to be a 
rocket scientist. I ought to be able to remember it. I just 
can't. So, let me start, I think a critical point of your 
question has to do with whether the Vehicle Systems program 
being shrunk by 40 percent, with these four demonstrations, is 
a credible program, in my estimation.
    The Vehicle Systems program has been refocused from a 
program that was based on a number of disciplinary activities, 
and sort of the classic disciplines of aerodynamics, avionics, 
materials and structures, propulsion, that were applicable to a 
wide range of vehicles, which the four that we have selected 
were some. There were, I believe, seven concept vehicles that 
we were doing this research for.
    So, I believe that, particularly--let me pick the--I didn't 
really have a chance to talk about them, one of the 
demonstrations is a flight demonstration of reducing subsonic 
noise. That actually is a continuation and completion of work 
that we had initiated, and I don't think there is any question 
but that we will accomplish that in roughly fiscal '08. Another 
one of them is the development of high altitude, long 
endurance, remotely operated or autonomous vehicles for science 
platforms. We have research underway currently, and in fact, we 
have built vehicles that are the beginnings of this type of 
thing, with the Helios vehicle. I think that one is also doable 
within the amount of money that we are talking about.
    Because we are not doing research that is applicable to 
more than just it, as well as a number of other things, we are 
focusing the research on just it. So, I think in general, that 
the--that program is credible. I suspect my colleagues won't 
agree with me, but I believe that program is credible. But the 
concerns that you raised about the Safety and Security program 
and the Airspace Systems program, I think are good concerns. We 
believe strongly, and in fact, it is interesting, the NASA 
aeronautics portfolio, percentage-wise now, compared now to 10 
years ago, is almost 50 percent on these systems kinds of 
research, airspace systems, systems that provide more security, 
more safety in the airplane, and only 50 percent on sort of our 
classic vehicle research.
    We believe that what we have planned out in those areas is, 
will make a significant contribution. We support entirely the 
Joint Planning and Development Office, which--the NASA, the 
FAA, the DOT, the DOD, the Department of Homeland Security, 
Department of Commerce, Interagency Working Group, that has 
been our highest priority all along, and will continue to be, 
to make sure that the national plan for a transformation of the 
national airspace system will occur, and that we have research 
to support that.
    Maybe I over-answered a long question.
    Mr. Udall. I created the problem by asking a long question, 
and you did a very nice job of responding to me, the questions 
I asked, and the points I made.
    Mr. Chairman, I see my time has expired. Perhaps the other 
panelists could--if we don't have a second round, you could 
respond in writing to my question. But let us see how the 
questioning goes from this point on. I think, because Mr. 
Forbes is here, I don't want to take from this time.
    Chairman Calvert. We are going to have a lot of time for 
another round of questions, so--Mr. Forbes, you are recognized.
    Mr. Forbes. Thank you, Mr. Chairman, and thank all of the 
members of the panel, and the toughest thing, for me, in going 
through these budgets, is it is so hard for us to get somebody 
to just walk in here and say that building costs $10 million. 
We need it, but we can't afford it. So, what we see in the 
budget is that we are going to put up a tent, and then, we have 
to figure out whether the tent is really going to suffice, or 
whether you are just trying to not tell us you are not going to 
build the building.

             U.S. Competitiveness and the Aeronautic Budget

    And when I look at your five-year budget runout for 
aeronautics in fiscal year 2006, and I compare that with the 
one submitted last year, it looks like we got a $738 million 
shortfall from fiscal year 2005 to fiscal year 2009 timeframe. 
Now, when I look at our market share dropping in aeronautics, 
as we have talked about. 25 years ago, we were at 90 percent. 
10 years ago, 70 percent. Today, we are at 47 percent, and we 
hear what our friends in Europe are saying, they want to 
dominate aviation sales by 2020. Are we just retreating, and 
just saying okay, we understand we are going to lose that 
battle, and we are not going to go after it? How do these 
numbers tell us we are really making a stab to stay 
competitive?
    Dr. Lebacqz. If I could answer that the way that I did in 
my opening statement, I believe we need a national dialogue on 
that very issue. We need to decide whether we will have a 
policy in aeronautics that is consistent with either side of 
the discussion.
    Mr. Forbes. But does this budget do that? Does this 
budget----
    Dr. Lebacqz. This budget is----
    Mr. Forbes.--not the dialogue, but does it----
    Dr. Lebacqz. This budget is consistent with one side of the 
policy issue that I raised.
    Mr. Forbes. Which is what side?
    Dr. Lebacqz. The side that says that the marketplace will, 
in fact, provide the best outcome.
    Mr. Forbes. But the marketplace has not done that for the 
last 25 years, has it?
    Dr. Lebacqz. That would not be up to me answer, sir.

                  Workforce at Langley Research Center

    Mr. Forbes. The other question I would have for you is, has 
NASA decided internally that the Langley Research Center in 
Hampton is going to be closed?
    Dr. Lebacqz. No, sir.
    Mr. Forbes. If they haven't, then how do we explain to the 
workers there and the people there, when you get these cuts 
from 804, $105 million, fiscal year 2005, $668, fiscal year 
2006, $557, and fiscal year 2007, $479. How do we communicate 
to the engineers and the workforce that we are not trying to 
gut the program there, and force these engineers out? Because 
that is at least the impression that has come across when you 
just look at the raw numbers of the budget.
    Dr. Lebacqz. Congressman, as you know, there are four 
mission directorates within NASA, of which Aeronautics is one. 
Space Operations, there is Exploration Systems, and there is 
Science. We have, in Aeronautics, $100 million less in fiscal 
'06, and $200 million, roughly, less, starting in fiscal '07 
and out. That is less funding for work in aeronautics, and so, 
the centers have made an estimate of what that means to people 
who work, were working in aeronautics at the centers. But that 
does not necessarily mean that those people won't be doing 
other parts of the NASA mission. They just won't be working on 
this part.
    Mr. Forbes. And one last question. As you know, the 
detailed NASA budget justification for each program has a 
section entitled risk management, which describes the possible 
factors that could impede the progress on each project, and I 
am concerned by the fact that the following two risks are cited 
only for aeronautics programs and no other NASA programs in 
this budget. The first one is, it says risk: ``Given the loss 
of critical workforce skills, facilities, there is the 
possibility that costs and schedule may be impeached.'' The 
second one, it says risk: ``Given the possibility that 
competing funding requirements draw funding away from research 
and development, there is a high probability that project 
activities may be de-scoped or eliminated.'' In the first case, 
there seems to indicate that NASA believes the centers that 
perform this work, which are mostly in Langley and Glenn, will 
lose workforce, skills, and facilities, because of these budget 
cuts. And the second case, I was hoping you could maybe 
enlighten me on what it means when it says competing funding 
requirements that draw funding away. What does that refer to? 
Does that--I assume it must mean the Space Exploration 
Initiative, but----
    Dr. Lebacqz. No, sir. I think what that is referring to, 
and I am embarrassed that I don't actually know by heart what 
you are reading from. I believe what that is referring to is 
within our programs, we will use more full and open 
competition, collaboratively, among the centers and the 
industry than we have in the past. We have tended to use so-
called directed research, that goes to a center, and then, the 
center decides to do with it. We will be doing that in a 
different fashion, similar to the way that our Science Mission 
Directorate, and our Exploration Systems Mission Directorate 
operates.
    Mr. Forbes. Mr. Chairman.
    Dr. Lebacqz. That is what they are talking about.
    Mr. Forbes. My time is up, but maybe, we could submit some 
written questions, if Mr. Lebacqz would be kind enough to 
answer those for us.
    Dr. Lebacqz. Glad to do that, sir.
    Mr. Forbes. Thank you.

                     Plans for Wind Tunnel Closures

    Chairman Calvert. I would like to go back to the subject we 
were talking about, and let me preface this by saying that I am 
a restaurant operator, so I know zero about operating a wind 
tunnel, so you are going to have to help me with this, Dr. 
Lebacqz, and the others on the panel. But it would seem to me 
that, as we talked about a business plan, as you mentioned, a 
strategy, a national strategy on aeronautics, should that--
shouldn't we arrive at that first, prior to making a 
determination of which tunnel should stay open and which tunnel 
should close, or have you already made a determination which 
tunnels should close?
    Dr. Lebacqz. We certainly have not made a determination of 
which tunnels should close. We are, as I mentioned, trying to 
understand the requirements this year, but you are also exactly 
correct, sir. That should be best done in the context of a 
national policy.
    Chairman Calvert. The--going back to the--and the reason, I 
guess, that we spend some time on these tunnels is that, 
obviously, a significant part of your employee load is to 
operate the tunnels. And I suspect that the--it is like an 
infrastructure at any major company, depending on your 
utilization rate, how many employees do you have, and how much 
utilization do you have out of these tunnels?
    And that goes back, you know, to laypeople like myself, who 
look at this and say, well, you know, you are not getting the 
great utilization of this, you are not getting the productivity 
out of your employees, but on the other hand, you may have 
science of national importance that doesn't meet a traditional 
business plan. So, I suspect that that may be the case. But is 
there ways that we can operate these tunnels more effectively, 
with employees being able to be shifted from one location to 
another, as you mentioned? And are you looking into that type 
of thing, where you can maximize the number of tunnels that you 
are operating, and maximizing the effectiveness, and the, you 
know, the productivity of your employee base?
    Dr. Lebacqz. Yes, sir. I think, as I mentioned earlier, I 
think that is a very interesting model, that it is an analog of 
ways that other organizations operate some infrastructure. That 
is a reason, again, that we have corporatized the management of 
the tunnels, so that we can look at this from an agency point 
of view, rather than a center-centric point of view.

                            U.S. Competition

    Chairman Calvert. Maybe some of the others can answer this 
question for me. The tunnels that are competing with us, the 
Europeans, in this case, how many tunnels do they have? Does 
anybody know the answer to that question? I mean, how many--
what are we talking about here, as far as our----
    Dr. Anton. Internationally, I don't have a number off the 
top of my head. It is probably in the 50 to 100, I would have 
to go back and count them.
    Chairman Calvert. Internationally, that is worldwide.
    Dr. Anton. Worldwide. The larger size.
    Chairman Calvert. Now, the primary competition at this--at 
the present moment is coming from Europe, I assume. And these 
tunnels are operated by the European Union?
    Dr. Anton. They are operated by private companies. Some of 
them have some relationships with European governments.
    Chairman Calvert. Are they subsidized?
    Dr. Anton. I don't know the answer to the----
    Chairman Calvert. Know the answer to that?
    Dr. Hansman. There is a mix of tunnels. Some of them are 
actually run by government agencies, such as the French ONERA, 
the National----
    Chairman Calvert. Which one is Boeing using?
    Dr. Hansman. I think that Boeing is doing some tests in 
ONERA, and then in the--they are also testing the--I think 
there is a Dutch, Netherlands----
    Chairman Calvert. Question. Is the Europeans subsidizing 
the tunnel that Boeing is using?
    Dr. Anton. The 5 Meter is not subsidized. It is a private 
entity, and Boeing is doing their subsonic----
    Chairman Calvert. It was all private money that went into 
building it, all private money that is operating it? All 
private money----
    Dr. Anton. Only the operation, it used to belong to the UK 
MOD.
    Chairman Calvert. Was it sold at a less than market price 
to the private operation that utilizes it?
    Dr. Anton. I don't know the details on that.
    Chairman Calvert. Dr. Klineberg, you seem to know the 
answer to that question.
    Dr. Klineberg. I do, sir, but I am not an expert in that 
arena. But I--in the space business, I spent quite a bit in 
time in Europe, in consortia, and there are many, many ways 
that the governments, the European governments support their 
aeronautics and space industry, and you have touched on several 
of those, and I think it is a good supposition that--support 
them.
    Chairman Calvert. I find it--if, in fact, it is the case, 
ironic that an American company would be in Europe using a 
competitor's technology in order to compete with the same 
people. That is just----
    Dr. Hansman. Well, I would just like to point out that 
there are--sometimes, there are critical tests that you need to 
do to get the airplane off the ground, and so, you may be using 
that facility because it is the only one available in the 
world, and you are reducing your risk. I know----
    Chairman Calvert. Is that the case?
    Dr. Hansman. That has happened in the past, yes.
    Chairman Calvert. Is that the case in the instance that we 
are using for comparison, in case of Boeing? Is that why they 
are there? Or are they there because of the cost?
    Dr. Anton. In terms of the 5-meter, they were driven there 
when the Ames facility was rebuilt, and there was no 
alternative. Right now, the facility there--they like the 
technical capabilities better there than the Ames 12-foot.
    Chairman Calvert. They like it better because it is a 
better tunnel?
    Dr. Anton. They like the shape better, and some other 
technical differences. It is----
    Chairman Calvert. Again--but I think these are important--
as we move toward a strategy, because at this point, we don't 
have one, apparently. And as we make a determination of how 
many employees we are going to have, or not have, it seems to 
me that these are the kind of questions we are going to need to 
get more in depth on, and some answers on, and I know we can't 
do that in a hearing context. But it is certainly something I 
would like to get more involved in.
    Representative Green, you are recognized for five minutes.

                          Workforce Retention

    Mr. Green. Thank you, Mr. Chairman, and thank you, members 
of the panel.
    I have a special affinity and a kinship with NASA and for 
NASA, I suppose. I used to work for NASA. I had the very good 
fortune of working for NASA as a co-op student, and it was very 
helpful to be there, and to work with some of the scientists 
and engineers as they were performing stellar services for our 
country, and in fact, for the world. So, I salute you, and I 
thank you for coming in, and giving us this very important 
information.
    We all agree, I am sure, that space travel is inherently 
hazardous. A concern that I would want someone to address, and 
I am not to sure to whom I should pose the question, but a 
concern that I have has to do with the R&D and the exemplary 
technical standards that we have adhered to. Are we going to 
lose something in the quality of our exemplary work by losing 
so many valuable and talented minds?
    Dr. Lebacqz. Well, sir, I will have a shot at that. I think 
the answer is no. NASA has, as a result of the Columbia tragedy 
two plus years ago, instituted a couple of new entities to 
ensure, in fact, that we maintain the highest standards of 
safety and engineering discipline, and ensure that they remain 
within NASA. Excuse me. One of those is the NASA Engineering 
and Safety Center, which is, in fact, located at, in NASA 
Langley, but is an Agency-wide activity that provides 
independent, as-required, engineering and safety analyses of 
aspects of, specifically, right now, our return to flight 
endeavors.
    Additionally, we have, only within the last two months or 
so, initiated under our new Chief Engineer, Rex Geveden, 
something called the Independent Technical Authority, which 
will be the best people at our various centers, who are given, 
so to speak, warrants to go and check independently that safety 
and engineering standards are, in fact, at the highest quality. 
And those people will be retained and maintained throughout any 
activities that we do, as long as we are going to be flying 
either the Shuttle of any of my airplanes, for that matter.
    So, I understand the concern. When people leave, you always 
worry about what is leaving, but in those particular--in that 
particular area, both of these entities are in place to do our 
best to ensure that doesn't happen.
    Mr. Green. I greatly appreciate the assurance, and I thank 
you, Mr. Chairman, for the time.
    Chairman Calvert. If you would like, if any of the other 
panel would like to address that issue also. It looked like Dr. 
Hansman----
    Dr. Hansman. I would just say that I think that we can 
manage through loss of some people. My concern is whether new 
people are going to be coming in. So, in the future, will there 
be opportunities for co-ops, like you had, in aeronautics. Will 
we have opportunity path to bring our people in, to have them, 
potential for the future? Because my concern is not next year 
or two years, my concern is 10 years.
    Mr. Green. Thank you very much. Mr. Chairman.
    Chairman Calvert. I thank the gentleman. The gentlelady 
from Texas.
    Ms. Jackson Lee. First of all, let me welcome the new 
chairman and Ranking Member of the Committee, and we are in the 
middle of marking up the bankruptcy bill in Judiciary, so I 
appreciate the witnesses understanding that two important 
proceedings are going on at once, and if the bells ring, that 
means they are saying that my amendments are before the 
Committee, and I am not there.
    But it emphasizes the importance of this hearing. I have 
been a Member of this committee now for a decade. And I believe 
my advocacy has been consistent in what I believe is a key 
element of the aeronautics industry, the aeronautics 
opportunity, which would include, of course, my commitment to 
the human Space Shuttle, which is a little distinctive, but 
also, my view of the industry, compared to how it is treated in 
Europe, which is that it is an industry that is clearly one 
that is protected and provided for. I am--want to share some 
thoughts with you, and then, allow you to comment on this 
thrust that we are in.
    In the course of supporting NASA, I have offered several 
commentaries that don't pertain directly to its operations, but 
it, hopefully, contains--pertains to its embrace. One, if there 
is no science with aeronautics or human spaceflight, then what? 
I think the two must go hand in hand, and that means that the 
International Space Station should be a place of scientific 
research and study. Whether it means that we create the next 
generation of machines, the next generation of bioresearch, 
medical research, homeland security. I think you are well aware 
of the reports, although late, about the possibility of having 
detected the tsunami after the fact. We understood there might 
have been that capability. How tragic and sad, if it was, and 
we were not aware.
    I remember the debates of saving NASA right after I came to 
Congress. The preceding term, NASA's budget passed by one vote. 
We turned the corner in 1995, and begin to show that NASA and 
its spaceflight meant something to the average citizen, that 
there was HIV research, that there was heart disease, there 
was--or research dealing with heart disease and stroke and 
cancer. In fact, we had a partnership with the Texas Medical 
Center. We are not going to continue even with the excitement 
of a vision, to find stakeholders, if we do not add R&D, or 
make sure that we are combining those efforts. That is my first 
point. The second is that we cannot have a good, strong program 
without safety.
    I hope the Chairman of this committee will read some of the 
materials that I will be providing to him. I know that he has 
heard me comment on this, and I hope that we will have a 
hearing, either in the Full Committee, or in this subcommittee, 
simply on the question of safety. Safety cannot be judged or 
regulated by the recent newspaper articles, or the lack of 
oxygen, or lack of quality of air, or lack of water, or lack of 
this or that at ISS. That is how we get our information. There 
should be a Gehman's Report similar to what happened in 
Columbia VII. In addition, as Columbia VII becomes a backdrop 
to safety, have we really answered all of those questions, and 
have we truly vetted the space program as it proceeds?
    The other aspect of it is generally looking at aeronautics 
in general, and to not lose the competitive edge to our 
European colleagues on this question of producing the next 
state of technology in aeronautics. And under that particular 
concept, I would just simply say this. This industry should 
begin to look in diversity. Historically black colleges, 
Hispanic-serving colleges, minority businesses, to embrace 
those entities, so that we can expand the stakeholders, those 
who are understanding the industry, and those who can possibly 
move it into the 21st Century.
    So I would welcome, in my short time that I have, I am not 
going to pose questions. I will review your testimony. But in 
the short time that I have, I would be interested in, Dr. 
Hansman and others, if you would just comment briefly on this--
these concepts that I have offered to you.
    Dr. Hansman. Well--thanks. I agree 100 percent. We really 
need to maintain the core research and development capability. 
That is going to be the heart of our ability to respond to the 
problems in the future. I think that safety is clearly a key 
issue, and in fact, you can point to contributions NASA has 
made to safety issues, such as responding to wind shear and 
other aviation weather hazards. I think we need to keep that 
going.
    And I agree with you 100 percent that investing in our 
people, and going to nontraditional sources, to build up the 
strength in places like the historically black colleges, in the 
aeronautics is a real opportunity that we should take advantage 
of.
    Ms. Jackson Lee. Doctor, if I may just get the NASA 
representatives to comment on the issue. I thank you for 
indulging me, Mr. Chairman.
    Dr. Lebacqz. Yes, ma'am. Let me start with the maintaining 
the competitive edge. Competitive edge is a policy issue. If we 
have a national policy in aeronautics that says we will, as a 
country, invest in this arena as one of our niche areas, to 
maintain a competitive edge, then we will be able to do that 
more clearly than we are now.
    I agree entirely with your concern about where the ideas 
come from. In my Mission Directorate, we have put in place this 
year something called a Council of Deans, which has deans from 
15 engineering schools throughout the country, big ones, little 
ones, historically black ones--Tuskegee is one--who are 
supposed to help inform me of what our programs need to do to 
encourage education in aeronautics in the universities, and 
vice versa, I will be informing them of the kinds of curricula 
changes they should have to re-engage students in aeronautics. 
So, I think that is a critical thing, a fundamental thing, I 
did that as soon as I became the Associate Administrator a year 
and a half ago.
    You asked about Columbia, and whether we are, in fact, 
following through, we as an agency are following through on the 
Columbia Accident Investigation Board. As I know you have been 
told and heard in other hearings, we believe, and are working 
assiduously to ensure that we meet every single recommendation 
and requirement from the Columbia Accident Investigation Board, 
and we will not fly the Shuttle again until we do.
    There are a whole host of discussions one can get into 
relative to that, but the fact is we are not flying that 
machine until we all believe that it is safe. We have gone 
through a culture change activity. I think that may have been 
breached at a previous hearing, to ensure that people who think 
there is an issue with safety are able to raise it without fear 
of reprisal. And I believe that that, and that activity has, in 
fact, been quite successful. God knows I am getting more emails 
than I used to get. So, I think the answer to that question is 
pretty clear. As John mentioned, in my programs, in the 
aeronautics research programs, our work in aviation safety has 
led to assessing wind shear. It has led to these synthetic 
vision systems, that will allow us to fly in bad weather, and 
be able to see better. It has led to putting turbulence 
detectors on commercial aircraft, so that we can sense ahead 
whether the airplane is going to be upset, and somebody will be 
hurt. That is a fundamental part of what we are doing.
    Chairman Calvert. I thank the gentlelady. Appreciate it.
    Ms. Jackson Lee. Thank you very much.
    Chairman Calvert. Let us see. I think I am next. Or is it 
the gentleman from--Mr. Udall, yeah, I think he did the second 
round, and----
    Mr. Udall. Thank you, Mr. Chairman. I asked, my initial 
round, Dr. Lebacqz, his impressions, and I want to turn to the 
four of you, I think start with Dr. Hansman, I will restate the 
question. We will come across, and--if I get done quickly, you 
each should have about a minute, within a five-minute context.

                     Effects of the Budget Proposal

    I had asked what would the consequences be for the future 
of NASA's aeronautics program if the funding and workforce and 
infrastructure reductions contained in this five-year budget 
plan actually come to pass?
    Dr. Hansman. I think it is clear, because of the cutbacks, 
that the national capability represented by NASA will be 
reduced, and I think that--I personally have concerns as to 
whether we will be able to meet challenges that are going to 
emerge in the future, some of which we can't predict right now.
    Mr. Udall. Dr. Benzakein.
    Dr. Benzakein. I would agree with that statement. I do 
think, in addition to that, I am not sure this is a second 
question, but the competency is going down in Vehicle Systems. 
You did mention a serious reduction in Vehicle Systems. This is 
exactly where Europe is going to give us a very, very strong 
competition. But I do think this reduction really drives to the 
heart of the problem we have. In addition to that, Europe, in 
addition to putting more money on these programs, really has 
put together a consortium of university and academia, to really 
address that. And the universities is leading this effort in 
defining those programs. And that, really, has driven the right 
balance between short and long range, which I don't see 
happening in this country.
    Mr. Udall. You would say that, I was reading the comments 
of the EC, the European Commission's multiyear initiative, and 
they not only have put words on paper, but they are putting 
resources behind their efforts.
    Dr. Benzakein. Absolutely.
    Mr. Udall. Dr. Anton.
    Dr. Anton. I would just like to add that the management 
and--efforts that NASA is pursuing, I think make a lot of 
sense, and go a long way to helping out. The only question I 
guess I would raise with--relative to workforce and 
infrastructure is to emphasize the fact that capabilities for 
test facilities isn't just a hardware issue. It is also the 
workforce issue, and so, there--if we do lose workforce 
capabilities, that--there is a degradation in that capability. 
You can't just simply just mothball and preserve it in that 
level.
    So, the question ultimately comes down to how long a range 
does NASA, is NASA resourced so that they can look out, and try 
to preserve things that maybe not--may not necessarily fit and 
support current research programs, but would allow them options 
later on to add new programs, as opportunities arise.
    Mr. Udall. Dr. Klineberg.
    Dr. Klineberg. Yeah. Thank you. I am concerned, also, about 
this--the consequences of the infrastructure, but I believe 
NASA aeronautics is doing what they can within the budget. If 
you will, I would just like to quickly remember an anecdote 
from my career in NASA.
    Some time in the mid-80s, there was a very clever guy down 
at Langley, Richard Whitcomb, who was working in the 7 by 10 
tunnel, I believe, which he was responsible for, and he was 
filing away the wings, and trying different concepts, and he 
came up with the idea that if, instead of having a wing be one 
plane, if you put aerodynamic devices at the wingtip, he called 
them winglets, you could improve the lift of the commercial 
airplanes. The industry was pretty negative about that, gosh, 
we can't do that, and we have problems, you know, there were a 
lot of reasons not to do that, and you now go to any commercial 
airplane in the world, and they have winglets. They have these 
things on the tips that vastly improve the efficiency of the 
transportation system, reduce the amount of fuel import, all 
sorts of public goods, come from that invention that was made 
in a tunnel, that was used only for in-house work, was not used 
in the way we are talking here, to support industry or specific 
programs, and resulted in a breakthrough that was very 
important.
    And there are many other like that. The problem you are 
asking us now, and I think Mr. Anton and John Hansman said it, 
is you try to project from the future, make decisions now to 
project from the future, is very difficult. Thank you for your 
indulgence.

                        Aeronautics Funding Cuts

    Mr. Udall. I see my time is beginning to expire, and I 
didn't want to leave Dr. Lebacqz alone in this next round. I am 
going to make a comment, and we will see if there is a chance 
for you to respond.
    As I understand, part of the budgetary problem is that 
aeronautics had a sort of almost a third of the cut that the 
White House made to NASA's budget plans from--for fiscal year 
2006 through 2009, and it is a puzzling allocation, because 
aeronautics, as I do the numbers, only represents about one-
seventeenth of the NASA budget. Would you care to comment on 
why aeronautics took such a large share of the overall cut?
    Dr. Lebacqz. The change in the budget from the fiscal '05 
runout to the fiscal '06 request is a difference of a projected 
increase of 5.8 percent from '05 to '06 in the '05 runout, and 
an actual 2.4 percent. The Agency believed that we should try 
to contribute, also, to the reduction in the deficit of the 
country, and so, what we asked for was actually less than in 
our previous runout. Within that, three Mission Directorates 
actually received less money than they had in the runout of the 
'05 budget, of which I am one. In our case, our runout was 
flat, so receiving less means that we ended up getting less. In 
the case of the other two, receiving less was just less than 
the request would have been, but was still an increase.
    That is about as far as I want to go with answering that 
question.
    Mr. Udall. Yeah. I----
    Dr. Lebacqz. In fact, what I just told you----
    Mr. Udall. I appreciate, in conclusion, the hard work you 
do, and I still would stick by my statement that you have a 
thankless task to come up here to the Hill and justify what I 
think are worrisome cuts in a--the sort of endeavors that I 
think are equal in importance to the space exploration programs 
that we all support, and we have heard, I think, very 
eloquently, why. It is national security. It is economic 
opportunity. It is maintaining our workforce, exciting young 
people to stay in engineering and math and technology fields, 
and for all those reasons, I just want to again say I am very 
concerned about the direction in which we are heading. I thank 
the panel.
    Dr. Lebacqz. Thank you, sir, and again, that is why I am 
open, we in the Agency are open to a policy dialogue, across 
the country. There are certainly a number of areas in which 
breakthroughs in aeronautics are still waiting to be found, 
including hypersonics, which was one of your original parts of 
your question that I never got to, including rapid 
demonstrations of transforming the national airspace system 
through far more airborne autonomy, and a variety of other 
things. So, that is why we need this policy dialogue.
    Chairman Calvert. I thank the gentleman. Just a couple of 
quick questions before we wrap this up. Dr. Klineberg, in your 
study, the National Academy of Sciences, what did they have in 
mind when they said ``disposing of underutilized facilities?'' 
Mothballing, shutting down completely, or what do you mean by 
that?
    Dr. Klineberg. We were just recognizing budget realities, 
and realized those are a very--they are really expensive, some 
facilities. And where there were facilities which were truly 
duplicative, either of air force capability, or within NASA, we 
thought, obviously, those needed to be shut down. But we didn't 
look in detail. We urged NASA to do a study, and I know the 
RAND Corporation, and my colleague here, Dr. Anton, in fact, 
did that study, to take a look at those facilities.

                              Hypersonics

    Chairman Calvert. Dr. Lebacqz, you mentioned hypersonics 
just a second ago, and had I ever had him on the Armed Services 
Committee, and obviously, this has some--obviously some defense 
capability, potentially. How is DOD reacting to this, these 
potential cuts? Have you heard from their compadres over there? 
What do they have to say about that?
    Dr. Lebacqz. I have a meeting this Friday, sir, with Dr. 
Sega, DDR&E, on this subject. As you may have read in the Post 
this morning, the--DARPA is moving forward with the Falcon 
program, which is taking some of the things that we learned 
from the X-43, and trying to take them to the next step. But we 
will be having discussions with Dr. Sega on this subject.
    Chairman Calvert. And how would you describe your 
coordination with the Department of Defense, as of late?
    Dr. Lebacqz. It is not as good as I would like it to be.
    Chairman Calvert. Is NASA still involved, to any 
significant degree, in some of the black operations that the 
Department of Defense is involved in?
    Dr. Lebacqz. I probably can't answer that.
    Chairman Calvert. I mean, we are not asking you to describe 
the program, just whether or not--is there----
    Dr. Lebacqz. Yes. We have. Yes.
    Chairman Calvert.--still--okay. Okay. Dr. Griffin, I know, 
our new Administrator, is coming on, has very much been 
involved in all of this, and we are certainly looking forward 
to his involvement in this. Wrapping this up, I am looking 
forward to us working toward a vision on aeronautics, as we 
move toward these budget cuts. If that is what we are going to 
do. And before, I think you are right, we have got to get the--
we can't have the tail wagging the dog here. We are going to 
have to work out something that makes more sense, I think.
    I certainly appreciate this panel. I certainly appreciate 
your spending the time with us today. And with that, we are 
adjourned.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by J. Victor Lebacqz, Associate Administrator, Aeronautics 
        Research Mission Directorate, NASA

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  On May 3, 2005, you provided the Committee with a White Paper on 
the Aeronautics Test Program that outlines your plans for NASA wind 
tunnels in Fiscal Year (FY) 06 and beyond. What steps need to be taken 
for this plan to be formally approved and put into effect? When do you 
expect that process to be completed?

A1. As part of our FY 2007 budget formulation process, NASA is 
considering initiation of the Aeronautics Test Program. The 
deliberations within the Administration will culminate in the FY 2007 
budget submission to Congress in February 2006.

Q2.  The White Paper describes NASA as ``in general, concur[ring]'' 
with the recommendations of the RAND study of wind tunnels. Yet 
clearly, the White Paper plan prioritizes wind tunnels quite 
differently than RAND did, as the White Paper apparently considers the 
rate of use of a tunnel as the primary classification criteria. Why did 
you decide to reject RAND's notion that NASA needed to take into 
consideration the uniqueness of facilities and potential future 
national needs?

A2. The Aeronautics Research Mission Directorate (ARMD) has, or is 
attempting to respond to the RAND study's eight conclusions and six 
recommendations, including the development of an aeronautics test 
facility plan, providing institutional (shared) funding to alleviate 
the full-cost recovery burden from individual customers, maintaining 
and investing in a minimum set of test facilities, etc. We diverge from 
the RAND study with regards to our current selection of the ``minimum 
set'' of ground test facilities that we believe to be important to 
sustain for the future of NASA and the Nation's aeronautics needs. RAND 
assessed 31 ground test facilities. NASA currently considers six of the 
31 to be critical to sustain in full operational status. Ten of the 31 
are to be kept in standby and used as needed, two are to be mothballed 
because while we agree with RAND regarding their criticality, there is 
simply no present or projected future work, four are to be closed, and 
the other nine facilities that RAND assessed are to be maintained by 
the field centers, without direct financial support from the ARMD. 
These nine are mainly small, lab-type, hypersonics and engine test 
facilities. During the current hiatus in hypersonics and turbomachinery 
research by NASA, the Centers are most likely to not use these 
facilities. At the same time, we do not anticipate that anything 
irreversible will be done to these facilities which would preclude the 
Agency from operating them future.
    We assessed and then categorized the facilities based on 
utilization, facility uniqueness and future national need. Assessing 
both utilization and national need allowed us to consider the needs of 
NASA Aeronautics, other NASA mission directorates, DOD, other 
government agencies and the U.S. industry. Keeping the National 
Transonic Facility in an operational status is an explicit 
acknowledgement that the Nation's only flight Reynolds Number wind 
tunnel, while not currently utilized by NASA Research Programs, is of 
critical national importance. Similarly, many of the facilities that we 
will put into standby have unique performance characteristics which 
make them indispensable from a national perspective. So while NASA does 
not currently need these facilities to meet Aeronautics Research 
program requirements, we are committing NASA Aeronautics funding to 
sustain these facilities, for the very reasons that RAND recommended. 
Lastly, it should be noted that RAND defined nine NASA test facilities 
that they deem to be ``detrimental to close.'' All of these nine 
facilities are being maintained by NASA in either operational, stand-
by, or mothball conditions.

Q3.  The White Paper states that NASA will be running a University 
Research Project funded ``at one percent of the `after tax'.'' Please 
describe what this means and what level of funding is anticipated for 
the University Research Project in FY06. Would you expect the 
University Research Project and the $1 million in university funds in 
the Aeronautics Test Program to be all the money available for 
universities from the Aeronautics Research Mission Directorate (ARMD)?

A3. The tax referred to are the Agency Corporate General and 
Administrative (G&A) costs and the Mission Directorate budget required 
to fund Mission Directorate operations. Approximately 10 percent of the 
FY 2004 aeronautics budget ($106M of the $1,056M aeronautics budget) 
went to universities. The estimate for FY 2005 is also projected to be 
about 10 percent. For FY 2006, NASA anticipates that approximately 10 
percent of $852M (or about $85M) will be with universities. The 
University Research Project that NASA is considering would enable NASA 
to seek from the university community revolutionary ideas for 
aeronautics research that would not otherwise be possible if the 
research were tied directly to the individual programs. If implemented, 
this project would be part of the $85M.

Q4.  How did NASA determine how many employees it would cut from the 
ARMD in FY06? Were these cuts made pursuant to any strategy or were 
they just a budgetary calculation? How will NASA determine which 
employees to cut?

A4. Future ARMD workforce requirements at the NASA Centers were derived 
as an integral part of the overall strategy for realigning the 
Aeronautics Research program. As in any fiscal year, the process of 
projecting future aeronautics-related workforce levels (and facility 
needs) at the Centers began with the programmatic requirements 
established by the Agency through the annual programming and budget 
development process, culminating with the preparation of the FY 2006 
President's budget as submitted to Congress. The FY 2006 NASA budget 
reflects a major transformation in both the content and conduct of the 
Aeronautics Research Mission Directorate's programs. With respect to 
content, the ARMD program, in particular the Vehicle Systems Program, 
has been transformed to focus on four ``barrier-breaking'' technology 
demonstrations, emphasizing higher-risk research where the private 
sector will not optimally invest due to risk and anticipated rate of 
return (as opposed to more near-term development programs that are 
typically the purview of the private sector). With respect to conduct, 
ARMD will be placing a renewed emphasis on realizing best value for the 
taxpayer's investment through a combination of competition models. One 
aspect of the increased use of competition is expected to be a greater 
contribution by the private sector to the conduct of NASA's aeronautics 
research.
    Both of the changes in strategic direction (i.e., content and 
conduct) have the potential for a substantial impact on the NASA 
workforce. Having established the transformed programmatic 
requirements, ARMD--working with the Centers and the Agency's human 
capital planning community--quantified the impact on workforce 
requirements of the combination of a more focused research effort and 
an increased private sector role. This impact was defined both in terms 
of numbers of employees and in terms of specific skill mixes required 
to implement anticipated programs. Workforce numbers and skills that 
did not fall within the revised set of Aeronautics-related program 
requirements then became the basis for future human capital actions 
including buyouts and reassignments.

Q5.  The proposed budget for FY06 reflects a decision to move away from 
incremental subsonic research. Has NASA assessed the impact that would 
have on the U.S. aircraft manufacturing industry? What is the evidence 
that this work would be funded or carried out elsewhere?

A5. To ensure maximum benefit to the taxpayer, we are transforming part 
of our investment in Aeronautics Research investment in order to more 
sharply focus the investment on revolutionary, high-risk, ``barrier 
breaking'' technologies. Toward this end, the NASA Aeronautics Vehicle 
Systems Program (VSP) has been refocused away from evolutionary 
research and technology development and toward more key revolutionary, 
``barrier-breaking'' technology demonstration projects that address 
critical public needs related to reduction of aircraft noise and 
emissions, and enable new science missions. NASA's assessment is that 
the revolutionary technologies developed within the next decade will 
form the basis for a new generation of environmentally friendly 
aircraft and will enhance U.S. competitiveness 20 years from now. The 
work that was terminated to refocus the program is carried out 
elsewhere. One example is the recent General Electric Aircraft Engines 
announcement regarding the capability of their GEnx aircraft engine. 
The following is extracted from GEAE brochures:

         ``The GEnx engine will achieve dramatic gains in fuel 
        efficiency and performance with significantly lower emissions 
        than other engines in its class. And the GEnx is the quietest 
        large commercial engine we have ever produced.

         ``And by incorporating our most advanced combustion technology 
        ever, the result will be an engine that will produce fewer 
        smog-causing emissions than the maximum allowed by 2008 
        international standards (94 percent fewer hydrocarbon emissions 
        and 57 percent nitrogen emissions), while consuming at least 15 
        percent less fuel than the engines they replace.

         ``With the use of our unique, super high bypass composite fan 
        design, these same aircraft are expected to be 30 percent 
        quieter than today's GE-powered aircraft.''

Q6.  You have stated that hypersonics would be one of your top 
priorities if money were restored to the ARMD budget. Why is that a top 
priority? Are hypersonic aircraft likely to be used for commercial as 
well as military purposes? What is the basis for your answer?

A6. A hypersonic technology demonstration is one of several candidates 
that would be considered following completion of the current set of 
demonstrations identified in the FY 2006 President's Budget Request for 
aeronautics research. Examined for many years, hypersonic vehicles 
provide the potential for low-cost, reliable access to low-Earth orbit. 
NASA's interest is for long-term civilian purposes, however, the 
military may find applicability for this type of vehicle. NASA's recent 
success with the Hyper-X, in which a scramjet was flight demonstrated 
at Mach 7 and 10, is the culmination of this work. However, many 
breakthroughs are required before routine hypersonic access to space is 
realized. Low-cost reliability means that these vehicles would 
accomplish many take-offs and landings; NASA's success to date is 
limited to two 10-second flights. Much research and technology work 
remains to develop engines and airframes, particularly in high-
temperature materials and propulsion. Due to these challenges, a 
hypersonic demonstrator is of potential interest.

Questions submitted by Representative Bart Gordon

Q1.  Administrator Gregory's recent testimony to the Science Committee 
indicated that NASA has established ``core competencies'' at each of 
the NASA Centers that ``must be maintained in order for the Agency's 
mission to be achieved.'' I understand that NASA headquarters has had 
each of the Centers do an assessment of the ``health'' of their core 
competencies, that is, an assessment of whether any core competencies 
are at risk of being lost or degraded.

Q1a.  What have the aeronautical research Centers--Glenn, Langley, 
Ames, and Dryden--reported regarding the health of their core 
competencies?

Q1b.  Have any of those Centers reported that their core competencies 
are at risk? If so, where, and what competencies have they identified 
as being at risk?

Q1c.  What will NASA Headquarters do in response to those assessments? 
Is NASA prepared to request additional funding to deal with the 
problem?

A1a,b,c. Of the thirteen approved NASA core competencies located at the 
four Research Centers (ARC, DFRC, GRC and LARC), six are associated 
with the Aeronautics Research Mission Directorate. These are Air 
Transportation Management Systems (ARC), Atmospheric Flight Research 
and Test (DFRC), Aeropropulsion (GRC) and Aerosciences, Aerospace 
Materials and Structures, and Systems Analysis/Engineering and Safety 
(LARC). It should be noted that the three Langley core competencies 
also provide substantial support to all of the other NASA Mission 
Directorates.
    Following the identification and assignment of these core 
competencies, each Center completed an initial assessment of the health 
of each competency. This assessment consisted of an initial estimation 
of the minimal investment (in people and facilities) required to 
sustain the competency, coupled with programmatic guidance from the 
four Mission Directorates regarding anticipated requirements for each 
competency. Based on this initial assessment, the Centers reported that 
all but one of the six aeronautics-related competencies faced potential 
challenges beginning in FY 2005 (the exception being the Systems 
Analysis/Engineering and Safety Competency at LARC). In FY 2005, the 
primary factor behind a less than fully healthy assessment was the 
accommodation of Congressional interest items (necessitating reductions 
at the Centers to create funds for out-of-house contract awards); in FY 
2006 and out the primary factors were changes in Mission Directorate 
requirements.
    There are still three important steps remaining in the first round 
of the NASA Core Competency activity. First, each of the Mission 
Directorates (including ARMD) is engaged in a dialogue with each Center 
that has a related performing competency regarding the sizing of the 
minimal sustainment level. Second, each of the Mission Directorates 
continues, as part of the FY 2007 budget development process, to update 
and clarify its anticipated programmatic requirements. Once these first 
two steps are completed, the Agency will be able to complete a final 
assessment of the projected health of each competency. As the third 
step, strategies for dealing with any identified shortfalls in the 
suite of NASA core competencies, for example additional Mission 
Directorate or Agency investment, will be developed and dispositioned.

Q2.  The NASA FY 2006 budget book discussion of NASA's Aviation Safety 
and Security program states that ``Given the loss of critical 
workforce/skills/facilities, there is the possibility that cost and 
schedule may be impacted.''

Q2a.  What is the reason for the loss of those critical workforce/
skills/facilities?

Q2b.  Are they considered ``excess competencies'' by NASA? If so, why?

A2a,b. The section that is quoted is identifying the risks that the 
program may encounter throughout its life cycle. As part of a risk 
management plan, the program develops a mitigation strategy for each of 
these potential events even though they are not currently an issue that 
needs to be actively worked.
    Loss of critical capabilities can occur for a myriad of reasons 
including personnel turnover and skill mix, which is a normal process 
for any long term program, (e.g., retirement, illness, new job 
opportunities, etc.) whereas facility issues are normally unique, such 
as breakdowns, multiple users vying for the same time, etc.
    While the in-house skills and facilities are not excess, it may be 
possible to accomplish the mission in an alternative manner if one is 
lost or not available.
    As an example, the LARC 757 research aircraft is a one of a kind 
facility that is used to flight test aeronautical technologies. When 
this aircraft encountered an extended safety stand down, the Aviation 
Safety Program worked with airlines, aircraft manufacturers, etc. to 
install and test NASA technologies on their vehicles. This resulted in 
NASA technologies being flight tested without noticeable impact to the 
original schedule even though a critical capability was not available. 
As a bonus, these technologies were tested in an actual operational 
environment, which enhanced the technology transfer process.
    Similarly while personnel turnover is a normal activity, outside 
forces may result in a significant local loss of personnel that will 
have to be mitigated by use of other NASA, academia, or industry 
assets. This may result in financial and cost impacts for the program.

Q3.  Your budget shows a five-year funding plan for Vehicle Systems 
with a focus on four breakthrough technology flight demonstration 
projects. Please provide the funding profile for each of the four 
Vehicle Systems demonstration projects over the five-year period, as 
well as over the life of each project that extends beyond the five-year 
period covered in the FY06 request. Please provide the specific 
milestones for each project, as well as the specific accomplishments 
anticipated at the end of the five-year period and at the completion of 
each project.

A3. The Vehicle Systems program will demonstrate revolutionary 
technology concepts through flight demonstrators that are beyond the 
scope of conventional air vehicles. Preliminary plans are to focus on 
the four specific projects that are described. Over the next year, the 
program will work with the aeronautics community to define the scope of 
the overall program. To initiate this discussion, preliminary 
milestones have been developed for planning purposes. These preliminary 
estimates are detailed below for each of the four projects.
    Estimated budget:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Subsonic Noise Reduction: Continues the barrier breaking research for 
reducing airport noise. A demonstration of noise reduction technologies 
for large transport aircraft will establish a significant milestone 
toward keeping objectionable noise within airport boundaries. The 
demonstration will include advanced engine and airframe noise reduction 
approaches as well as innovative continuous descent approaches to avoid 
the objectionable changes in engine speed as an aircraft approaches the 
airport.
    Subsonic Noise Reduction will by the end of FY 2008 identify those 
technologies that will contribute to a validated 10dB reduction, and by 
the end of FY 2009, identify those technologies that will extend that 
validated noise reduction to 15dB.

Sonic Boom Reduction: If nothing is done to break the barrier of 
supersonic flight overland, it will take just as long to fly across the 
country in the third century of flight as it did halfway through the 
first century. The barrier to high-speed flight is defining a sonic 
boom level that is acceptable to the general public, and designing an 
aircraft top reach that level. On recent successful flight validation 
of the theory that by altering the contours of a supersonic aircraft, 
the shockwave and its accompanying sonic boom can be shaped resulting 
in a greatly reduced sonic boom signature on the ground. Work will 
investigate the formation of shaped waves and the human response to 
shaped waves to allow developing an acceptable regulatory standard. The 
Sonic Boom Reduction will culminate with a flight demonstration of a 
low boom vehicle by the end of FY 2010.

HALE: NASA opened the doors to high altitude flight when it 
successfully demonstrated the Helios. NASA will extend this 
accomplishment through a series of high altitude long endurance 
aircraft that will extend duration, range and payload capacity. The 
first breakthrough will be a 14-day duration aircraft that flies at 
over 50 thousand feet prior to the end of FY 2008, followed by a flight 
demonstration that will achieve a 30-day endurance flight demonstration 
by the end of FY 2010.

Zero Emissions Aircraft: Conventional turbo machinery powered by fossil 
fuels can only incrementally address the need to reduce harmful NOX and 
CO<INF>2</INF> emissions from aircraft. A breakthrough demonstration of 
an all-electric aircraft propulsion system will be the first step 
towards an emissionless aircraft. NASA intends to conduct zero 
emissions flight demonstrations mid-FY 2010.

Questions submitted by Representative Mark Udall

Q1.  Why did NASA decide to discontinue rotorcraft research, despite 
the National Research Council's recommendation that ``NASA should 
conduct research in selected areas related to rotorcraft''?

A1. NASA has transformed the Vehicle Systems Program to focus on key 
barrier-breaking demonstrations. While none of the initial set is a 
rotorcraft follow-on, the mission directorate continues to monitor 
advances in rotorcraft technology and maintains communication with the 
industry (through the American Helicopter Society) and the Army in the 
event that similar barrier-breaking opportunities arise.
    More specifically, the Aviation Safety & Security Program continues 
to examine ways to extend fixed-wing aircraft technology development, 
such as synthetic vision and weather information systems, to 
rotorcraft. This was the specific recommendation of the NRC.

Q2.  Please provide the five-year NASA funding profile required to meet 
the objectives of the JPDO Integrated Plan. How does that compare to 
the five-year funding plan for NASA's Airspace Systems program?

A2. The JPDO is still in the process of developing the integrated 
roadmap for the Next Generation Air Transportation System (NGATS). The 
integrated roadmap should be completed by the end of the calendar year. 
Until such time, the specific funding profile required to meet the 
NGATS plan is unknown. Once the funding requirements are known, NASA 
will review its Airspace Systems Program to ensure appropriate 
alignment.

Q3.  In 2001 NASA and DOD entered into a joint National Aerospace 
Initiative (NAI) that identified hypersonic research as an important 
focus for both near-term and long-term efforts. Furthermore, your 
testimony at the March 16th hearing showcased NASA's initial 
accomplishments in this area of research. Given that, why didn't NASA 
request any funding for hypersonic research in FY 2006? Was the reason 
budgetary?

A3. The NASA investment in hypersonic research culminated in successful 
flight demonstrations at nearly Mach 7 and Mach 10 in FY 2004. In FY 
2005, NASA, under an item of special Congressional interest, is 
focusing on analyzing and transferring technical information to assist 
the Air Force with their X-43C activities. In FY 2006, NASA has no 
requirement for a hypersonic vehicle to meet its launch requirements 
for the new Exploration Vision and therefore, the Agency terminated its 
Next Generation Launch Technology program. With other aeronautics 
programmatic priorities in FY 2006, it was not possible to propose 
additional hypersonic research in the President's Budget Request. 
However, we will continue to assess the Nation's hypersonic 
requirements and options for the future.

Q4.  NASA apparently is considering closing down additional 
``underutilized'' facilities in part to free up funds for the 
exploration initiative. Aeronautical test facilities and the 
technicians that operate them have been identified as likely targets. 
However, a recent RAND Corporation assessment prepared for NASA 
concluded that: ``NASA should maintain nearly all of its 31 major wind 
tunnel and propulsion test facilities to support research, development, 
production, and sustainment by the Nation's aeronautic industry.''

Q4a.  Have you reviewed the RAND assessment?

Q4b.  Do you agree with it?

Q4c.  What is NASA planning to do about the 31 test facilities and 
associated workforce cited in the RAND assessment?

A4a,b,c. The RAND project team briefed NASA management at multiple 
points during the conduct of the RAND study, including a final briefing 
summarizing their findings.
    We believe that the RAND team did a commendable job of not only 
assessing the current state of, and environment surrounding, NASA's 
major aerodynamic and propulsion ground test facilities, but also of 
developing and using an assessment method that can be applied as 
national and programmatic requirements continue to evolve. In general, 
we concur with the RAND team on the basic substance of all of their 
findings and recommendations. In particular, we agree with their 
findings that ground test facilities (along with computational tools 
and flight assets) are still critical components of a research and 
technology program; that nearly all of the facilities studied can serve 
strategic national needs (but not necessarily NASA needs, a point to 
which we will return below); that NASA's portfolio of facilities is in 
mixed health; and that NASA should provide some type of shared 
financial support to a minimum set of test facilities.
    With respect to their specific recommendations, we agree that it is 
important to develop an aeronautics test technology vision (although we 
would stress that such a vision should be driven by, and an integral 
part of, and overall national aeronautics policy); that NASA should 
continue to develop plans to modernize facilities; that NASA should 
prescribe common management and accounting guidance for these 
facilities; and that NASA should work with the Department of Defense to 
address the viability of a ``national reliance plan'' for major ground 
test facilities. In fact, NASA's Aeronautics Research Mission 
Directorate is pursuing implementation of all of these recommendations 
as part of the FY 2006 and FY 2007 budget processes.
    As mentioned above, however, RAND developed and used a methodology 
that can be applied as national and programmatic requirements continue 
to evolve. As does any such study of this type, the RAND study began 
with, and was grounded in, an assessment of future national 
aeronautics-related research and technology requirements, as well as in 
an assessment of the total available suite (government, industry, and 
academia) of major ground test facilities. As either national and 
programmatic requirements or the suite of available facilities changes, 
so does the minimum set of facilities that NASA may need to retain. In 
particular, NASA's projected programmatic requirements have evolved 
substantially since the RAND team evaluated those requirements almost 
three years ago. In addition, RAND stated that nearly all of the 
existing NASA facilities served national needs, not necessarily NASA 
needs. As requirements change, it may be more appropriate to have 
operators other than NASA (for example, the DOD) operate specific 
facilities that they require, but that NASA may not. Finally, from the 
perspective of efficient facility operation, it may make more sense to 
operate a somewhat smaller set of facilities at a higher rate of 
utilization than it does to operate a larger suite of facilities at 
lower utilization rates (assuming, of course, that technical 
requirements can be satisfied with either approach). Given these three 
factors (i.e., evolving NASA requirements, related national 
requirements, and efficient facility operation), an updated application 
of the RAND process coupled with these other considerations may well 
result in a different optimum set of minimum facilities for NASA than 
that recommend by RAND at the conclusion of their study.

Q5.  The National Academies panel led by Dr. Klineberg recommended that 
``NASA should reconstitute a long-term base research program, separate 
from the other aeronautics technology programs and projects.''

Q5a.  Do you agree or disagree with that recommendation?

Q5b.  If you agree with it, what level of funding is provided for that 
base research program for each of the years FY06-10, where is the 
funding located, and what is the content of the base research program?

A5a,b. NASA agrees with the intent of the recommendations to ensure 
adequate level of funding for long-term research. Each of ARMD's three 
programs has approximately 20 percent of the funding in long-term 
research. In the outyears, we plan to consolidate this funding into a 
new Foundational Technology Program that captures long-term cross-
cutting base research & technology activities as well as those 
providing support of ARMD core competencies.

Questions submitted by Representative Michael M. Honda

Q1.  How has the percentage of NASA's budget for aeronautics research 
changed over the past decade and, in particular, over the last three 
years? Your budget presentation numbers to Committee staffers in 
February only presented total program dollars. Under Full-Cost 
Accounting, how have direct expenditures for each of the NASA 
aeronautics programs (i.e., the procurement dollars, civil servant 
salary dollars, and contractor salary dollars) at each of the four 
centers (Ames, Dryden, Glenn, Langley) changed over the past three 
years and how is NASA proposing to change those numbers in FY06 and 
outyears?

A1. Please see data in the following graphs and tables:

        1.  Overall aeronautics funding level history

        2.  Percentage of NASA budget over the past two decades

        3.  Overall budget request

        4.  Four NASA Center breakdown according to preliminary 
        planning

    (Note: HSR and AST in the chart below refer to the High Speed 
Research and Advanced Subsonic Technology programs.)
    As a percentage of the NASA budget, the Aeronautics budget peaked 
during the FY 1993 through FY 1999 time period when the High Speed 
Research (HSR) and the Advanced Subsonic Technology (AST) Programs 
existed. Both of these focused programs terminated at the end of FY 
1999 which resulted in a reduced funding level for Aeronautics.
    Note: The Aeronautics budget numbers are not full cost; they do not 
include personnel costs, such as salaries and travel and Institutional 
CoF
    The table below reflects FY 2003 Constant-year dollars (inflated).
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Q2.  How extensively has NASA consulted with the airlines and with 
pilots' organizations on what types of R&D are most crucial to aviation 
safety and to the efficiency of operations? How are the airlines' 
perspectives represented in the priorities of the Aeronautics Research 
Mission Directorate (ARMD)?

A2. From its inception as the Aviation Safety Program in 2000, the 
management team of the Aviation Safety and Security Program (AvSSP) has 
proactively reached out to the airlines in defining and assessing its 
research and development portfolio.
    In program and project formulation phases, AvSSP has conducted 
well-attended planning workshops that have included all sectors of the 
aviation community, including representatives from airlines and the Air 
Transport Association, as well as airline pilot unions.
    In many of the Program's research activities, project managers 
conduct User Needs studies. Through these studies, project managers and 
principal investigators conduct focused interviews with product user 
representatives to identify user-specific issues and capability gaps. 
The product user representatives usually target airline and pilot 
representatives. This information is used to formulate specific 
research issues and guide and focus research and development 
activities.
    For program relevance reviews, airline representatives have always 
been members of the AvSSP review teams. Currently, the AvSSP relevance 
reviews are conducted under the Federal Advisory Committee framework, 
with a subcommittee specifically to review the AvSSP.
    The AvSSP is a voting member of the Commercial Aviation Strategy 
Team (CAST), which is the entity within the U.S. that is defining and 
implementing commercial aviation safety enhancements that are projected 
to decrease the U.S. fatal accident rate by 73 percent. CAST is chaired 
by both an FAA official and an airline representative. Manufacturers 
and pilot organizations are also represented on CAST. The AvSSP Program 
Manager is a member of the CAST Executive Committee, which manages the 
CAST processes and defines the strategic direction of the group.
    AvSSP has been successful in achieving airline participation in its 
research and development efforts. Through NASA Research Announcements, 
research teams were selected that have included airline members. 
Currently, NASA technologies are being flown on revenue flights with 
two airline partners, Delta and Mesaba (a regional airline).

Q3.  In your opinion, what are the aeronautical R&D activities for 
which a government laboratory is required or best suited for the job? 
For example, how can the private sector analyze flight safety issues 
across the industry free of conflicts of interests or promote expensive 
long-range developments that cannot be profitable for at least a 
decade?

A3. Problems with the environment and other elements of the aviation 
infrastructure, such as air system capacity and air traffic control are 
not easily addressed by the private sector. The resulting delays, noise 
and emissions pollution are not even priced in the marketplace. 
Economists term these problems ``externalities'' because, unlike other 
costs, no market participant pays for them directly. As a result, the 
private sector has inadequate incentive for addressing the very real 
challenges associated with aviation. This is the situation at work in 
the example of expecting the private sector to analyze flight safety, 
or the promotion of long-range activities-neither will be profitable in 
the near-term, and there is no obvious single or shared point of 
responsibility among the competitors in the marketplace.
    Developing, maintaining, and regulating national transportation 
infrastructures, as well as other significant areas such as national 
security, are the responsibilities of the government. The civil R&D 
activities required in this task include air system capacity (which is 
a complex ``system of systems,'' including human performance elements, 
cockpit design and communications), noise and emissions reduction, 
aviation safety, and elements of security. Many NASA stakeholders and 
customers believe the government also has responsibility for 
maintaining a strong technology base for air and space transportation 
to ensure competitiveness of the U.S. economy. New technologies as well 
as technology advances in traditional and emerging study areas of 
aeronautics, such as power and propulsion, materials and structures, 
aerodynamics, etc., will enable the private sector to develop new 
capabilities and operating paradigms into products and services that 
will compete globally.
    This is a multifaceted issue that government can affect as a direct 
or indirect result of policy. The aerospace industry remains critically 
dependent on technology. Even as NASA's priorities change to meet the 
changing needs of society, it still pursues long-term efforts in 
aerospace science and technology; efforts that would not be made 
otherwise, by the private sector or other government agencies. NASA 
continues to play a unique role by connecting research infrastructure 
in both the private and public sectors. In this regard, partnerships 
remain a critical element in disseminating and applying NASA-developed 
technologies.

Q4.  How will the proposed reductions in NASA's aeronautics budget help 
bolster American's global leadership in aviation? How will the budget 
cuts impact NASA's ability to support the Joint Planning and 
Development Office's Integrated Plan? In your best judgment, do you 
believe the proposed cuts will be good for NASA aeronautics, the 
Agency, the JPDO, and the Nation?

A4. NASA's Aeronautics research is vital to the Nation in our work for 
the public good to increase safety, reduce adverse environmental 
impacts, and transform air transportation. This budget supports NASA's 
emphasis to address basic aeronautical barriers confronting our 
national aviation system and supports research to pioneer and validate 
high-value technologies that enable new exploration and discovery, and 
improve the quality of life though practical applications. The 
President's FY 2006 Budget supports the Aeronautics program's vital 
research in Aviation Safety and Security and Airspace Systems. To 
ensure maximum benefit to the taxpayer, we are transforming part of our 
investment in Aeronautics Research investment in order to more sharply 
focus the investment on revolutionary, high-risk, ``barrier breaking'' 
technologies. Toward this end, the NASA Aeronautics Vehicle Systems 
Program (VSP) has been refocused away from evolutionary research and 
technology development and toward more revolutionary, ``barrier-
breaking'' technology demonstration projects that address critical 
public needs related to reduction of aircraft noise and emissions, and 
enable new science missions. The revolutionary technologies developed 
by NASA within the next decade will form the basis for a new generation 
of environmentally friendly aircraft and will enhance U.S. 
competitiveness in 20 years from now.
    NASA has a major role in the JPDO and the Next Generation Air 
Transportation System (NGATS). While NASA is performing aeronautics 
research that provides the foundation to enable NGATS and the right 
strategies, we are also providing civil servants and direct support to 
the JPDO. NASA is providing civil service employees to serve as the 
JPDO Deputy Director (SES), Agile Air Traffic System IPT Lead (SES), 
and a Board member (SES), as well as 11 other full or part time civil 
servants. NASA financial support to the JPDO was $5.4M in FY 2004. This 
has increased to $5.6M in FY 2005 and is currently planned to increase 
to $10M in FY 2006. We are also conducting a network-enabled operations 
(NEO) demonstration of security and capacity related technologies. This 
demonstration, jointly sponsored by NASA, DOD, DHS, and DOT, could 
prove to be valuable in integrating government-wide intelligence 
operations, providing significant aid to our national security.

Q5.  With a large portion of the aeronautics budget being set aside for 
competition among industry, universities, NASA centers, and others for 
very large technology demonstrations, how can ARMD assure that the 
remaining budget for ``seed corn'' be large enough to sustain a 
critical mass of scientists and engineers and to address the Nation's 
long-range critical needs?

A5. Approximately 20 percent of each of our current aeronautics 
programs is targeted toward basic research that provides the foundation 
for the next generation of technology advancements required by NASA's 
aeronautics' goals.

Q6.  Why is ARMD ignoring the National Research Council's 
recommendation to set up a new base long-term R&D program?

A6. NASA agrees with the intent of the NRC's recommendations for long-
term basic research. Each of ARMD's three programs has approximately 20 
percent of the funding in long-term research. In the outyears, we are 
considering the consolidation of this funding into a new Foundational 
Technology Program that captures long-term cross-cutting base research 
& technology activities as well as those providing support of ARMD core 
competencies.

Q7.  How did ARMD participate in NASA's Human Capital planning effort 
to target more than 2,000 civil service jobs for elimination by the 
beginning of FY07? How was it determined that Dryden, Glenn, and 
Langley were to lose more than a third of their aeronautics technical 
employees? With such substantial reductions in the number of scientists 
and engineers at NASA centers conducting aeronautics R&D projected in 
your budget plans, will your programs be able to maintain their current 
exemplary technical quality? Will it be possible to reacquire these 
lost skills, if this move were to prove unwise?

A7. The process of projecting future aeronautics-related workforce 
levels and facility needs at the Research Centers begins with the 
programmatic requirements established by the Agency through the annual 
programming and budget development process, culminating with the 
preparation of (in this case) the FY 2006 President's budget as 
submitted to Congress. The FY 2006 NASA budget reflects a major 
transformation in both the content and conduct of the Aeronautics 
Research Mission Directorate's programs. With respect to content, the 
ARMD program, in particular the Vehicle Systems Program, has been 
transformed to focus on four ``barrier-breaking'' technology 
demonstrations, emphasizing higher-risk research where the private 
sector will not optimally invest due to risk and anticipated rate of 
return (as opposed to more near-term development programs that are 
typically the purview of the private sector). With respect to conduct, 
ARMD will be placing a renewed emphasis on realizing best value for the 
taxpayer's investment through a combination of competition models. One 
aspect of the increased use of competition is expected to be a greater 
contribution by the private sector to the conduct of NASA's aeronautics 
research. ARMD, working with the Research Centers and the Agency's 
human capital planning community, then quantified the impact on 
workforce (and facility) requirements of this combination of a more 
focused research effort and an increased private sector role. At the 
same time, changing requirements from other Mission Directorates either 
added to or reduced the total workforce projection, resulting in the 
final numbers inherent in the FY 2006 budget submit.
    Although there are numerous human capital management changes 
associated with implementing a change of this magnitude, including some 
near-term issues associated with buyouts and other workforce transition 
mechanisms, we believe that the Research Centers will retain the 
quality technical workforce required by ARMD for successful execution 
of its future programs. As part of the final phase of the ongoing NASA 
Core Competency exercise, NASA will address any issues of potential 
loss of skills that may be required by other Agency programs in the 
future.

Q8.  How are you planning on safeguarding your critical aeronautics 
facilities (wind tunnels, simulators, virtual control tower, etc.. . 
.)? In particular, how are you coordinating with Admiral Steidle to 
save ``dual-use'' facilities that support both aeronautics and space 
exploration efforts? For example, recently, at Ames, dozens of contract 
employees who have worked at the Vertical Motion Simulator were let go 
(some had extremely specific valuable expertise and experience having 
worked there for decades) leaving the facility all but shutdown. Why is 
this being allowed to happen given the historical support of this 
unique facility for aeronautics testing of human-system control 
interactions, for shuttle pilot training, and the likely future 
critical need for CEV development work?

A8. Recognizing the importance of major test facilities to both NASA 
and the Nation, the Aeronautics Research Mission Directorate is 
considering a new approach to the management of major ground test 
facilities. Through an Aeronautics Test Program (ATP), ARMD would plan 
to make a strategic investment in such facilities--in some cases to 
ensure continued operational availability and in some cases to ensure 
that a minimal level of funds are available until future users require 
those facilities. Discussions with other current and potential users, 
including but not limited to the Exploration Systems Mission 
Directorate, have been an integral part of the investment process. 
Through the ATP, NASA would be able to ensure that critical facilities 
are available for an additional period of time while future 
requirements develop. With respect to the Vertical Motion Simulator 
(VMS) at Ames, contract layoffs during FY 2005 have been required in 
order to accommodate decisions made regarding Congressional earmarks. 
Future requirements for the VMS are being defined as part of the 
ongoing budget process.

Q9.  Is NASA able to provide the stable, predictable funding of 
individual long-range R&D studies necessary for success? What 
percentage of time are NASA scientists and engineers expected to devote 
to conducting R&D versus program planning, reporting, advocacy, and 
proposal writing? Under this environment, how do you foresee NASA's 
ability to continue despite the GS wage penalty to recruit the best and 
the brightest who used to come to NASA to avoid these hassles in the 
private sector and academia and to focus instead nearly exclusively on 
cool R&D? If individuals or groups of entrepreneurial scientists and 
engineers are responsible for teaming and finding their own ``seed 
corn'' or for finding their own niche in a large external proposal as 
well as performing the R&D itself, what then is the role of management?

A9. As part of the transformation of the aeronautics research program, 
the Aeronautics Research Mission Directorate is in the process of 
establishing a ``foundational technology'' effort that will provide the 
long range ``seed corn'' for future breakthrough demonstrations. At the 
moment, the foundational technology effort comprises three components--
basic research and development, university-based fundamental and 
applied research, and a strategic investment in major aeronautics test 
facilities. The combination of these investments will enable ARMD to 
support a stable, ongoing effort in longer-term R&D.

Q10.  By setting aside a large portion of the aeronautics budget for a 
very small number of large demonstration projects in which corporations 
will play a large role, is not ARMD prejudging which areas of industry 
should prosper over others? How is such an approach consistent with 
free and open competition? Furthermore, consider an analogy to NIH's 
successful campaign to eradicate polio, in which NIH chose to support a 
wide array of long-range, science-driven studies to discover the polio 
virus, how it infests humans, and how it could be stopped from doing 
so, rather than striving to develop more technologically-advanced iron 
lungs. What evidence is there that large government investment in a 
small number of expensive demonstration projects is the best approach 
to stimulating bona fide technology breakthroughs?

A10. By focusing the Aeronautics Research program on breakthrough 
demonstrations, NASA will actually be expanding--not limiting--the 
areas in which others might invest. These demonstration efforts will 
address technologies and concepts that are still too unproven or risky 
to attract attention and capital from the private sector or other 
interested parties. It should also be noted that the selection of the 
demonstrations themselves has been, and will be, guided by inputs from 
a wide variety of sources, including the National Research Council. 
NASA feels it can continue to attract the best and brightest to perform 
aeronautics research. The demonstration projects offer opportunities 
for scientists and engineers to be part of breakthroughs, such as our 
recent success on the X-43A program. And, as noted in Questions 5 and 6 
above, the long-term basic research offers opportunities for high-risk 
research that may lead to future demonstrations. NASA has had success 
in advancing the state-of-the-art in aeronautical research and 
technology using both focused demonstrations and a broader, more 
fundamental research effort. And, NASA plans to continue pursuing both 
avenues through the combination of the barrier-breaking demonstrations 
and a fundamental technology investment. The ARMD Program as submitted 
in the FY 2006 budget simply shifts the balance between the 
breakthrough and the fundamental to optimize the government's 
investment.

Q11.  Four of the five Field Centers that are reporting extreme 
workforce distress have had a tradition of focusing on aeronautics. Why 
do you think that your centers and Ames are planning such dramatic 
workforce downsizing? Does it not worry you that these Centers are 
planning on losing more than a third of a workforce that has dedicated 
their lives to primarily to aeronautics, many of whom have been and 
continue to be world-class contributors to NASA's mission? How is this 
consistent with the ``NASA family'' value that management has been 
touting? Do you believe this course of action is best for the future of 
NASA aeronautics, the Agency, and the Nation?

A11. This question was addressed in #7 above.

Q12.  Are you not worried that the increase of direct NASA funding to 
aircraft manufacturers, such as Boeing, or other aeronautics industry 
entities that may result from NASA's ``competition'' for aeronautics 
R&D work will violate the GATT? If not, why not?

A12. The objective of increased competition is to ensure the best value 
for the taxpayers' money. The aeronautics research that will be 
completed targets technologies that are ``beyond the horizon'' of the 
aeronautics industry. Since the results are available equally to all of 
industry, it is not a violation of GATT.
                   Answers to Post-Hearing Questions
Responses by John M. Klineberg, Committee Chairman, National Research 
        Council Panel

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The National Academy of Sciences study recommended that NASA 
``dispose of underutilized facilities.'' What did the Academy mean by 
that? Should NASA consider any factors other than current utilization 
in deciding which wind tunnels to maintain? Do you believe that NASA 
needs to close down at least some of its wind tunnels to maintain a 
viable research program given the budget outlook?

A1. Our committee completed its report in November 2003, before the 
latest round of budget cuts. At that time we already were concerned 
that NASA was trying to do too much within the available funding. For 
this reason, we recommended that NASA ``continue to dispose of 
underutilized facilities,'' meaning that they should continue to look 
at their facilities, particularly those that were not unique, with the 
goal of consolidation or deactivation as a way to reduce long-term 
fixed costs.
    We specifically recommended that NASA not use current utilization 
as the only consideration in deciding which facilities to close. In our 
comments about full-cost accounting, we stated the following: ``The 
committee is concerned that, if not carefully managed, full-cost 
accounting could result in (1) the closure of critical infrastructure 
and special-purpose facilities that will be needed for future program 
execution and (2) a disincentive to use large-scale facilities and 
flight test to fully demonstrate technology readiness.'' As a result of 
item (2), we cautioned that: ``The testing infrastructure will be 
underutilized and will not generate the resources needed to sustain 
it.''
    Given the budget outlook, it is evident that NASA needs to do 
everything possible, including placing some of its wind tunnels in 
stand-by mode, to attempt to maintain a viable research program. It is 
very possible that they already have decommissioned all the facilities 
that are appropriate to close. My personal concern, as I stated in my 
testimony to the Committee, is that the current reduced funding levels 
may have put NASA very close to the point at which ``This program is on 
its way to becoming irrelevant to the future of aeronautics in this 
country and in the world.''

Q2.  If the budget for aeronautics is limited, is it more important for 
NASA to fund long-term, high-risk research or to continue with 
incremental subsonic research? Should improving air traffic control be 
the top priority for NASA's research program?

A2. This critical issue was not addressed by our National Academies 
Committee. The NASA Administrator, the Associate Administrator for 
Aeronautics, the program managers at NASA headquarters and their 
counterparts at the field centers, working in conjunction with the 
various aeronautics advisory committees, all are responsible for 
addressing this question.
    Our committee did not set priorities among the various parts of the 
program. We were chartered to assess NASA's Aeronautics Technology 
Programs at their then (FY 2003) funding level, which we did by 
performing an in-depth examination of the various technical elements to 
identify strengths and weaknesses. We attempted to answer the following 
four questions:

        1.  Is the array of activities about right?

        2.  Is there a good plan to carry out the program?

        3.  Is the program doing what it set out to do?

        4.  Is the entire effort connected to the users?

    Our conclusion was that ``in general, the Aeronautics Technology 
programs are very good but could be greatly improved by following the 
committee's 12 top-level recommendations.''
    I believe our committee would agree that the answer to the question 
of priorities is that it is important to pursue both long-term and 
short-term research. We need to continue to improve the reliability, 
safety and cost effectiveness of subsonic transports and the 
effectiveness of the air traffic control system. And we also need to 
investigate ``innovative concepts that are critical to meeting aviation 
needs in the next decades.''
    NASA should develop advanced technology that addresses today's 
critical problems in air transportation. NASA also should establish the 
technical foundation for future improvements that may be beyond the 
time horizon of the industry or the FAA.

Q3.  How high a priority should research on hypersonics be? If NASA 
aeronautics research were flat funded in Fiscal Year (FY) 06, that is, 
given $54 million more than the President has proposed, where would you 
put that money?

A3. Our National Academies Committee did not address these issues, of 
course, since they are primarily directed at decisions concerning 
NASA's FY 2006 aeronautics budget.
    The Committee did conclude, however, that hypersonics was an 
appropriate area for research and that it was an example of the high-
risk, high-payoff technologies that NASA should pursue. The Hyper-X 
sub-project also was identified as one of the best planned activities 
in the entire program. The Committee's support for research in this 
area was not so much because we were convinced in the potential 
viability of a hypersonic-cruise airplane, but because we believed that 
hypersonics serves as an important focus for innovative thinking about 
advanced concepts in propulsion, aerodynamics, structures, materials, 
controls, handling qualities, etc.
    As to where to put the additional funds, an increase of $54 
million, even if it does not fully restore the FY 2006 run-outs to the 
earlier program, is a very substantial change. I would recommend that 
NASA be allowed to re-plan the aeronautics program to the new funding 
level with the goal of reducing some of the onerous disruptions 
previously contemplated.

Questions submitted by Representative Mark Udall

Q1.  Some have argued that aviation is a mature industry and thus the 
Federal Government should no longer invest in aeronautics R&D. Do you 
agree or disagree with that conclusion?

A1. I personally do not believe that aviation is a mature industry. In 
fact, I would argue that it is an industry that will change 
dramatically in the near future if it is to remain viable. Commercial 
air transportation is so vital to the economic well-being of this 
country that it cannot be allowed to become a major inhibitor of 
increased productivity.
    The pressures for change are there, for example in the financial 
problems currently experienced by all major airlines, problems that are 
becoming worse as the price of jet fuel increases. Air travel also has 
become less enjoyable for the traveling public, with long lines for 
security at airports, fewer on-time arrivals and more frequent delays 
because of air traffic congestion. The entire commercial air 
transportation system seems to be headed for eventual gridlock.
    On the manufacturing side, Boeing, our single remaining commercial 
aircraft provider and the largest exporter of U.S. products, is facing 
serious competition in the world market from a subsidized European 
competitor and may not be able to be profitable in building commercial 
transport aircraft. And our jet engine manufacturers, Pratt and General 
Electric, need the revenue from the service business and the sale of 
derivative stationary power plants to remain in business. A viable air 
transportation system will not be possible unless all of its components 
have the opportunity for dramatic improvement.
    The solutions are complex. We need to develop advanced transport 
aircraft of various sizes and different capabilities that are 
considerably more fuel efficient, easier to maintain, and more 
environmentally friendly than the current fleet. We need to develop 
aircraft that can be operated by one or two on-board personnel 
supervising the control system of a semi-autonomous vehicle, rather 
than operated by highly-trained (and costly) pilots and crew as we do 
today. And we need transport aircraft that are as part of an efficient, 
safe, secure, weather-independent and predictable world-wide air 
traffic control system. Aeronautics R&D certainly can help provide the 
foundation for these improvements.

Q2.  Your panel recommended that ``NASA should conduct research in 
selective areas relevant to rotorcraft.'' Why did your panel make that 
recommendation? What areas did the panel consider to be worthy of 
research by NASA?

A2. Our committee was unhappy to learn that NASA had abandoned all 
rotorcraft research because the OMB apparently had decided that because 
the Army is a major beneficiary of such work, the research should be 
funded as part of the DOD budget. This is a narrow point of view and 
ignores the difficulty of having an operational organization be 
responsible for R&D. As a result, rotorcraft research in this country 
has suffered in recent years.
    The committee felt that rotary wing aircraft are probably the 
aeronautical vehicle system most in need of substantial technology 
advancements in structures, materials, aerodynamics, displays, controls 
and handling qualities if they are to become more efficient, safer and 
more reliable. These areas of disciplinary research deserve attention 
by NASA.
    The committee made several specific suggestions in the report, as 
follows: ``Rotorcraft are an important constituent of air 
transportation. Many of the research projects currently underway in the 
Aeronautics Technology Programs, such as synthetic vision and human 
factors, would be directly relevant to rotorcraft with only minimal 
additional investment. NASA could make a significant impact in under-
researched areas of rotorcraft such as decision aids, synthetic vision, 
pilot workload, and situational awareness. Further, the existing U.S. 
Army programs in rotorcraft technologies and industry research and 
development in rotorcraft could be leveraged by NASA to meet civilian 
needs in this area.''
    This recommendation was stated in another section of the report as 
follows: ``NASA led many of the revolutions in rotorcraft design that 
we now find in the commercial and military sectors. Unfortunately, 
however, the NASA plans reviewed by the panel had no focused rotorcraft 
activities. If the U.S. rotorcraft industry is to remain competitive in 
the international marketplace, NASA leadership and innovation will be 
required to respond to the European and Asian products now entering the 
market.''

Q3.  Your testimony states that ``. . .NASA's decision to discontinue 
rotorcraft research has left critical civilian needs unaddressed.'' Can 
you provide some specific examples of critical needs that will be 
unaddressed?

A3. This question is answered, in part, above. In addition, some 
examples are contained in on of the Committee's specific 
recommendations in the report, as follows: ``The Aviation Safety 
Program should reincorporate rotorcraft research into its program. The 
research should consider the most effective approaches for reducing the 
workload of rotorcraft pilots and improving their ability to conduct 
safe, low speed, low altitude rotorcraft operations in obstacle-rich 
environments and in adverse weather.''
    Rotorcraft have many specific civilian applications, such as in 
medical emergencies, highway traffic monitoring and control, police 
assistance of all kinds and logging in remote regions. One of their 
major uses, in this era of increasingly limited energy supplies, is in 
the maintenance and supply of off-shore drilling platforms throughout 
the world. Many aspects of these civilian operations are not address by 
technology activities that focus only on military requirements.

Q4.  What will be the impact of OMB's directive to NASA eliminating 
federal research in subsonic transport aeronautics?

     Will it be possible to make major breakthroughs in noise and fuel 
consumption and aviation safety and security research in the future 
without being able to treat the subsonic transport aircraft as an 
integrated system?

A4. Our committee completed its report in November 2003 and therefore 
did not review NASA's response to this latest round of budget cuts. At 
that earlier time, however, we already were concerned about the lack of 
funding for important areas of research that could provide major 
breakthroughs to enable the air transportation system of the future.
    The committee made the following recommendation in the report: 
``Many innovative concepts that are critical to meeting aviation needs 
in the next decades will not be pursued by industry or the Federal 
Aviation Administration (FAA). NASA should fill this void. The 
committee applauds the inclusion of high-risk, revolutionary sub-
projects in many areas and believes the program portfolio could benefit 
from additional far-reaching efforts with the potential for high 
payoff. This type of research is critical to investigating the 
feasibility of innovative concepts and reducing risk to the point where 
the concepts are suitable for advanced development and transfer to 
industry or the FAA.''

Q5.  Did your panel consider hypersonics research to be an appropriate 
activity for NASA to pursue? Why or why not?

A5. Our committee believed strongly that hypersonic research was an 
appropriate area for NASA research and that it was very much in keeping 
with one of the top-level recommendations, that ``NASA should pursue 
more high-risk, high-payoff technologies.''
    One of the major activities in hypersonics was singled out for 
praise as follows: ``The Hyper-X sub-project shows some of the best 
planning seen across all the programs reviewed by the committee. The 
NASA planning reflects the high-risk aspect of this task by providing 
for three vehicles and anticipating possible loss. The first flight 
test was not successful because a rocket booster failed, demonstrating 
the wisdom of the contingency aspect of this plan.''
    The committee continued its uncharacteristic praise as follows: 
``The sub-project is well connected programmatically to its 
antecedents, another of its notable features. Indeed, many of the 
detailed aspects to be investigated are directed at answering key 
questions surrounding hypersonic flight. By virtue of careful 
consideration of this background and good planning, the goals of the 
sub-project are realistic and the risk associated with it has been 
mitigated. The ultimate goal is to demonstrate positive net thrust of 
the scramjet; this is a laudable, though difficult, goal that the 
committee hopes can be achieved.''

Q6.  Is NASA's establishment of a focused effort in four breakthrough 
technology demonstration projects fully responsive to the findings and 
recommendations of your panel regarding NASA's overall Vehicle Systems 
program? Are the goals of the demonstration projects achievable under 
the Vehicle Systems five-year budget plan?

A6. Again, our committee completed its report in November 2003 and 
therefore did not review NASA's response to the latest round of budget 
cuts. The ground rules we established for our committee precluded us 
from recommending an increase in funding for NASA so that we could 
focus on providing an independent review of the technical quality of 
the work being conducted. At that time, however, we already were 
concerned that NASA was attempting to do too much within the available 
budget, and for this reason we recommended that NASA attempt to improve 
its processes for program management, reduce the number of tasks in its 
technology portfolio and consolidate or deactivate underutilized 
aeronautics facilities.
    The current budget is considerably reduced from the one we reviewed 
and as such makes continued progress even more difficult. As I said in 
my oral testimony before the committee: ``This program is on its way to 
becoming irrelevant to the future of aeronautics in this country and in 
the world.''

Q7.  Your panel recommended that ``NASA should reconstitute a long-term 
base research program, separate from other aeronautics technology 
projects and programs.''

     What would such a base research program consist of, and does the 
restructured aeronautics R&D program contained in NASA's FY 2006 budget 
request adequately address your panel's recommendation?

A7. The committee's concern about NASA's base research program was of 
such magnitude that it was addressed in three top-level 
recommendations, as follows: NASA should eliminate arbitrary time 
constraints on program completion. . . NASA should pursue more high-
risk, high-payoff technologies. . . and NASA should reconstitute a 
long-term base research program, separate from the other aeronautics 
technology programs and projects.''
    This last recommendation was further elaborated as follows: ``The 
current research is mostly product-driven, with not enough fundamental 
work. Fundamental research is crucial for the development of future 
products. NASA needs to provide researchers the opportunity to conduct 
forward-looking, basic research that is unencumbered by short-term, 
highly specified goals and milestones. Historically, NASA has been a 
world leader in its core research areas; however, that base has eroded 
in recent years as the amount of in-house basic research diminishes. 
NASA needs to reassess its core competencies and assure their support 
through a base research program.''
    We have not been briefed on NASA's FY 2006 budget request to be 
certain that this recommendation has been adequately addressed. We 
suspect that, because of the very serious fiscal constraints imposed on 
the program, there is no longer adequate funding for NASA to pursue 
those technologies that have a high risk of unsuccessful completion 
(high risk/high payoff) and that the industry is unwilling to fund on 
its own. Unfortunately, over the past two decades the industry has 
reduced its investment in basic research, which serves at the seed corn 
for future technology opportunities. The committee was very concerned 
that NASA aeronautics is following this same path.

                   Answers to Post-Hearing Questions

Responses by Philip S. Anton, Director, Center for Acquisition and 
        Technology Policy, RAND\1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, State, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.

---------------------------------------------------------------------------
Questions submitted by Representative Mark Udall

Q1.  Is aeronautics mature?

A1. Parts of aeronautics are mature while others are evolving. Some 
aeronautic sectors have shown marked reductions in new vehicle 
development rates, and the aeronautic engineering discipline is 
relatively mature compared to where we were decades ago. However, we 
have not exhausted all aeronautic design opportunities, and aeronautic 
engineering discipline maturity relies on the test infrastructure that 
America has developed.
    Some have argued that aeronautics is a ``mature'' industry and thus 
the Federal Government should no longer invest in aeronautics R&D or 
test infrastructures.
    Earlier in my testimony I noted that the aeronautics industry has 
matured, but the question of industry maturity consists of two major 
components: market maturity (i.e., whether aeronautic vehicle designs 
have stagnated), and engineering maturity (i.e., the degree to which 
engineers know how to research, design, and produce new aeronautic 
concepts).
    While some aeronautics markets are mature in that they are ``no 
longer the subject of great expansion or development'' \2\ in raw 
design numbers, other markets are expanding to explore continued 
evolutionary development or even revolutionary concepts.
---------------------------------------------------------------------------
    \2\ The definition of maturity offered for an industry, market, or 
product by The American Heritage College Dictionary, third edition, 
1997.
---------------------------------------------------------------------------
    There has been a marked decline in the number of new major civil 
and military aircraft designs since the 1950s.\3\ However, the U.S. and 
foreign countries are continuing to push the design envelopes in the 
vehicles it is developing (including efficiencies, noise reductions, 
capacity increases, increased aeronautic performance, reductions in 
takeoff and landing length requirements, and hybridization of vertical-
takeoff-and-landing capabilities with traditional jet flight.) Also, 
the U.S. is exploring new vehicle types and concepts. For example, many 
unmanned air vehicles and unmanned combat air vehicle concepts are 
being researched, developed, and produced. Military concepts for larger 
vertical-takeoff-and-landing (VTOL) and super-short take-off-and-
landing (SSTOL) transport require continued R&D. Interests in 
commercial supersonic business jets require additional R&D for vehicle 
designs and sonic boom reduction. Air-breathing hypersonic concepts 
employing ramjet and scramjet engines are in their infancy yet hold 
potential for space access, aerospace planes, and military missiles.
---------------------------------------------------------------------------
    \3\ See, for example, Figure 2.1, p. 15, of Anton et al., Wind 
Tunnels and Propulsion Test Facilities: An Assessment of NASA's 
Capabilities to Serve National Needs, Santa Monica, Calif.: RAND 
Corporation, MG-178-NASA/OSD, www.rand.org/publications/MG/MG178/, 
2004.
---------------------------------------------------------------------------
    The aeronautics community itself has been grappling with the 
question of how many potentially valuable opportunities await our 
examination. Professor Ilan Kroo of Stanford University, for example, 
laid out the data that seems to indicate a lack of innovation giving 
the appearance of maturity, but he also outlined some innovative 
concepts that indicate the field has significant expansion and 
development opportunities.\4\ Also, the NASA Blueprint\5\ discusses a 
number of R&D concepts that NASA is considering. Other aeronautic 
trends and interests are listed in the RAND Corporation's study on test 
facilities.\6\
---------------------------------------------------------------------------
    \4\ See Kroo, Ilan, ``Innovations in Aeronautics,'' 2004 AIAA 
Dryden, Lecture, #AIAA-2004-1, 42nd AIAA Aerospace Sciences Meeting, 
Reno, NV, January 5-8, 2004.
    \5\ www.aerospace.nasa.gov/aboutus/tf/aero<INF>-</INF>blueprint/ 
(last accessed 4/20/05).
    \6\ See, for example, Chapter 2 of Anton, et al., Wind Tunnels and 
Propulsion Test Facilities: Supporting Analyses to an Assessment of 
NASA's Capabilities to Serve National Needs, Santa Monica, Calif.: RAND 
Corporation, TR-134-NASA/OSD, www.rand.org/publications/TR/TR134/, 
2004.
---------------------------------------------------------------------------
    There are technical challenges in many of these concepts, but that 
is the nature of R&D, requiring careful consideration, exploration, and 
engagement on these challenges to understand their ultimate viability 
and benefits.
    Thus, U.S. aeronautics industry ``maturity'' (lack of great 
expansion or development) is less a question of needs and opportunities 
and more a question of national intent, investment levels, and policy. 
For example, the cost to produce new vehicle designs continues to rise, 
and that has a constraining effect on development rates but not 
absolute cessation of development opportunities.
    Conversely, while only parts of the aeronautics industry are 
relatively mature, the discipline of aeronautics engineering shows a 
level of maturity. In particular, while we do not have complete, 
closed-form understanding of the aeronautic physics in which our 
vehicle components operate, we know how to use test techniques to 
experimentally explore the new physical realms in which new vehicle 
concepts operate. This is especially true for revolutionary new 
concepts that are not extensions of established systems with which 
engineers have extensive practical design experience, computational 
models, and flight experience. Even improving the performance at the 
margin of well-established and refined designs depends on appropriate 
and sufficient testing at wind tunnel and propulsion test facilities. 
Thus, aeronautic engineering discipline maturity relies on the test 
infrastructure that America has developed.

Q2.  Did the DOD attempt to use, and then abandon, full-cost recovery 
for its test facilities? If so, why?

A2. The Air Force experimented with recovering full costs from users 
during 1969 to 1972 but found the policy to be detrimental to their 
facilities, causing unstable and unpredictable pricing and resulting in 
significant drops in usage despite need.
    NASA has recently required full-cost recovery of full operating 
costs from the users of its aeronautical test facilities. The DOD tried 
a similar approach long ago, but it rather quickly went back to an 
approach that established a budget line to provide funding for its test 
facilities, with users just being charged for the costs of their tests.
    Conceptually, setting test prices to cover all costs is not 
recommended because it can discourage use and endanger strategic 
facilities. This approach does give users more information about the 
full costs for conducting their tests at a facility. If this cost is 
too high, users can respond by seeking an alternative source of 
services if it is available; alternatively, users may avoid important 
testing or test in inferior facilities and obtain degraded or even 
misleading data. The approach would lead to good outcomes if the 
alternative facilities are a better value over the long term and 
strategically important resources are retained. Unfortunately, this 
approach leads to poor outcomes if a facility is a better long-term 
value but low near-term utilizations and resulting higher near-term 
prices mask the long-term value of the facility. The approach is also 
bad when the remaining users cannot afford the costs to keep open 
strategic facilities needed in the long-term.
    When the Air Force experimented with recovering full costs from 
1969 to 1972, AEDC found that their prices became inherently unstable 
and unpredictable because large infrastructure-driven costs had to be 
spread over an annually variable customer workload base.\7\ Also, test 
customers were not given time to adjust their budgets to accommodate 
increases in testing prices. As a result, the test workload decreased 
dramatically (see the ``Industrial Funding'' era in Figure 1 below). 
This, in turn, drove up overhead costs and initiated a positive 
feedback loop that continued driving up prices and driving away users. 
AEDC found that testing decisions were being made based on near-term 
cost considerations rather than strategic considerations to reduce 
long-term program risks through testing. The resulting reduced testing 
loads and reduced income caused significant detrimental effects on 
AEDC's facilities, including the loss of skilled people, loss of 
independent analysis and evaluation capabilities, decreased investments 
for the future, and reduced facility readiness through the loss of 
maintenance resources.
---------------------------------------------------------------------------
    \7\ See Anton et al., Wind Tunnels and Propulsion Test Facilities: 
An Assessment of NASA's Capabilities to Serve National Needs, Santa 
Monica, Calif.: RAND Corporation, MG-178-NASA/OSD, www.rand.org/
publications/MG/MG178/, 2004, pp. 60-62, for a discussion of this 
topic.
---------------------------------------------------------------------------
    The financial collapse at AEDC was only halted when shared support 
through direct budget authority was restored to AEDC. Combined with the 
need to better account for the full costs of test facilities, the DOD 
established the Major Range and Test Facilities Base (MRTFB) and 
advocated that users need to see the cost they impose on a facility 
while not being asked to pay for unused and underutilized capacity at 
strategically important test facilities they use. Since 1972 (when 
direct budget authority was reinstated at AEDC), reimbursements 
consistently paid for less than half of total operating costs. Thus, 
over many decades, the DOD has found it vital to provide shared support 
for its facilities despite fiscal pressures in various eras.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Mike J. Benzakein, Chairman, Department of Aerospace 
        Engineering, Ohio State University

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  If the budget for aeronautics is limited, is it more important for 
NASA to fund long-term, high-risk research or to continue with 
incremental subsonic research? Should improving air traffic control be 
the top priority for NASA's research program?

A1. The NASA aeronautics expenditures need to maintain a balance 
between short- and long-term research. It is also important for NASA to 
explore new ideas and concepts that might come to fruition in 20 to 50 
years. It is important for NASA to address the needs of commercial 
aviation and the flying public. This requires technologies that need to 
be available five to ten years from now to permit cleaner, safer and 
more efficient travel. It is also essential for the Nation to maintain 
its preeminence in commercial aviation, a position which is coming 
under competitive pressure from Europe.
    Improving air traffic control should be a high priority for NASA's 
research program. It is needed as we move forward, and the air traffic 
volume is growing. It should be one of the top priorities at NASA in 
conjunction with subsonic and supersonic research, hypersonics, 
rotorcraft, and aviation safety and security. The recommendations for a 
NASA Aeronautics Program have been submitted in a report to the United 
States Congress in April of this year by the National Institute of 
Aerospace. This report summarizes the work performed by a team of 250 
scientists and engineers from industry and academia who have worked 
intensely to define the needs of the Nation.

Q2.  How high a priority should research on hypersonics be? If NASA 
aeronautics were fat funded in Fiscal Year (FY) 06, that is, given $54 
million more than the President has proposed, where would you put that 
money?

A2. Hypersonics is on NASA's list of priorities. It needs to be 
addressed. It comes however, after subsonic and supersonic research, 
and air traffic control. I see the first application of hypersonics to 
be military. So DOD should take the lead in funding that research. If 
$54 million in additional funding became available, I would put those 
dollars in subsonic and supersonic airframe and propulsion research.

Questions submitted by Representative Mark Udall

Q1.  Some have argued that aviation is a mature industry and thus the 
Federal Government should no longer invest in aeronautics R&D. Do you 
agree or disagree with that conclusion?

A1. Is aviation a mature industry? It depends on how you define 
``mature''; if you mean ``experienced,'' yes it is. We have come a long 
way over the last 50 years. Tremendous progress has been made in every 
facet of aeronautics both in the commercial and military fields. Does 
this mean that further major breakthrough technology developments are 
not in the cards? The answer is a resounding NO! Significant progress 
is required in every aspect of aeronautics. Let me just list a few 
areas.

        1.  Air traffic Management

        2.  Safety

        3.  Noise

        4.  Pollution Control

        5.  Fuel Burn

        6.  Maintainability

    Every forecasting indicates that the world will be adding over 
20,000 commercial airplanes to the system by the year 2020. We are 
close to gridlock today. To avoid long delays and jeopardizing the 
safety and convenience of the flying public, we need to have a better, 
more efficient airspace system.
    Noise is getting to be a barrier to growing airports and 
improvements are needed in the aircraft and engine design. The same 
goes for Aircraft emissions which are growing significantly as air 
traffic grows. They require further research in clean combustion 
systems. We need more fuel efficient engines to reduce CO<INF>2</INF> 
and its threat to Global Warming. This is just for subsonic airplanes. 
When we go to supersonic airplanes, we have not even scratched the 
surface. Beyond the noise and emission challenges, flying at supersonic 
speeds for sustained periods of time brings up the need for a plethora 
of technologies that are yet to be developed. The challenges are 
similar to the one faced in the military world when one goes to the 
Long Range Strike Fighter and other applications. The Hypersonic World 
is also out there and this is just the beginning.
    So there is a lot to be done in the ``mature'' industry. There is a 
lot to be done also on the education side to ensure that we properly 
train the work force, the engineers, and the scientists in the U.S. so 
they can face these technology challenges.
    So the need is there. Should the Federal Government invest in 
Aeronautics R&D? The answer is YES. The question is often asked: Why 
does not the industry pick up the effort? The answer is that the 
industry is geared to perform the development of new products. This 
investment is large (10 fold the amount of R&D effort described above). 
The industry is focused on products it wants to bring to market in the 
next five to 10 years. The Federal Government needs to invest in 
technologies that will be needed in 10 to 20 years. It needs to 
evaluate a number of technologies, do the screening so that the 
industry could pick up the winners and develop them into products. In 
summary, I believe that Aviation has made tremendous progress over the 
last 50 years. There is a lot yet to be done and the Federal Government 
has a key role to play in Aeronautics R&D.

Q2.  In 2001 the European Commission announced a multi-year initiative 
in aeronautics with ambitious goals. To quote the ``Vision 2020'' 
report, the goal of that initiative is that: ``In 2020, European 
aeronautics is the world's number one. Its companies are celebrated 
brands, renowned for the quality of products that are wining more than 
50 percent shares of world markets for aircraft, engines, and 
equipment. . . The public sector plays an invaluable role in this 
success story. . . Crucially [European governments] are coordinating a 
highly effective European framework for research cooperation, while 
finding programs that put the industry on more equal terms with its 
main rivals.''

Q2a.  How seriously do you take the European Initiative in aeronautics 
R&D?

Q2b.  Do you believe that the NASA aeronautics budget request for FY06 
and the outyears is a sufficient response to the European Initiative?

A2a,b. In the last month, I have been to Europe twice to visit European 
industry and European universities. I can assure you that the European 
initiative in aeronautics R&D is serious, very serious indeed. They 
have a detailed plan outlining their goals, the technology barriers as 
well as the research programs they need. These programs are funded and 
on their way. There is an excellent collaboration between industry, 
academics and European governments. The programs are led by the 
industry. They are focused and results oriented. I believe that the EU 
community has put in place the elements of a program to give them the 
leadership in aeronautics in the next decade.
    I do not believe that the NASA Aeronautics Budget request for FY06 
and the outyears represents an adequate response to the European 
Initiative. It does not come close to facing the needs of the Nation in 
Aeronautics. As I mentioned in my testimony, I believe that aeronautics 
needs a national vision and an agenda to move forward. I believe that 
its vision and strategy must be developed in partnership by industry, 
academia, and the Federal Government. As related in my testimony, the 
National Institute of Aerospace, at Congress' request, has chartered a 
task team of scientists and engineers to examine the subject and define 
some specific recommendations. This work has been completed and is 
summarized in a report that was delivered to the Chair and Ranking 
Member of both Appropriation Subcommittees last week . I believe that 
the type of effort outlined in this report is what is required in the 
next five years to address the aforementioned European Initiative.

                   Answers to Post-Hearing Questions

Responses by R. John Hansman, Jr., Director, International Center for 
        Air Transportation, MIT

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  ``If the budget for aeronautics is limited, is more important for 
NASA to fund long-term, high-risk research or to continue with 
incremental subsonic research? Should improving air traffic control be 
the top priority for NASA's research program?''
    NASA should have a balanced portfolio of near and long term focused 
research. As with any portfolio the long-term research can and should 
be higher risk with high future payoff while the near-term research is 
focused on well identified needs.
    I would point out that many of the high payoff areas are likely to 
be in subsonic vehicles which will always constitute the vast majority 
of our aircraft. Breakthrough technologies which enable more efficient, 
cleaner, safer and more accessible aircraft operations would have 
enormous benefit.
    Air traffic control is clearly an area of urgent national 
attention. NASA has an important role in the national strategy to 
improve air traffic control and has been a strong member of the JPDO. 
Consequently, air traffic control should be one of the key priorities 
at NASA but this should not be to the exclusion of air vehicle or air 
safety research.

Q2.  ``How high a priority should research on hypersonics be? If NASA 
aeronautics were flat funded in Fiscal Year (FY) 06, that is, given $54 
million more than the President has proposed, where would you put that 
money?''

A2. Hypersonics research is in the long-term, high-risk category where 
the impact would most likely to be in military or space applications. I 
believe that it is wise to have some capability in hypersonics but for 
civil aeronautics would put this at a lower priority than other areas.
    Given the modest increase over the President's proposed aeronautics 
budget, I would invest part in improved engine efficiency research 
which will have strong leverage in fuel and environmental benefits. 
Given the emergent fuel shortages I would also look for opportunities 
for NASA research to have spinoff applications to automobiles and other 
vehicles. I would also invest in a program of small scale (single 
investigator) aeronautics innovation grants to stimulate new ideas and 
enthusiasm across a range of technologies.

Question submitted by Representative Mark Udall

Q1.  ``Some have argued that aviation is a mature industry and thus the 
Federal Government should not longer invest in aeronautics R&D. Do you 
agree or disagree with that conclusion?''

A1. I disagree with both the premise and the conclusion.
    Aviation continues to be a dynamic and evolving industry. There are 
rich and exciting opportunities for vehicle systems driven by potential 
advances in propulsion, information technology, materials, micro 
technologies, complex systems engineering, aerodynamics, navigation, 
human-machine integration and many other areas. We can expect new 
vehicle configurations new operating paradigms and new industries to 
emerge if we maintain a healthy aviation industry.
    The aviation industry will also need to grow to a new level of 
maturity to meet the challenges of the future. For example, increasing 
fuel prices will drive a new round of technical development to improve 
fuel efficiency. Aviation based innovations will have impact and 
applications in other vehicle classes such as automobiles. 
Environmental considerations will also stimulate innovation and the 
need for a deeper understanding of approaches to minimize environmental 
impact. Low emission and functionally silent aircraft are real 
possibilities. The increased demand and reliance for air transportation 
services coupled with airport and roadway congestion will drive the 
need for new classes of vehicles and new operating paradigms to improve 
the safety, efficiency and capacity of aviation.
    These are only a few of the obvious applications. In all 
likelihood, the most exciting opportunities are yet to be discovered. I 
hope that we can create an environment where our students have the 
skills, motivation and environment to create them.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


                 Prepared Statement of John W. Douglass
                 President and Chief Executive Officer,
              Aerospace Industries Association of America

Introduction

    Chairman Calvert, on behalf of the Aerospace Industries Association 
of America, or AIA, I wish to thank you, Representative Udall, and 
Members of the Space and Aeronautics Subcommittee for the opportunity 
to testify on the enduring connection between aeronautics research and 
American national interests. AIA represents more than 100 regular and 
170 associate member companies, and we operate as the largest aerospace 
manufacturing trade association in the United States. With more than 
607,000 engineering and production workers, we also have a long history 
in the management of aeronautics issues.
    I will begin with a summary of both the strategic benefits and the 
resource deficiencies in the aeronautics programs of NASA. After this 
overview, I will discuss two key policy challenges in the aeronautics 
arena: the need for equity in the support of mid-term and breakthrough 
aviation technologies and the critical project of air traffic 
management modernization. My testimony will then turn to an assessment 
of the aggressive aeronautics programs of America's main civil aviation 
competitor abroad: the European Union. Finally, I will close with a few 
suggestions on the focus of a potential United States Aeronautics 
Policy.

The National Value of Aeronautics Investment

    The November 2002 bipartisan report of The Commission on the Future 
of the United States Aerospace Industry concluded that continued public 
investment in aeronautical research and development remained vital to 
America's leadership in the global aviation industry (one which 
generated a $31 billion trade surplus in 2004) as well as our national 
security. In cultivating new generations of safe, high-performance 
aircraft, aeronautics programs strengthen the country's commercial and 
military power by stimulating innovations in:

        <bullet>  information technology;

        <bullet>  air traffic management;

        <bullet>  climate and terrain analysis;

        <bullet>  aerial navigation and surveillance;

        <bullet>  clean energy sources;

        <bullet>  new materials;

        <bullet>  advanced technologies for design and manufacturing 
        development; and

        <bullet>  aircraft noise and emissions control.

    Aeronautics research subsequently reduces the cost of doing 
business in a globally-integrated economy while supporting the Defense 
Department's requirement for forces that can deploy to any point on the 
planet or track our enemies from distant command centers. Recent budget 
decisions, however, do not reflect the strategic importance of 
aeronautics to the Nation.
    During the last two decades, NASA's budget has doubled from 
approximately eight billion dollars to a proposed $16.5 billion for FY 
2006. In contrast to this steady top line growth, the Agency's 
aeronautics funding has declined from a FY 1994 high point of $1.5 
billion to less than $853 million today. NASA expenditures already 
claim a modest 0.7 percent of all Federal Government spending, with 
aeronautics receiving only six percent of that amount, or $717.6 
million, by 2010 if the current plan remains unchanged.
    Complicating these trends, NASA's transition to a full cost 
accounting system in FY03 significantly reduced direct aeronautics 
research spending by transferring administrative costs previously 
absorbed in the Agency's headquarters budget to each one of the mission 
directorates (please refer to Appendix A). Even before the adoption of 
full cost accounting, the Aeronautics Research Mission Directorate 
(ARMD), with its single-digit share of the budget, employed only 15 
percent of Agency personnel yet sustained 40 percent of the Agency's 
facilities and infrastructure and therefore pays a disproportionate 
share of NASA's administrative costs.
    The ability of NASA to intensify the research and testing of 
advanced aeronautics concepts--and to reduce its overhead--ultimately 
depends on congressional leadership. AIA recommends, Mr. Chairman, that 
Congress restore NASA's funding available for aeronautics research to 
the levels seen prior to the 2003 move to full cost accounting (please 
refer to Appendix B for historical aeronautics funding trends). In 
doing so, Congress should instruct the Administration to report each 
year on efforts to ensure that full cost accounting does not divert a 
disproportionate share of resources from research to administrative 
functions.
    It is critical that Congress also direct the administration to 
provide NASA with increases without jeopardizing space exploration 
programs. In 2004, when NASA submitted its first four-year budget 
incorporating the Nation's new Vision for Space Exploration (VSE), 
officials proposed aeronautics expenditures of $942 million for FY 
2009. Barely one year later, the FY 2009 figure now stands at $727.6 
million. This reversal indicates that judgments of policy, not a 
presumed financial trade-off between aeronautics and exploration, 
underlie the decisions about NASA's long-term budget. It also signals 
that the Administration has yet to recognize the full socio-economic 
value of progress in aeronautics.

Striking the Right Balance Between Near-Term and Breakthrough Research

    An expansion of aeronautics research capabilities, Mr. Chairman, 
must occur for NASA to continue the development of both mid-term and 
breakthrough aeronautics and air transportation technologies.
    NASA's FY 2006 proposal responds to the 2004 recommendation of the 
National Research Council that the government sponsor basic research on 
``high-risk, high-payoff'' aviation initiatives. Towards this end, 
NASA's Vehicle Systems, Airspace Systems and Aviation Safety Programs 
each embrace the goal of tripling aviation system capacity and reducing 
passenger travel times by one-half during the next twenty years.
    At the same time, NASA continues to support future industry needs. 
Durable, low-cost composite materials, lower fuel consumption, and 
automated safety and maintenance monitors, all supported in their 
initial phases by government aeronautics research, will become standard 
features of most jetliners by 2015.
    But to enhance its industry support mission, the Agency should 
revitalize its turbine development programs. AIA regrets that NASA 
recently had to cancel its Ultra Efficient Engine Technology (UEET) 
work since this project centered directly on the improvement of engine 
efficiency and the reduction of fuel burn. The Agency should strongly 
consider the restoration of UEET since our successful experience in the 
1980s with its predecessor, Energy Efficient Engines, demonstrates 
industry's ability to turn NASA's basic turbine research into working 
technology that conserves fuel and reduces emissions.
    Administration officials have paid a similar lack of attention to 
rotorcraft technology. In the past 25 years, the United States has 
developed one new medium-lift helicopter while Europe has deployed 
three. More importantly, the lack of a vigorous NASA rotorcraft program 
means that the Nation continues to miss opportunities to test vertical 
lift applications for new modes of public transportation.
    NASA must therefore plan investments in aeronautics technologies 
intended for system-wide transportation improvements while working with 
industry on aircraft innovations driven by safety and market factors. 
The current budget request outlines laudable objectives such as 
subsonic noise and supersonic boom reduction in addition to the testing 
of a high-endurance Unmanned Aerial Vehicle. But the decline in year-
to-year ARMD budgets, unless reversed, will cripple NASA's ability to 
conduct basic research across the spectrum of aeronautics and confine 
the Agency's work to only a handful of projects with the highest levels 
of financial and operational risk.

Air Traffic Management Modernization: Keystone of Mobility, Security, 
                    and Growth

    Our greatest aeronautics challenge in the second century of flight 
centers on the effort to modernize the National Airspace System. 
American commercial aviation stands at an unprecedented point in 
history. Rising fuel prices, Internet-generated business, foreign 
trade, the September 11th attacks and the need for dramatically 
improved airport security, have imposed new demands on an air 
transportation system designed more than 40 years ago. A 2004 report by 
the FAA revealed that in the next 20 years, 20 more U.S. airports will 
handle at least 500,000 arrivals and departures on an annual basis. 
Furthermore, aircraft now carry 27 percent of the Nation's imports and 
exports.
    Delays, however, follow insufficient capacity, and lost time in the 
aviation sector means lost money. In 1994, 81 percent of all domestic 
flights took off on time yet NASA reported that delays of 15 minutes or 
more still cost the aviation industry 2.3 billion dollars. By 2000, the 
on-time rate had deceased to 72 percent, and the Aerospace Commission 
estimated that the cost of delays to the entire economy could exceed 
$30 billion each year.
    Economic and national security factors make it essential that the 
FAA-led Joint Planning and Development Office (JPDO), created by Public 
Law 108-176, succeed in its mission of building the Next Generation Air 
Transportation System.
    The House Science Committee, as well as the House Transportation 
and Infrastructure and the Senate Commerce Committees, have the charge 
of overseeing this complex project. With several government 
organizations involved, Congress must require interagency cooperation 
and accountability, particularly between NASA and the Air Force, on 
JPDO technology sharing and personnel assignments. AIA urges the 
Administration to continue in proposing clear and adequate budgets for 
the JPDO to reduce the risk of program delays.
    NASA's budget request wisely includes a $48 million increase in 
Airspace Systems--the Agency's office that supports the development of 
ATM situational awareness tools--and directs $10 million to the JPDO. 
With ongoing support from Congress and JPDO agency stakeholders, AIA 
believes that a fully transformed air transportation system will become 
operational by 2025. Our public safety, mobility, and world economic 
leadership demand nothing less.

The Role of Aeronautics in the International Community

    Based on the achievements of United States aerospace companies, the 
European Union (EU) and other foreign governments continue to develop 
aeronautics programs to build global economic and technological 
capabilities and to challenge the U.S. for leadership in the industry.
    In January 2001, the European Commission approved the plan entitled 
European Aeronautics: A Vision for 2020. This document adopts the 
multilateral objective of ``a world-class European aeronautics industry 
that leads in global markets for aircraft and engines.'' EU officials 
take an integrated, strategic view of aerospace and aeronautics. Vision 
2020 notes that trade, investment, tourism, and political ties to 
emerging markets all depend on a vibrant air transportation industry. 
The Europeans also have a clear sense of the business issues at stake; 
their plan states that ``without European aeronautics, air travel would 
be almost completely dominated by U.S. aircraft.''
    Vision 2020 declares that the time and expense associated with 
airliner development goes ``beyond the reach of one company and of the 
budgets of most single nations.'' As a result of this assessment, 
European leaders announced in March 2002 the goal of increasing total 
R&D spending to three percent of European GDP by 2010, with the 
aeronautics share claiming $2.6 billion. Fourteen years ago, the EU's 
aeronautics budget amounted to just $45 million.
    NASA's current budget submission moves in the opposite direction of 
the Europeans, with cuts in aeronautics programs of almost 25 percent 
over the next four fiscal years even though the Agency focuses on vital 
public interest research: initiatives that make air travel more quiet, 
secure, and reliable. EU companies and governments, unlike NASA, 
restrict international access to their aviation R&D and concentrate 
heavily on product-specific improvements to expand civil market share. 
The spending commitments of the EU, however, should remind us of the 
enduring public benefits of aeronautics--from safe forms of 
transportation to the expansion of export industries--and the 
corresponding need for Congress and the Administration to adequately 
fund government-wide aeronautics activities.

Conclusion: Envisioning a United States Aeronautics Policy

    As it prepares to consider the FY 2006 NASA Authorization Bill, 
Congress has a unique opportunity to frame a national aeronautics 
policy to guide the aviation investment and reform strategies of the 
Federal Government. The policy should confirm the multi-dimensional 
benefits of aeronautics research to the United States in this age of 
the information economy and expanding military air power. Future fleets 
of secure and efficient aircraft, enabled by new technologies, will 
stimulate higher volumes of travel and investment, as well as capital 
and cargo flows, in an aviation sector that already accounts for about 
11 million American jobs. Furthermore, the JPDO, by relying on 
aeronautics communications technologies, has the challenge of improving 
the speed and precision of airborne operations for civil and military 
users alike.
    For these reasons, a United States Aeronautics Policy would yield 
long-term benefits to the Nation and should instruct the appropriate 
government agencies to develop comprehensive strategies for high risk, 
basic aviation research as well as energy, environmental, and 
navigational programs to support air vehicles in development. We 
believe that the policy, to ensure interagency coordination, should 
also require NASA, FAA, and the Defense Department to hold regular 
joint meetings on their common aeronautics research objectives.
    The Nation would be strengthened by such a policy since the 
instruments of aeronautics improve some of the basic elements that 
define American security and prosperity in the early 21st Century: 
cost-effective mobility over vast distances; geographical analysis for 
a safe landing or enemy surveillance; and an expanded air systems 
capacity for our growing international trade commitments.
    Thank you, Mr. Chairman, for permitting AIA to submit these views 
for the record of the Subcommittee's hearing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     AERONAUTICS TEST PROGRAM (ATP)

                              White Paper

INTRODUCTION

    The NASA Aeronautics Research Mission Directorate (ARMD) proposes 
to start the Aeronautics Test Program (ATP), funded at $26M in FY06 and 
increasing to $31.4M by FY11. The purpose of the ATP is to ensure the 
strategic availability of a minimum, critical suite of wind tunnels/
ground test facilities which are necessary to meet Mission Directorate, 
Agency and National needs and requirements. In addition, the ATP will 
be responsible for the strategic and business management of the 
aeronautics wind tunnels/ground test facilities at Ames Research 
Center, Glenn Research Center and Langley Research Center. It will be 
the responsibility of the ATP Manager to ensure funding so as to 
provide the appropriate levels of maintenance and investments in the 
ATP suite of facilities. The scope of the ATP is limited to the 
management of large aeronautics ground test facilities including 
subsonic, transonic, supersonic and hypersonic wind tunnels, propulsion 
wind tunnels and jet engine test cells.

BACKGROUND

    There have been 13 major wind tunnel/facility studies performed 
during the past 15 years (see Appendix A), which have addressed the 
many issues surrounding the Nation's major aeronautical ground based 
test facilities. These studies were performed mostly at the behest of 
decision-makers within the senior management of various government 
organizations due to insufficient data being available which would 
justify the level of testing infrastructure being maintained by the 
U.S. Government and in the Nation. In general, many of these studies 
came to the same conclusion, wherein they recognized the importance of 
aeronautical ground based test facilities, wind tunnels and air 
breathing propulsion test facilities, to the future of this country's 
aeronautical industry and national security.
    The RAND Study, which is the last of the 13 studies listed in the 
Appendix, is also described in more detail in a later section. In 
implementing the Aeronautics Test Program, the ARMD has sought to 
appropriately respond to a common thread from many of these studies, 
including the RAND study. In recognition of the importance of NASA 
ground test facilities to the Nation's economic future and to national 
security, many of these studies challenged NASA to sustain key parts 
its existing test capabilities and capacity. The ATP is being 
structured to accomplish that goal.

AERONAUITCS TEST PROGRAM STRUCTURE (WHAT IS FUNDED?)

    Five categories of facilities have been established under which the 
facilities in the ATP suite have been placed. Broadly, these categories 
relate to the utilization and agency/national importance of the 
facilities. An explanation of the five categories along with the 
identification of the facilities within each category is as follows:
    Category I. Facilities for which substantial ARMD program usage is 
forecast and/or facilities for which ARMD is proposing to assume a 
national stewardship role. The intent with respect to Category I 
facilities is to provide a high level of confidence to internal and 
external users that a Category I Facility will be in operation and 
available for the foreseeable future. The Category 1 facilities are 
the:

        <bullet>  Ames Unitary Wind Tunnel

        <bullet>  Glenn Icing Research Tunnel

        <bullet>  Glenn 9  15 Subsonic Tunnel

        <bullet>  Langley National Transonic Tunnel

    Category II. Facilities that NASA (other than ARMD), DOD, and 
industry require now or may require in the future to carry out research 
and for developing vehicles. ARMD makes a two year commitment to 
facilities placed in this category, in order to properly assess the 
current environment and to not make unilateral decisions that would 
adversely effect other mission directorates, the DOD, or the Nation. 
The Category 2 facilities are the:

        <bullet>  Langley Transonic Dynamics Tunnel

        <bullet>  Langley Hypersonics Complex

        <bullet>  Langley 20-Foot Vertical Spin Tunnel

        <bullet>  Glenn Propulsion Systems Lab 3 & 4

        <bullet>  Langley 14  22 Subsonic Tunnel

        <bullet>  Glenn 10  10 Supersonic Tunnel

        <bullet>  Langley 8-Foot High Temperature Tunnel

    Category III. Facilities that are currently not required but are 
viewed as part of a robust ground test capability. The Category III 
facilities are the:

        <bullet>  Glenn Hypersonic Test Facility

        <bullet>  Ames 12-Foot Pressure Tunnel

    Category IV. Facilities that are not utilized and/or not viewed as 
components of a future ground test capability. The Category IV 
facilities are the:

        <bullet>  Langley 16-Foot Transonic Tunnel

        <bullet>  Ames National Full-Scale Aerodynamic Complex

        <bullet>  Ames 7  10 Subsonic Tunnels #1 and #2

        <bullet>  Langley 22-inch Mach 20 Tunnel

        <bullet>  Langley Low Turbulence Pressure Tunnel

        <bullet>  Langley Unitary Supersonic Tunnel

    Category V. Facilities that are defined as laboratories and as such 
are not recommended for inclusion in the ATP. These facilities are to 
be maintained by the Field Centers. Category V facilities are the:

        <bullet>  Glenn Aero-Acoustic Propulsion Laboratory

        <bullet>  Langley 0.3-meter Transonic Cryogenic Tunnel

        <bullet>  Langley Jet Exit Facility

        <bullet>  Langley 20-inch Supersonic Wind Tunnel

    All categorization decisions and investment decisions will be 
revisited annually as part of the budget cycle. The operations of the 
facilities in Categories I, II, and III above in their levels of 
readiness is funded at $18.4M in FY06. Other activities in the ATP 
include prioritized maintenance of the Category I and II facilities at 
$4.3M, facility upgrades and test technology development funded at 
$1.0M, program office expenses at $1.3M and a university research 
component which will solicit work from university principle 
investigators and will require the use of the ATP facilities to 
accomplish proposed research goals, funded at $1.0M. The ATP is 
summarized in Figure 1.
    The Aeronautics Test Program is being setup under the umbrella of 
the Foundational Technology Program. The Foundational Technology 
Program's purpose is twofold. The first is to fund basic and applied 
research in order to develop the technological foundation for the next 
wave of aeronautics barrier breaking technology demonstration programs. 
The second is to sustain the core competencies at the NASA Research 
Centers that are required to implement the current research program and 
the next wave of research programs. In addition to the ATP, the 
Foundational Technology Program also includes University Research 
Project. The University Research Project will provide funding for the 
same basic and applied research activities as described above, but with 
the stipulation that all available funding be performed in academia, so 
as to ensure that the ARMD avails itself of the widest possible range 
of research ideas and activities. This project is to be funded at one 
percent of the ``after tax'' (after ensuring that corporate and mission 
directorate general and administrative costs have been covered) 
Aeronautics Research Mission Directorate available budget guideline.

THE RAND STUDY

    In November 2004, the RAND Corporation's National Defense Research 
Institute concluded an in-depth examination of the Nation's wind tunnel 
and air-breathing propulsion testing needs and the issues surrounding 
NASA's role in meeting those needs. The final report, entitled, ``Wind 
Tunnels and Propulsion Test Facilities--An Assessment of NASA's 
Capabilities to Serve National Needs,'' was released in February 2005. 
At the highest level, the RAND Study concluded that despite aeronautics 
maturity, that test facilities are still critical. Specifically, RAND 
concluded that:

        <bullet>  NASA's wind tunnel and propulsion test capabilities 
        remain critical tools for research and production in U.S. 
        aeronautics

        <bullet>  Making users fund all costs can discourage use and 
        endanger strategic facilities

        <bullet>  Capabilities are generally consistent with national 
        needs, but some investments are needed

        <bullet>  Redundancy is minimal across NASA, and total 
        operating costs are relatively modest

        <bullet>  Many facilities operate at less than full capacity

        <bullet>  Utilization is not the overriding metric for 
        determining a facility's value

        <bullet>  Establishing and supporting a minimum set of 
        important facilities can ensure that long-term needs are not 
        endangered by short-term gains

        <bullet>  National consolidation and coordination of test 
        facility investments is the next challenge.

    The study recommended that NASA should:

        <bullet>  Develop a long-term, funded aeronautic test 
        facilities vision and plan

        <bullet>  Use shared funding of annual full costs

        <bullet>  Maintain and invest in minimum set of NASA facilities

        <bullet>  Continue efforts to adopt consistent management 
        processes and procedures across all three Centers

        <bullet>  Make sure near-term decisions (e.g., to mothball or 
        close facilities) have financial gains relative to the long-
        term capability risks

        <bullet>  Work with the DOD to analyze the issues associated 
        with national consolidation.

    In general, NASA concurs, and is taking steps to implement these 
recommendations. First and foremost, NASA is changing our approach to 
the strategic management of these important capabilities by 
implementation of the ATP. During the past several decades, decisions 
regarding the operation and closure of specific facilities were made 
primarily by the NASA Center that operated each facility, based on the 
assumption that the Center was in the best position to assess customer 
demand, or lack thereof, for any given facility. More recently, the 
nature and pace of changes within and beyond the Agency have made it 
increasingly difficult for the Centers to manage and operate such 
facilities--particularly those with large fixed costs and uncertain 
levels of utilization. There has been a growing concern that Centers 
were being forced to make investment (and potentially, divestment) 
decisions that were suboptimal with respect to overall Agency direction 
and interests.
    Thirty-one NASA ground test facilities were assessed within the 
scope of the RAND study. Of those 31, twenty-nine were considered be 
the ``minimum set'' that should be retained by NASA in order to serve 
the Nation's interests in aeronautics research and development and 
product test and evaluation. Furthermore, of those 29, nine were 
identified were identified as being, ``especially detrimental to 
close.'' This is because no alternatives to these nine facilities exist 
within the U.S., regardless of the cost. Figure 2 shows the 31 RAND 
facilities with both the ``minimum set'' of 29 and the ``detrimental to 
close'' subset of 9. The figure also identifies the relationship 
between the RAND study facilities and the ATP suite of facilities.

FACILITY COSTS EXPLANATION

    The implementation of the ATP by the NASA ARMD, is meant to 
stabilize the current environment that NASA finds itself in as the NASA 
Aeronautics R&D budgets continue to decline and as the Agency continues 
to implement full-cost accounting and management. The less than 100 
percent utilization in nearly all of NASA's large ground test 
facilities has created a situation wherein the NASA Aeronautics 
Research Programs are being required to pay facility fixed costs even 
if the utilization of a given facility is less than (and in some cases 
well less than) 100 percent of the calendar year. In the many cases 
where the fixed costs include full staffing of the facility, these 
costs being borne by the program are substantial and have a measurable 
effect on the available procurement dollars to the aeronautics research 
programs. The ATP attempts to pay for a large percentage of the fixed 
costs of its Category I facilities. For the Category II facilities, the 
ATP will encourage cost savings by staffing and operating these 
facilities only when in use and by placing the facilities in stand-by 
during non-use time periods. Category III facilities, for which there 
is no projected usage, will be mothballed starting in FY06, and the 
only incurred costs will be those associated with activities required 
to place the facility in mothball status. Should a customer have a need 
for a Category III facility, that customer will be expected to bear all 
costs of bringing the facility back to active status, of facility 
operations, and of returning the facility to it's mothballed state. 
There are no incurred costs at the ATP level for Category IV and V 
facilities, which are to be either closed or maintained locally, 
respectively.
    As calculated by RAND in doing their previously described study, 
the annual operating cost of the 31 facilities that they assessed was 
$125M to $130M, annually, in FY03 dollars. The ATP funding as mentioned 
previously is funded at $26M starting in FY06. The breakdown of that 
funding is summarized in Figure 1. Definitions as noted below are for 
explanatory purposes.

        1.  Annual Operating Cost--The operations and maintenance costs 
        of a ground test facility on an annual basis. Includes 
        staffing, utilities, and other consumables.

        2.  Fixed Operating Cost--This is cost incurred in order to 
        keep a facility open and ready for business, but does not 
        include the cost of test operations, per se.

        3.  Personnel Cost: Civil Servant and Contractor--These costs 
        attempt to capture the direct and indirect personnel associated 
        with facility and test operations.

        4.  Mothball-to-Operational Costs--Mothball costs are generally 
        only those costs required to ensure facility safety. Since 
        minimal investment is required, both the time and costs 
        associated with moving a facility from mothball to active 
        status can be substantial, depending upon the complexity of the 
        system. Typically reactivation times are order-of magnitude-
        wise measured in months.

        5.  Standby-to-Operational Costs--A facility maintained in 
        stand-by condition is one whose subsystems (electrical, 
        mechanical, facility control, and data) are regularly 
        maintained, or even exercised. As such, a small level of 
        staffing is required while a facility in stand-by. The level of 
        activity is less than would be incurred as part of the fixed 
        costs associated with an active facility. The level of effort 
        to bring the facility from stand-by to active status is order-
        of-magnitude wise measured in weeks.
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
APPENDIX

            OTHER (PAST) MAJOR FACILITY/WIND TUNNEL STUDIES

    The major studies are listed below with a brief description of each 
along with important conclusions.

         1.  The National Facilities Study, April 29, 1994: The 
        objectives of the Study were to: 1) determine where U.S. 
        facilities do not meet the national aerospace needs; 2) define 
        new facilities required to make U.S. capabilities world class; 
        3) define where consolidation and phase out of existing 
        facilities is appropriate; and 4) develop a long-term national 
        plan for world-class facility acquisition and shared usage.

         2.  ``Assessing The National Plan for Aeronautical Ground Test 
        Facilities,'' National Research Council, 1994 reviewed and 
        validated the National Facilities Study recommendations for new 
        national test capability.

         3.  ``Goals For A National Partnership In Aeronautics Research 
        and Technology,'' National Science and Technology Council, 
        1995. This report assessed the status of the U.S. aeronautics 
        research infrastructure.

         4.  Aeronautics and Astronautics Coordinating Board 
        Cooperation Initiative, May 1996, developed 34 recommendations 
        including the recommendation to create six NASA-DOD major 
        facilities alliances to improve cross agency coordination and 
        to develop costs savings and efficiencies. The alliances 
        created were:

                <bullet>  National Wind Tunnel Alliance

                <bullet>  Air Breathing Propulsion Test Facilities 
                Alliance

                <bullet>  National Rocket Propulsion Test Alliance

                <bullet>  Space environmental simulation facilities 
                Alliance

                <bullet>  Arc Heated Test Facilities Alliance

                <bullet>  Hypervelocity Ballistic/Impact Range Testing 
                Alliance

             In addition this study noted that the U.S. Government had 
        closed approximately 40 percent of its major wind tunnels and 
        air breathing propulsion test facilities since 1993.

         5.  The National Wind Tunnel Complex Project Archive, July 
        1996, describes a major new state-of-the-art subsonic/transonic 
        test capability that would have replaced several existing 
        facilities in the U.S. This complex was not built because of 
        financial considerations.

         6.  ``DOD Aeronautical Test Facilities Assessment,'' March 
        1997. The study looked at DOD's future aeronautical development 
        program needs for wind tunnel testing and computational fluid 
        dynamics.

         7.  ``Assessment of Asian Wind Tunnels,'' Sverdrup Technology, 
        Inc., June 1999.

         8.  The National Aeronautical Test Alliance (NATA) was 
        implemented in May 2000. This is a NASA/DOD alliance that was 
        created to coordinate activities between NASA and DOD thus 
        moving toward a more national view point for wind tunnels.

         9.  National Wind Tunnel Strategic Plan--Report on 912c Wind 
        Tunnel Study by DOD Test Environments Reliance Panel and NASA, 
        September 2000. This study reviewed previous wind tunnel 
        studies and provided conclusions from those studies.

        10.  ``Competitive Assessment of the U.S. Large Civil Aircraft 
        Aerostructural Industry,'' U.S. International Trade Commission 
        Publication 3433, June 2001. Part of the study addresses the 
        importance of the supporting infrastructure to the aircraft 
        industry.

        11.  Final Report of the Commission of the Future of the United 
        States Aerospace Industry, November 2002. This report noted 
        that the aerospace research infrastructure is aging and that 
        the U.S. needs to make investments in this infrastructure to 
        successfully carryout this country's research programs.

        12.  ``Securing the Future of U.S. Air Transportation--A System 
        in Peril,'' National Research Council, 2003. This report does 
        not directly address the aerospace research infrastructure but 
        does describe the expected directions of air systems 
        development and hence provides a basis for planning the 
        experimental requirements for the future.

        13.  ``Wind Tunnel and Propulsion Test Facilities--An 
        Assessment of NASA's Capabilities to Serve National Needs,'' 
        RAND, National Defense Research Institute, 2004. Reviewed this 
        country's wind tunnels and air breathing propulsion test 
        facilities, and made a recommendation of which facilities they 
        considered as important to this country's future.

</pre></body></html>
